App. 1
APPENDIX A
2017 WL 3833210
Only the Westlaw citation is currently available.
UNPUBLISHED OPINION. CHECK COURT RULES
BEFORE CITING.
Court of Chancery of Delaware.
EAGLE FORCE HOLDINGS, LLC, a Delaware
limited liability company, and EF Investments, LLC,
a Delaware limited liability company, Plaintiffs,
v.
Stanley V. CAMPBELL, Defendant.
C.A. No. 10803-VCMR
|
Submitted: August 28, 2017
|
Decided: September 1, 2017
Attorneys and Law Firms
Frank E. Noyes, II, OFFIT KURMAN, P.A., Wilmington, Delaware; Harold M. Walter, OFFIT KURMAN,
P.A., Baltimore, Maryland; Attorneys for Plaintiffs.
David L. Finger, FINGER & SLANINA, LLC, Wilmington, Delaware; Attorney for Defendant.
MEMORANDUM OPINION
MONTGOMERY-REEVES, Vice Chancellor.
In 2013, Richard Kay and Stanley Campbell decided to form a business venture to market certain

App. 2
medical diagnosis and prescription technology that
Campbell had developed. The parties outlined the
principal terms of the investment through two letter
agreements in November 2013 and April 2014. Under
the principal terms, Kay and Campbell would form a
new limited liability company of which they would
each be 50% members. Campbell would contribute the
stock of EagleForce Associates, Inc., a Virginia corporation, (“EagleForce Associates”) and the membership
interests of EagleForce Health, LLC, a Virginia limited
liability company, (“EagleForce Health”) along with
certain other intellectual property. Kay would contribute cash. For many months, the parties negotiated several key terms of the transaction documents for the
new venture. In the meantime, Kay contributed cash
to EagleForce Associates without a formal agreement
in place in order to keep the company afloat.
On August 28, 2014, Kay and Campbell signed the
transaction documents, which included an operating
agreement for Eagle Force Holdings, LLC, a Delaware
limited liability company, (“Eagle Force Holdings”) and
a contribution agreement. The parties dispute what
occurred at the August 28 meeting. Plaintiffs assert
that the parties formed binding contracts at the August 28 meeting. Campbell contends that his signature
was meant to indicate receipt of the latest drafts of
the agreements but not to manifest his assent to
their terms. Campbell also argues that the transaction documents lack certain essential terms on which
the parties had not yet come to agreement, including
representations regarding Campbell’s ownership of

App. 3
the intellectual property, stock of EagleForce Associates, and membership interests of EagleForce Health.
After a fact-intensive inquiry, this Court holds in
this post-trial opinion that the transaction documents
do not represent an enforceable contract because the
parties failed to come to agreement on certain terms
that the parties regarded as essential. The only basis
for this Court’s personal jurisdiction over the defendant is consent through forum selection clauses in the
contribution agreement and the limited liability company agreement. Because Campbell is not bound by
the forum selection clauses, this case is dismissed for
lack of personal jurisdiction.
I.

BACKGROUND

The facts in this opinion are my findings based on
the parties’ stipulations, 152 trial exhibits, including
deposition transcripts, and the testimony of ten witnesses presented at a five-day trial before this Court
that began on February 6, 2017. Additionally, the Court
considers Campbell’s testimony and the documentary
evidence presented at the evidentiary hearings that
this Court held on August 31, 2016, September 8, 2016,
May 5, 2017, and August 28, 2017. I grant the evidence
the weight and credibility that I find it deserves.1

1

Citations to testimony presented at trial are in the form
“Tr. # (X)” with “X” representing the name of the speaker. After
being identified initially, individuals are referenced herein by
their surnames without regard to formal titles such as “Dr.” No
disrespect is intended. Exhibits are cited as “JX #.” Unless

App. 4
A. Parties and Relevant Non-Parties
Richard Kay is a businessman and investor in the
Washington, DC metropolitan area. Since 2005, Kay
has owned a government contracting company called
Sentrillion with other partners.2 Kay also controls
Plaintiff EF Investments, LLC, a Delaware limited liability company (“EF Investments”).
Defendant Stanley Campbell controls EagleForce
Associates and EagleForce Health. EagleForce Associates is a start-up company that Campbell intended to
use to market a pharmaceutical software system called
PADRE.3 PADRE aggregates medical information
about patients to assist in determining which medications to prescribe to those patients. It also monitors
pharmaceutical sales for compliance with federal law.4
Plaintiff Eagle Force Holdings is a Delaware limited liability company created by Kay to serve as the
holding company for the operating EagleForce businesses. The Amended and Restated Limited Liability
Company Agreement of Eagle Force Holdings (the
“LLC Agreement”) contemplates that Campbell and
EF Investments will each own 50% of the membership
interests in Eagle Force Holdings.5 The Contribution
otherwise indicated, citations to the parties’ briefs are to posttrial briefs, and citations to the oral argument transcript refer to
the post-trial oral argument.
2
Tr. 18 (Offit).
3
Id. at 775 (Campbell).
4
Id. at 766.
5
See JX 79.

App. 5
and Assignment Agreement that Kay and Campbell
began to negotiate (the “Contribution Agreement,” together with the LLC Agreement, the “Transaction Documents”) contemplates that EagleForce Associates and
EagleForce Health will be subsidiaries of Eagle Force
Holdings.6
Donald Rogers is an attorney who represented
Campbell through key parts of his negotiations with
Kay.7
Theodore Offit is an attorney who represented Kay
in the negotiations with Campbell.8
Said S. Salah is the Vice President of Finance and
CFO of EagleForce Associates.9 From January 2016
until July 2017, he lived overseas and tapered off his
services to EagleForce Associates.10
General John W. Morgan III is a Senior Vice President of EagleForce Associates and EagleForce
Health.11
Christopher Cresswell is the General Manager of
EagleForce Health.12

6

JX 78.
Tr. 817-18 (Rogers).
8
See id. at 19 (Offit).
9
Id. at 1086 (Salah).
10
Id.; Aug. 28, 2017 Hr’g Tr. 27.
11
Tr. 1166 (Morgan).
12
May 5, 2017 Hr’g Ex. 6.
7

App. 6
Jashuva Variganti is an employee of EagleForce
Associates.13
Katrina Powers is an employee of Sentrilion.14
B. Facts
Campbell first met Kay through a mutual friend
in 2005 or 2006 when Campbell was seeking an investor for an earlier iteration of EagleForce Associates.15
Kay did not invest in the earlier EagleForce venture,
but in 2009, Campbell approached Kay again about investing in a bomb detection technology.16 Those negotiations also did not lead to a deal.
In January 2013, Campbell needed capital to market his PADRE technology through EagleForce Associates. Before approaching Kay again, Campbell met
Said Salah who had experience with government contracting.17 Campbell hired him to work with EagleForce Associates, and in May 2013, Salah and
Campbell negotiated an employment agreement for
Salah. Under Salah’s employment agreement, he is “eligible to earn equity participation by demonstrating a
sustained ability to attain specific sales, operations,
and management goals.”18 The only goal mentioned in
13
14
15
16
17
18

Tr. 716 (Variganti).
Id. at 246-47 (Powers).
Id. at 768 (Campbell).
Id. at 770-71.
Id. at 1094 (Salah).
May 5, 2017 Hr’g Ex. 6.

App. 7
the employment agreement is to “generate prorated
new business sales of at least $6.0 million over the next
two years.”19 The agreement states that Salah is eligible to earn 2.5% of the equity of EagleForce Associates.20 Salah also loaned money to EagleForce
Associates and deferred collection of his salary to provide EagleForce Associates with cash needed for its operations.21 In the same month, Salah’s brother, Haney
Salah, signed an employment agreement to become the
Chief Medical Officer of EagleForce Associates. His employment agreement contains the same eligibility requirements for equity participation, but Haney is
entitled to 1.5% of the EagleForce Associates equity
upon satisfying those requirements.22
Campbell signed Salah’s employment agreement,
and Salah testified that Kay also saw the agreement
and was aware of his claim to equity in EagleForce Associates.23
1.

The November 2013 letter agreement

In or around November 2013, Campbell approached Kay about investing in EagleForce Associates for the purpose of marketing the PADRE
software.24 EagleForce Associates recently had been
19
20
21
22
23
24

Id.
Tr. 1093-94 (Salah); May 5, 2017 Hr’g Ex. 6.
Tr. 1091, 1094-95 (Salah).
May 5, 2017 Hr’g Ex. 6; Tr. 1097 (Salah).
Tr. 1094 (Salah).
Id. at 774-75 (Campbell).

App. 8
denied a government contract, and Campbell believed
that with adequate capitalization, EagleForce Associates would be more attractive as a government contractor.25
Kay was interested in investing in EagleForce Associates, and on November 27, 2013, Campbell and Kay
signed a letter agreement dated November 15, 2013.26
Kay’s lawyers at the law firm Offit Kurman drafted an
initial version of the November letter agreement, but
Campbell and Kay independently made changes to it
themselves before signing.27 The November letter
agreement contemplates that Campbell and Kay “will
form a new LLC entity and/or a series of industry specific LLC’s [sic] verticals in Virginia.”28 Campbell’s contribution “will be PADRE source code and patents,”29
and Kay’s contribution will be at least $1.8 million in
cash with the goal of raising $7.8 million in total financing to be contributed by either Kay or a mutually
agreed upon investor.30 The November letter agreement states that “[t]he company will be able to state
that it has both the technology and intellectual property rights for all software and applications.”31 It further provides that both Campbell and Kay will own
50% of the new LLC and that they will “never dilute
25
26
27
28
29
30
31

Id. at 774.
JX 1.
Tr. 131 (Offit).
JX 1, ¶ 2.
Id. ¶ 7.
Id. ¶ 6.
Id. ¶ 7.

App. 9
[their combined stake to] less than 50.1% together in
order to maintain control. They will also agree that
their vote will always be uniformly tied as a single vote
thus protecting [Campbell] from complete loss of control.”32 Further, Campbell will be entitled to a priority
return of $1.8 million before Kay receives a distribution.33
Under the November letter agreement, both
Campbell and Kay would be involved in managing the
new LLC and “will confer on all business and marketing related activities as well as all capital needs.”34 The
new LLC’s board will have two Campbell designees,
two Kay designees, and a fifth member upon which
Kay and Campbell will agree.35 All of the material
terms of the November letter agreement were subject
to due diligence.36
2.

The April 2014 letter agreement

After executing the November 2013 agreement,
Kay and Campbell continued to negotiate. On March
17, 2014, Kay filed a certificate of formation for Eagle
Force Holdings in Delaware.37 At that time, Kay did not
tell Campbell he had formed the Eagle Force Holdings
entity; nor did he inform Campbell that the entity was
32
33
34
35
36
37

Id. ¶ 5.
Id. ¶ 10.
Id. ¶ 4.
Id. ¶ 11.
Id. ¶¶ 6, 8, 10.
JX 7.

App. 10
established in Delaware rather than Virginia, as the
November letter agreement stated.38 But on April 4,
2014, Kay and Campbell signed an amendment to the
November letter agreement, which stated “[b]y April
21 it is anticipated that a new LLC will be formed to
serve as a parent entity (‘Holdco’) for Eagle Force Associates, Inc. and the recently formed Eagle Force
Health Solutions, LLC. . . .”39
Kay and Campbell signed the April 4, 2014 letter
agreement without counsel present.40 The April letter
agreement “amends the letter agreement that [Campbell and Kay] executed on November 27, 2013 that was
dated as of November 15, 2013.”41 The April letter
agreement maintained that Campbell and Kay would
share management responsibilities and confer regarding marketing and capital needs.42 But it also further
defined Campbell’s and Kay’s roles in the anticipated
parent company, referred to as “Holdco.” The April letter agreement stated that
[Campbell] will have primary responsibility
over all information technology, product development, R & D, and customer service and
maintenance, in each case subject to an annual budget approved by the Holdco board.
[Kay] will have primary responsibility over
financial
matters,
personnel/HR,
and
38
39
40
41
42

Tr. 991-92 (Campbell).
JX 12, ¶ 2.
Tr. 380-81 (Kay).
JX 12.
Id. ¶ 4

App. 11
management of outside accounting, legal, tax
and other advisors and consultants as well as
all other matters relating to the operation of
the business of Holdco and its subsidiaries
and will consult with [Campbell] on all decisions affecting these functions.43
The April letter agreement contemplated that
Campbell would remain entitled to a priority return of
his capital,44 50% ownership of “Holdco,” and Kay’s
agreement that Kay and Campbell together would not
be diluted below 51% of “Holdco,” a slightly higher
threshold than the 50.1% in the November letter
agreement.45 The parties referred to the more defined
spheres of management responsibility in the anticipated 50-50 partnership as “swim lanes.”46
Both the November 2013 and the April 2014 letter
agreements contemplated that Campbell and Kay
would sign an operating agreement for the new LLC
“Holdco.”47 The April letter agreement provides that
“[Campbell] will, at execution of the Holdco LLC operating agreement, make customary representations to
[Kay] regarding Holdco’s free and clear right, title and
interest to 100% of such Stanley referenced IP. . . .”48
“Stanley IP” is defined in the letter agreement as “all
software and source code . . . invented, developed or
43
44
45
46
47
48

Id. ¶ 3.
Id. ¶ 10.
Id. ¶ 5.
Tr. 319 (Kay).
JX 1, ¶ 8; JX 12, ¶ 8.
JX 12, ¶ 7.

App. 12
created, directly or indirectly, by [Campbell], in whole
or in part, alone or in conjunction with others (including specifically Eagle Force Associates, Inc.. . . .”49
Recognizing that Kay and Campbell had not yet
agreed to a “Holdco” operating agreement, the April
letter agreement provides that Kay will advance
$500,000 to Eagle Force Holdings upon the execution
of the letter agreement. And “[t]his $500,000 will be
evidenced by a demand promissory note issued to
[Kay] by Eagle Force Associates, Inc. and Eagle Force
Health Solutions, LLC, jointly and severally. . . .”50 The
evidence does not show that Kay received such a note
until July 7, 2014, as discussed below. The April letter
agreement also contemplates that once Kay and
Campbell agree to the “Holdco” LLC agreement, Kay
will contribute an additional $1,800,000 to equal the
value of Campbell’s intellectual property, $2,300,000.51
Also at that time, Campbell will receive a $500,000 distribution from “Holdco” for his personal use.52
3.

The EagleForce businesses
hire Cresswell and Morgan

In May 2014, EagleForce Health entered an employment agreement with Christopher Cresswell under which Cresswell became General Manager of

49
50
51
52

Id.
Id. ¶ 6.
Id.
Id.

App. 13
EagleForce Health.53 Cresswell’s employment agreement provides that he is
eligible for equity participation in EagleForce
[Health] Stock Appreciation Rights (SAR’s)
plan. [Cresswell] will be eligible to earn equity
participation as granted by the Board of Directors in the amount of 5% non-voting interest in the company of which 2.5% will be
authorized and not issued on execution of this
agreement and the remaining 2.5% shall vest
equally based on tenure on a prorated basis
over the next 3 years. Any outstanding unauthorized SARs shall automatically vest for
any change in control or termination without
cause.54
Cresswell testified that he understood that his
agreement provided him with a right to 5% of the equity of EagleForce Health but that the equity would be
expressed as SARs for tax purposes.55 Cresswell had
not seen a SARs plan but testified that Kay told him
that his equity would take the form of SARs.56
In the same month, EagleForce Associates and EagleForce Health hired General John W. Morgan III as
a Senior Vice President. Morgan’s employment agreement provides that he is

53
54
55
56

May 5, 2017 Hr’g Ex. 6.
Id.
Tr. 652 (Cresswell).
Id. at 653.

App. 14
eligible for equity participation in EagleForce
Associates, Inc. Stock Appreciation Rights
(SAR’s) plan. [Morgan] will be eligible to earn
equity participation as granted by the Board
of Directors in the amount of 300,000 SAR’s
(150,000 each) valued [sic] one dollar ($1) per
SAR. . . . SAR’s will vest based on both tenure
and contribution/revenue achievements. Any
sale of EagleForce prior to the 3 year vesting
shall result in 100% of [Morgan’s] shares automatically vesting provided [that Morgan is]
still employed by EagleForce or Terminated
without “Cause.”57
As such, Cresswell and Morgan were both entitled
to immediate vesting of any SARs they had been
granted upon a sale or change of control of the EagleForce businesses.
4. Kay becomes involved in the
EagleForce Associates business
As Kay was conducting due diligence on the EagleForce Associates business, he continued to provide
funding to EagleForce Associates58 and became involved in certain aspects of the day-to-day operations
of the company. For example, Kay suggested that
Melinda Walker be hired as a secretary at EagleForce
Associates.59 She was paid $75,000 per year, which concerned Campbell because it was a higher salary than
57
58
59

May 5, 2017 Hr’g Ex. 6.
JX 106.
Tr. 436 (Kay).

App. 15
most EagleForce Associates employees earned at the
time.60 Additionally, in October 2014, Katrina Powers,
a Sentrillion employee, and Jashuva Variganti, an EagleForce Associates employee, established a new account at Paychex, a payroll service, for the EagleForce
Associates payroll to which Campbell did not have access.61
As Kay became more involved in EagleForce Associates, Kay and Campbell’s relationship began to sour.
In an April 30, 2014 email exchange, Kay advised
Campbell that Bryan Ackerman, Sentrillion’s General
Counsel, would be involved in all contracts into which
EagleForce Associates entered. Campbell, in contrast,
wanted Salah to have a greater role. He wrote to Kay,
“I am no longer enjoying coming to work. I do not think
this will work. Please tell me what I owe you and how
we can move forward independently.”62 Kay responded
referring to the November and April letter agreements
and stating, “[m]y position is we are signed partners. . . .”63 Additionally, Kay began to speak with EagleForce Associates employees about embarrassing
aspects of Campbell’s past. For example, at some point
between March and August of 2014, Kay met with
Cresswell at a country club in Potomac, Maryland and
told Cresswell that Campbell had previously

60
61
62
63

Id. at 917-19 (Campbell).
Id. at 739-40 (Variganti); id. at 949-50 (Campbell).
JX 130.
Id.

App. 16
committed fraud.64 And Kay did not get along personally with certain EagleForce employees, particularly
Salah.65
5.

Campbell and Kay begin to negotiate
the LLC Agreement and the
Contribution Agreement

Despite the fact that Kay and Campbell’s relationship had become strained, they began to negotiate the
LLC Agreement for Eagle Force Holdings – which mirrored the structure of the “Holdco” entity referenced in
the April 2014 letter agreement – and the Contribution
Agreement. In addition to Offit Kurman, Kay engaged
Latham & Watkins to advise him on investing in the
EagleForce business. Michael Schlesinger of Latham &
Watkins advised Campbell that he should retain his
own counsel,66 and in or around April 2014, Campbell
retained Donald Rogers with the Schulman Rogers law
firm.67
On May 13, 2014, Latham & Watkins presented a
draft Contribution Agreement and a draft LLC Agreement for Eagle Force Holdings to Campbell.68 The LLC
Agreement referred to the March 17, 2014 certificate
of formation for Eagle Force Holdings that was filed in

64
65
66
67
68

Tr. 656-59 (Cresswell).
Id. at 1087-88 (Salah); id. at 1174 (Morgan).
Tr. 795 (Campbell).
Id. at 817 (Rogers).
JX 14; JX 15.

App. 17
Delaware.69 Campbell, thus, was aware that Kay
formed Eagle Force Holdings in Delaware at least by
May 13, 2014. The agreement included a forum selection clause consenting to personal jurisdiction in the
Delaware courts and an arbitration clause.70 The Latham & Watkins May 13, 2014 draft also included a first
priority return of capital for any contributions made
after the date of the LLC Agreement.71
On June 30, 2014, Rogers sent revised drafts of the
LLC Agreement and the Contribution Agreement to
Offit.72 The drafts included several notes indicating
that certain points needed to be discussed such as the
distribution waterfall and the structure of Campbell’s
contribution of intellectual property.73 It also added a
protection against dilution for Campbell arising from
any additional capital contributions until such contributions exceed $5.5 million.74 And the June 30 draft
added the requirement that for the Eagle Force Holdings board to act, Campbell and Kay both must vote in
favor of the board action.75
Also on June 30, 2014, Campbell received an email
from Kay that Campbell believed contained a racial

69
70
71
72
73
74
75

JX 15 Recitals.
Id. art. XII.
Id. § 5.1.
JX 17.
JX 18, § 3.2.1; JX 19, § 5.1.2.
JX 18, § 3.2.
Id. § 4.1.3.

App. 18
slur.76 Kay maintains that the word was a typographical error.77 I need not find what the email was intended to say because I consider it only for the fact that
Campbell had reservations about Kay’s character, and
from Campbell’s perspective, his personal relationship
with Kay continued to deteriorate. Whether such reservations were justified has no bearing on this case.
Despite Campbell’s reservations, he continued his
business relationship with Kay; EagleForce Associates
continued to receive funding from Kay; and the parties
continued to negotiate the Transaction Documents.
6.

The July 7, 2014 meeting

On July 3, 2014, Offit sent Rogers an email confirming a meeting on July 7, 2014 at Rogers’s office to
negotiate the Transaction Documents. Offit expressed
his and Kay’s concern that the negotiations were proceeding slowly, and Rogers responded that “[f ]or the
benefit of everyone, let’s make Monday [July 7] the day
we agree on all terms.”78
On July 7, 2014, Kay, Campbell, and their counsel
met at Rogers’s office to negotiate the unsettled terms
of the Contribution Agreement and the LLC Agreement.79 Offit believed that at the beginning of the
meeting, three primary issues remained to be negotiated. First, the parties had not come to agreement on
76
77
78
79

JX 16.
Tr. 444 (Kay).
JX 24.
Tr. 476 (Kay).

App. 19
the scope of the intellectual property that Campbell
would contribute and the extent of the representation
Campbell would make regarding his ownership of the
intellectual property and any third-party infringement.80 Second, because Campbell believed that the
EagleForce business required $7.8 million in cash to be
successful, and Kay planned to contribute only $2.3
million, the parties had to negotiate how Kay and
Campbell’s interests would be diluted by an additional
$5.5 million investment.81 Third, the structure of the
Eagle Force Holdings board of directors needed to be
decided. The parties had not yet agreed whether Kay
and Campbell would be the only directors or whether
a third director would be elected to break deadlock between the parties.82
The July 7 meeting went late into the night, and
the parties resolved the three issues that Offit understood to be outstanding. As to the scope of the intellectual property Campbell would contribute, the parties
agreed that he would contribute all of the intellectual
property he had created that was related to the EagleForce business.83 They agreed that Campbell and Kay
would not be diluted at the Eagle Force Holdings level
but that they would attempt to raise the additional
$5.5 million in capital by selling up to 20% of the equity
80

Id. at 62 (Offit).
Id. at 63; see JX 18, § 3.2 (Schulman Rogers June 30, 2014
draft LLC Agreement).
82
Tr. 63 (Offit).
83
Id. at 64-66; see JX 42, Sched. 2.2(b) (Schulman Rogers
July 14, 2014 draft Contribution Agreement).
81

App. 20
of each subsidiary of Eagle Force Holdings.84 And they
agreed that Campbell and Kay would be the sole directors of Eagle Force Holdings, but the subsidiaries
would have a three-person board with an additional independent director.85 While those issues were resolved
at the July 7 meeting,86 a substantial new issue arose.
During that meeting, Offit discovered for the first time
that Campbell had previously filed for bankruptcy,
which made Offit concerned about Campbell’s title to
the property he was planning to contribute to Eagle
Force Holdings.87 The next day, Offit discovered
through consultation with a bankruptcy attorney at
his firm that debt had been discharged in Campbell’s
bankruptcy and that Campbell had not listed the PADRE intellectual property as an asset on the schedules
to his bankruptcy petition.88 Kay’s counsel wanted
Campbell to reopen his bankruptcy and amend the petition to include the intellectual property that had previously been omitted.89 At trial, Campbell testified that
he did not want to reopen his bankruptcy after he
learned that having two bankruptcy proceedings on
his record might make future investors uncomfortable
with his participation in EagleForce management.90
84

Tr. 64-66 (Offit).
Id. at 64-66; see JX 30, § 4.1.8 (Schulman Rogers July 9,
2014 draft LLC Agreement).
86
Tr. 63-64 (Offit).
87
Id. at 70.
88
Id. at 73; JX 32.
89
Tr. 79 (Offit).
90
Id. at 995-96 (Campbell).
85

App. 21
At the end of the July 7 meeting, Kay and Campbell signed signature pages, which their attorneys kept
in escrow and planned to exchange when Kay and
Campbell came to agreement.91 The purpose of the signature pages was to avoid the need to reconvene to
sign the Contribution Agreement and the LLC Agreement.92 At the July 7 meeting, no one discussed
whether the attorneys’ exchange of the signature
pages constituted the only means by which they could
come to agreement on this deal.93 Kay testified that he
did not believe that an exchange of the signature pages
was the only way the parties could form a binding
agreement.94
Also on July 7, Campbell signed an EagleForce Associates note payable to Kay for the $700,000 that Kay
had contributed to EagleForce Associates because Kay
and Campbell had not yet agreed to an operating
agreement for Eagle Force Holdings.95 Kay and Campbell agreed that the note would be canceled if they
were able to reach agreement on the Transaction Documents.96

91
92
93
94
95
96

Id. at 68 (Offit); JX 115.
Tr. 68 (Offit).
Id. at 69; id. at 827 (Rogers).
Tr. 482-83 (Kay).
JX 34; JX 35.
JX 25.

App. 22
7.

Kay and Campbell continue to negotiate

On July 8, 2014, Offit sent Rogers a list of changes
to the Contribution Agreement based on the July 7 discussion.97 And an associate at Rogers’s firm sent a redlined draft of the LLC Agreement to Offit and Kay on
July 9, 2014 incorporating the negotiated terms from
the July 7 meeting.98
On July 9, 2014, Campbell also sent an email to
Morgan announcing that EagleForce Associates and
EagleForce Health had taken on Kay as their “first
Partner.”99 Morgan responded congratulating both Kay
and Campbell and copying several EagleForce employees.100 The same day, Campbell held a meeting at EagleForce Associates’s offices with all of the office staff
to introduce them to Kay.101
Throughout July 2014, Kay and Campbell continued to negotiate, and on July 22, 2014, Kay sent an
email to Campbell stating, “I am hearing that you may
be trying to change the deal and we now may not be
consistent understanding based on our agreemnt
[sic].”102 Presumably, Kay was referring to the
97

JX 28.
JX 29.
99
JX 33. Campbell testified that he did not send this email
but that Melinda Walker sent it from his email account without
his permission. Tr. 941-42 (Campbell). Regardless, this email
does not alter the weight of the evidence.
100
JX 33.
101
Tr. 1188-89 (Morgan).
102
JX 43.
98

App. 23
November and April letter agreements. Kay and
Campbell then met without their lawyers and discussed open issues. On July 25, 2014, Campbell sent
an email to Rogers, Offit, and Kay informing the lawyers of what Campbell and Kay had discussed. In part,
Campbell wrote, “[a]s for the Issue related to Bankruptcy—I don’t think I have much of an issue . . . what
we discussed and agreed is that we will pay any
amount owed. I will change that to the point that we
will pay any amount under $10,000.”103
But the bankruptcy issue was not actually resolved. On August 5, 2014,104 Campbell, Kay, Rogers,
and Offit met to attempt to agree on outstanding issues. Campbell testified that Kay and Offit would not
drop the bankruptcy issue105 because they were concerned about Campbell’s title to his intellectual property. To indicate that Campbell was not willing to
reopen his bankruptcy, he walked out of the meeting.
He testified, “I made it clear I wasn’t doing that. And
the only way I could make it any clearer was to
leave.”106 When asked about the circumstances of that
meeting, Rogers testified “[i]t may not have been clear
to me, but . . . I believe we were discussing . . . the issue
of the board of directors, the SARs, and the bankruptcy.”107
103
104
105
106
107

JX 46.
Tr. 80 (Offit).
Id. at 808 (Campbell).
Id.
Id. at 820-21 (Rogers).

App. 24
On or around August 6, 2014, Kay and Campbell
both signed a handwritten sheet of paper that stated,
“Campbell has rights to approve new investment.”108
Offit sent an email to Rogers to clarify what Kay meant
in agreeing to the handwritten note. He wrote, “[Campbell] told [Kay] he needed to be involved in all capital
raise decisions. [Kay] is obviously in agreement on
[Campbell’s] need to be involved in capital raise matters, but [Campbell] cannot have a blocking right or
veto right. The 3 person board needs to approve capital
raise matters.”109
On or before August 14, 2014, Kay and Campbell
met and discussed thirteen issues on which they came
to agreement. Kay handwrote110 the thirteen points on
a sheet of paper that he scanned and sent to Campbell.111 The list of thirteen points contemplated that
any new equity capital would be raised by issuing up
to 17% of the equity of the Eagle Force Holdings subsidiaries, not through issuing equity of Eagle Force
Holdings.112 Eagle Force Holdings would own 80% of
the subsidiaries’ equity, and the remaining 3% would
be used for a new employee SARs program—the details of which were still to be determined.113 The list
stated that Campbell cannot lose his salary or be fired.
Further, the list provides that Campbell has no veto on
108
109
110
111
112
113

JX 54.
Id.
Tr. 345 (Kay).
JX 56.
Id.
Id.

App. 25
new investors but that the subsidiaries will have
three-person boards with Mitchell Johnson as the
third person.114 Another one of the thirteen points provided that “[Salah] will be entitled to SAR only if
[Campbell] wants to give non-voting equity. It is from
his side. [Salah] not a CFO. [Kay] is not obligated at all
for [Salah].”115 The other issues on the list were operational level issues such as “[Campbell] & [Kay] will
talk daily on big issues,” and “[Kay] & [Campbell]
agree we will push Chris Cresswell to close first 3 deals
ASAP.”116
On August 19, 2014, Rogers, Campbell’s attorney,
sent revised versions of the Transaction Documents.
The August 19 versions that Rogers circulated back
tracked on some of Campbell’s concessions in the thirteen-point list.117 For example, it included a veto right
for Campbell with regard to new investors by requiring
that “for any additional capital contribution that has
been requested or accepted by a majority of the members of the board of directors or board of managers (as
applicable) of a Subsidiary, Campbell must approve the
terms and conditions of such additional capital contribution.”118 Rogers’s August 19 draft did incorporate
some of Kay’s requests, however. For example, Rogers’s
August 19 version of the Contribution Agreement included for the first time a provision requiring that Kay
114
115
116
117
118

Id.
Id.
Id.
JX 59.
Id. § 4.1.8(a).

App. 26
fund an escrow to pay any claims by Campbell’s former
creditors and that Campbell take the steps necessary
to reopen his bankruptcy.119
On August 22, 2014, Campbell sent an email to
Kay, Rogers, and Offit stating that on the bankruptcy
issue, he and Kay were each willing to commit up to
$5,000 to retain Campbell’s personal bankruptcy lawyer and resolve the issue of his title to the intellectual
property.120 If that did not resolve the issue, Campbell
agreed that out of the $500,000 distribution he would
take at closing, he would “retain up to $250,000 in an
attorney escrow of [his] choice for a period not to exceed 6 months.”121 Campbell was willing to set aside
funds to pay any creditor claims, but he did not want
to reopen a bankruptcy proceeding.
Another issue that remained open in the negotiations at the end of August was how to handle the equity
rights of certain EagleForce Associates employees, including Salah, Salah’s brother Haney, Cresswell, and
Morgan.122 Offit proposed that the EagleForce Associates employees with SARs or rights to equity be asked
to relinquish their rights by signing a waiver and that
they be told that “[a]s part of the reorganization, we
will be developing new and better defined executive incentive benefits that will replace the commission program and/or stock appreciation rights (SARS) plan in
119
120
121
122

JX 57; JX 58; JX 60; Tr. 894 (Rogers).
JX 66.
Id.
JX 67.

App. 27
which you presently participate.”123 The evidence does
not show that either Campbell or Kay approached the
EagleForce Associates employees to resolve this issue,
and as of October 2014, both Kay and Campbell
wanted the other to deal with the SARs issue.124 In the
July 22, 2014 draft of the Contribution Agreement, Offit included a specific reference to the SARs plan
through adding Campbell’s representation that
“[e]xcept for the SARS Plan, there are no outstanding
options, warrants, calls, profit sharing rights, bonus
plan rights, rights of conversion or other rights, agreements, arrangements or commitments relating to Targeted Companies Securities. . . .”125 Offit also added in
the July 22 draft representations that (1) Cresswell,
Morgan, and five other EagleForce Associates employees had executed releases for any profit sharing plan
and (2) neither Salah, Cresswell, nor any member of
Salah’s family have any legal or equitable ownership
interest in EagleForce Associates or EagleForce Holdings.126 In Rogers’s August 19 draft, he bolded and
bracketed Offit’s additions and noted “[CAMPBELL]
CANNOT GUARANTEE THIS. WE NEED TO DISCUSS.”127 I find that at least as of August 19, Offit and
Kay were both aware of the fact that EagleForce Associates had not received releases from the SARs holders.

123
124
125
126
127

JX 72.
JX 92.
JX 52, § 4.3(b); JX 58, § 4.3(b); JX 78, § 4.3(b).
JX 50, §§ 4.3(d), 4.3(e).
JX 58, §§ 4.3(d), 4.3(e).

App. 28
On August 27, Offit sent another round of revisions to the LLC Agreement and the Contribution
Agreement to Rogers, Kay, and Campbell with a cover
email stating “[p]lease confirm your acceptance of the
terms of these agreements. Please commence preparation of schedules needed for closing.”128 The date on the
front of and in the first paragraph of the draft Contribution Agreement remained blank in the August 27
version. And Section 3.1 of the agreement stated, “the
closing of the Transactions (the ‘Closing’) shall be held
at the office of the Company, commencing at 10:00am
local time on the date hereof (the ‘Closing Date’) or at
such other time and place as the Parties may agree
upon in writing.”129
The draft Contribution Agreement referenced
schedules that supplemented the representations and
warranties in the agreement and that listed the property Campbell was to contribute. And the draft stated
in the recitals that “[t]he parties hereto desire to set
forth certain representations, warranties, and covenants made by each to the others as an inducement to
the consummation of such transactions, upon the
terms and subject to the conditions set forth herein.”130
Schedule 2.2(b) listed the intellectual property that
Campbell planned to contribute.131 But the other
schedules remained incomplete. The August 27 version
128
129
130
131

JX 68.
JX 71, § 3.1.
Id. Recital D.
Id. Sched. 2.2(b).

App. 29
of the Contribution Agreement states, “Campbell shall
assign to the Company, and the Company shall be obligated to assume, and shall assume, those agreements
set forth on Schedule 3.5 attached hereto. . . .”132 Sections 4.20(d) and 4.20(f ) make clear that Schedule 3.5
includes all of Campbell’s intellectual property license
agreements.133 But Schedule 3.5 is blank.134 The agreement also states, “Schedule 4.3(a) sets forth, as of the
date hereof, (i) the number and class of authorized securities for each Targeted Company, (ii) the number
and class of Targeted Companies Securities for each
Targeted Company and (iii) the number and class of
Targeted Companies Securities held of record by
Campbell for each Targeted Company.”135 But Schedule
4.3(a) is blank except for one line of bracketed text,
which states, “[Also describe SARS Plan].”136 Section
4.12(c) of the August 27, 2014 Contribution Agreement
states, “[e]xcept as set forth on Schedule 4.12(c), neither the execution and delivery of this Agreement, nor
the consummation of the transactions contemplated
hereby, . . . will . . . accelerate the vesting, funding or
time of payment of any compensation, equity award or
other benefit. . . .”137 Schedule 4.12(c) is also blank.138

132
133
134
135
136
137
138

Id. § 3.5.
Id. §§ 4.20(d), 4.20(f ).
Id. Sched. 3.5.
Id. § 4.3(a).
Id. Sched. 4.3(a).
Id. § 4.12(c).
Id. Sched. 4.12(c).

App. 30
Many of Campbell’s representations, warranties,
and covenants related to the EagleForce businesses
reference schedules that also are blank. The draft Contribution Agreement refers to the “Campbell Disclosure Schedules.”139 And that term is defined as “the
schedules prepared and delivered by Campbell for and
to the Company and dated as of the Execution Date
which modify (by setting forth exceptions to) the representations and warranties contained herein and set
forth certain other information called for by this Agreement.”140 But none of those schedules were ever completed. For example, Schedule 4.6 is supposed to list
any contractual liabilities outside the ordinary course
of business for EagleForce Associates and EagleForce
Health;141 Schedule 4.9 is supposed to list all real property leases, subleases, or licenses to which EagleForce
Associates or EagleForce Health is a party;142 and
Schedule 4.15(a) is meant to set forth any pending
legal proceedings involving EagleForce Associates,
EagleForce Health, or their affiliates, including Campbell.143 All of those schedules are blank.
The version of the Contribution Agreement that
Offit sent with his August 27 email stated “OK DRAFT
8-26-14” on the first page.144 The version of the LLC
Agreement that he sent did not have that notation, but
139
140
141
142
143
144

Id. Ex. A.
Id.
Id. § 4.6.
Id. § 4.9.
Id. § 4.15(a).
JX 71.

App. 31
the LLC Agreement was an exhibit to the Contribution
Agreement.145 Rogers was out of town when Offit sent
the August 27 draft Transaction Documents, and Offit
received his out-of-office reply.146
8.

The events of August 28, 2014

On August 28, 2014, Kay and Campbell once again
met without their lawyers. Kay and Campbell both testified that Kay came to EagleForce Associates’s offices
with Katrina Powers for the purpose of having Campbell and Kay sign the Transaction Documents.147
Campbell was busy when they arrived but met with
them briefly.148 Because Campbell had to finish meeting with EagleForce developers, Kay and Powers left to
go to a restaurant five minutes away.149 While Kay and
Powers were at the restaurant, Kay and Campbell sent
several emails to each other. First, Cresswell sent a
non-disclosure agreement to Kay and Bryan Ackerman, the Sentrillion general counsel, with Campbell on
copy.150 Campbell replied asking Cresswell not to “forward this information outside of the company until I
have had a chance to review.”151 Kay responded, “[w]hat
are you talking about outside the company? We just
145
146
147
148
149
150
151

JX 73; JX 71, Ex. B.
JX 74.
Tr. 329 (Kay); Tr. 988 (Campbell); Tr. 267 (Powers).
Tr. 329-30 (Kay).
Id. at 330.
JX 75.
Id.

App. 32
talk [sic] 3 minutes ago. I will handle my swim lane.”152
About ten minutes later, Kay wrote “1) Bryan is inside
not outside. 2) For the record I will handle all NDA contacts.”153 In reference to earlier emails regarding the
NDA, Campbell wrote to Kay, “[a]s you can see I am not
on the mail routing and this is a bit troubling. Only you
can make these folks know that we are equal partners.”154 Kay replied, “[e]veryone knows we are
equal. . . . Please clarify w[ith] Chris and Bryan that
NDA are in buss lane [sic] and Rick will handle. And
send me the signed document if you want to go forward.”155 Around the same time, Cresswell sent an
email strategizing about how to “win” the Special
Olympics as a client. Kay responded only to Campbell,
stating “[s]orry can’t do anything until the agreement
documents you have are signed. Did you sign?”156
At around 7:00 p.m., Kay and Powers returned to
the EagleForce Associates offices. Kay, Powers, and
Campbell met for only a few minutes, and both Kay
and Campbell signed the versions of the LLC Agreement and the Contribution Agreement that Offit had
sent by email on August 27, 2014.157 Campbell testified
that before the signing, Kay told him that Rogers and
Offit “were done” with the agreements.158 Campbell
152
153
154
155
156
157
158

Id.
Id.
JX 76.
Id.
Id.
Tr. 294-95 (Powers); Tr. 332-35 (Kay).
Tr. 977 (Campbell).

App. 33
testified that he tried to call Rogers but was unable to
reach him because Rogers was out of the office.159 He
testified that Kay tried to call Offit but was also not
able to reach him.160 Kay, in contrast, testified that he
did not call Offit or make any representations about
Campbell’s lawyer.161
After Kay and Campbell signed the agreements,
Campbell walked around his desk and embraced Kay
and Powers.162
9.

The aftermath of the August 28 signing

On August 31, 2014, Kay and Campbell had breakfast with Said Salah and discussed his involvement in
the EagleForce businesses going forward, but they did
not resolve the SARs issue.163 And after the meeting,
on September 2, Salah wrote in an email to Kay and
Campbell, “I congratulate both of you on your commitments in forging this partnership, and thank you again
for recognizing the unwavering commitments I have
displayed towards the success of EagleForce.”164

159

Id.
Id. at 978.
161
Id. at 334 (Kay).
162
Id. at 240 (Powers); id. at 332 (Kay). Kay and Powers testified that Campbell hugged each of them after signing the Transaction Documents. Campbell testified at trial that instead of a
hug, he gave Kay a dap handshake. Id. at 988 (Campbell).
163
JX 80.
164
Id.
160

App. 34
On September 9, after Rogers returned from vacation, he sent revised drafts of the Contribution Agreement and the LLC Agreement to Offit.165 Rogers did
not know that Kay and Campbell had signed the documents at that time,166 and Offit never told Rogers that
the escrow agreement for the signature pages was no
longer in effect because Kay and Campbell had signed
the agreements.167 In his September 9 email, Rogers
noted two outstanding issues related to the Contribution Agreement. First, the new SARs plan remained
undefined, and Rogers reiterated that Campbell could
not represent (1) that certain EagleForce Associates
and EagleForce Health employees had executed releases or (2) that neither Salah, Salah’s family members, nor Cresswell had any legal or equitable interest
in EagleForce Associates or EagleForce Health.168 Rogers commented as follows:
THERE IS STILL MUCH THAT NEEDS TO
BE CLARIFIED HERE: (1) We are not confident that we have all of the SAR Plan offers;
(2) Burden of the SARs should not be solely on
[Campbell] because [Kay] authored it; (3)
Chris Cresswell’s offer was developed by
[Kay]; (4) There was a discussion about the
company taking responsibility for the SARs
up to a certain level. We need to understand
what percentage of SARs was originally
165
166
167
168

JX 83.
Tr. 827 (Rogers).
Id. at 831.
JX 84, §§ 4.3(d), 4.3(e).

App. 35
granted to understand the ultimate impact on
[Campbell].169
Second, Rogers stated that financial representations in the Contribution Agreement regarding the status of EagleForce Associates and EagleForce Health
would be “quite difficult to complete” because Rogers
had no financial information regarding the companies
and believed that Kay had that information for the previous six months.170 As to the LLC Agreement, Rogers
removed the provision governing how Mitchell Johnson’s successor as the third director on the subsidiary
boards would be chosen.171 And Rogers added a provision requiring that Campbell and Kay always vote in
favor of increasing Campbell’s salary to be commensurate with similarly situated officers of similar companies.172 The record does not indicate that Campbell had
previously demanded that his salary be increased to
reflect industry standards.
In September 2014, Kay and Campbell continued
to discuss the missing aspects to their agreement. On
September 16, 2014, Campbell provided certain EagleForce billing information to Kay in an email and wrote,
“[a]ttached is the invoice and summary related to outstanding billings as required from me related to closing.”173 Campbell stated that Kay’s staff had access to
169
170
171
172
173

Id. § 4.3(d).
JX 83.
JX 86, § 4.1.8.
Id. § 4.1.8(b).
JX 88.

App. 36
all of the information required to create a balance
sheet and income statement.174 Kay responded asking
for clarification and wrote, “[w]e need to complete the
paperwork so I can fully fund.”175
Offit, Rogers, Kay, and Campbell had a conference
call on September 17 to discuss Rogers’s proposed
changes to the August 28 agreements.176 Offit testified
that Kay stated on the call that he was willing to discuss potential amendments to the agreements but was
not willing to rescind and re-execute them.177 But Rogers did not remember the contents of that call.178
On October 7, 2014, Kay sent an email to Jashuva
Variganti and Campbell asking whether Variganti had
distributed the paychecks issued October 6 to the EagleForce Associates employees and asking that if they
had not been distributed that the checks be returned
to Kay for him to distribute.179 Campbell responded, requesting that Kay avoid communicating with the EagleForce staff and stating, “we remain un-closed and
this opportunity still does not have the remaining elements in agreement.”180 Kay responded on October 8,
stating in part, “[w]e have signed our agreements and
are awaiting the exhibits. [Offit] told me that [Rogers]
174
175
176
177
178
179
180

Id.
Id.
Tr. 106 (Offit).
Id.
Id. at 855-56 (Rogers).
JX 91.
Id.

App. 37
has 2 open issues” related to the boards of directors of
the subsidiaries and the SARs program.181 Campbell
did not respond to the October 8 email.182
Negotiations stalled for much of the rest of October 2014. On October 15, Rogers sent an email to Offit
stating, “[i]t seems that the ‘stall’ in getting this deal
done is clearly the modification to Said’s and his
brother’s deal. We can argue over all the reasons as to
why this isn’t happening, but the fact is that [Kay]
wants [Campbell] to deal with it, [Campbell] wants
[Kay] to deal with it and, as a result, nothing is happening.”183 Offit did not respond until October 21 when
he wrote, “Rick is away. I have a call into Rick and I’m
looking for an update.”184
On October 28, Kay emailed Campbell, Rogers,
and Offit stating, “[w]hat else can we do together to get
this done. I understand we have signed the deal but
need the exhibits.”185 Campbell responded, stating in
part, “[t]he signatures on the drafts did not represent
the completed document which remains not completed
given the two or three remaining items.”186 He also
wrote, “I have closed/settled the only item that the
Bankruptcy Atty indicated could cause any issue. . . . I
would ask that the responsibility for me to re-open the
181
182
183
184
185
186

Id.
Id.
JX 92.
Id.
JX 93.
Id.

App. 38
Bankruptcy be withdrawn from consideration/requirement.”187
In November 2014, Kay and Campbell’s relationship became more contentious, as Kay and Offit took
the position that the August 28 Transaction Documents were binding contracts and that Campbell was
in breach by failing to contribute his intellectual property and reopen his bankruptcy.188 Kay nevertheless
continued to fund the EagleForce Associates payroll
into February 2015.189
Finally, on February 18, 2015, Campbell sent an
email to Offit, Rogers, Kay, and Cresswell stating as
follows:
[W]e have reached an impass [sic] that we are
unable to resolve. I would respectfully request
that the atty’s get together to discuss the
means and methods for us to close this matter
and allow us to move on. We have booked the
funding as a loan and will proceed with
amending the existing documentation in a
means that is reasonable for us both.190
On March 17, 2015, Eagle Force Holdings and EF
Investments filed this lawsuit to enforce the August 28
Contribution Agreement and LLC Agreement.

187
188
189
190

Id.
JX 97.
JX 106.
JX 103.

App. 39
C. This Litigation
Plaintiffs filed the original complaint in this case
on March 17, 2015 and the First Amended Complaint—the operative complaint—on June 5, 2015 (the
“Complaint”). Vice Chancellor Parsons entered an interim relief order on July 23, 2015 (the “Order”). The
Order is designed to give EF Investments regular access to information regarding EagleForce Associates
and EagleForce Health during the pendency of this litigation. Under the Order, Campbell must notify Plaintiffs ten days before either EagleForce Associates or
EagleForce Health enters certain transactions, and
Plaintiffs have a right to object in writing. If Plaintiffs
object, Campbell cannot engage in a transaction covered by the Order without an order of this Court. The
most expansive advanced notice provision of the Order
requires ten business days’ advanced notice for any
transaction or series of transactions with a single person over $5,000 in value in the aggregate. Any such advanced notice must include the text “NOTICE TO
PLAINTIFFS OF PROPOSED ACTION BY DEFENDANT” in bold type under paragraph 4 of the Order. Further, the Order requires regular reports
regarding the EagleForce Associates and EagleForce
Health businesses. The reports include weekly reports
describing all sales or distribution leads regarding the
Disputed IP, weekly bank statements, weekly accounts
receivable and payable reports, and payroll statements
every two weeks.
On May 27, 2016, Plaintiffs moved to hold Campbell in contempt for violations of the Order. The Court

App. 40
held an evidentiary hearing on the motion for contempt on August 31, 2016. At the end of that day, the
Court ordered the parties to return the next day to
complete the hearing. Plaintiffs’ attorneys appeared on
September 1, 2016, but Defendant did not appear. The
Court rescheduled the remainder of the hearing for
September 8, 2016 and completed the hearing that day.
At the September 8, 2016 hearing, the Court held that
Campbell failed to provide Plaintiffs with advanced notice before withdrawing approximately $100,000 in accrued unreimbursed expenses from EagleForce
Associates and paying approximately $38,000 in vendor fees. On December 15, 2016, the Court ordered
Campbell to pay Plaintiffs’ attorneys’ fees for their
September 1, 2016 appearance at this Court when
Campbell did not appear as a partial remedy for Campbell’s contempt. The Court deferred any further remedy until after the trial in this case in part because the
question of this Court’s jurisdiction over Campbell remained undecided. Campbell was ordered to pay that
portion of Plaintiffs’ attorneys’ fees on or before December 23, 2016. Campbell deposited a check for the
attorneys’ fees into Kay’s personal bank account on December 27, 2016, the business day after December 23,
2016.191
Beginning on February 6, 2017, this Court held a
five-day trial in this case. On March 6, 2017, Plaintiffs
filed a supplemental motion to hold Campbell in
191

Letter to the Court from David Finger, Eagle Force Hldgs.
LLC v. Campbell, C.A. No. 10803-VCMR, Ex. E (Del. Ch. Jan. 10,
2017).

App. 41
contempt for additional violations of the interim relief
order. The parties filed post-trial opening briefs on
March 29, 2017. In connection with Campbell’s opening post-trial brief, he also filed a motion to amend the
pleadings to conform to the evidence submitted at trial
with respect to the defenses of unilateral and mutual
mistake. The parties filed post-trial answering briefs
on April 7, 2017. On May 5, 2017, the Court heard posttrial oral argument and held an evidentiary hearing on
Plaintiffs’ supplemental motion to hold Campbell in
further contempt of the interim relief order. On May
24, 2017, Plaintiffs filed a second supplemental motion
to hold Campbell in contempt for an additional alleged
violation of the Order. This Court held an additional
evidentiary hearing on Plaintiffs’ second supplemental
motion for contempt on August 28, 2017. This post-trial
opinion also resolves all outstanding motions in this
case.
II.

ANALYSIS

Plaintiffs’ Complaint alleges claims for breach of
contract and breach of fiduciary duty. Plaintiffs seek
an order requiring Campbell to specifically perform his
obligations under the Transaction Documents and
granting monetary damages to Plaintiffs. In the alternative, Plaintiffs assert claims for fraud and unjust
enrichment. Campbell is a resident of Virginia, and
he has objected to the personal jurisdiction of this
Court throughout these proceedings. In this unusual
case, a full trial was necessary to resolve the question
of personal jurisdiction because whether Campbell

App. 42
consented to personal jurisdiction in Delaware depends on whether Campbell is bound by the Transaction Documents.192
A. Standards of Review for Contract Formation
Plaintiffs have the burden of establishing by a preponderance of the evidence that Campbell is bound by
the Transaction Documents and, thus, is subject to personal jurisdiction in Delaware.193 “Proof by a preponderance of the evidence means proof that something is
more likely than not. ‘By implication, the preponderance of the evidence standard also means that if the
evidence is in equipoise, Plaintiffs lose.’ ”194
To enforce the Delaware forum selection clause,
Plaintiffs must prove that they formed a valid contract
with Campbell.195 It is well-settled Delaware law that
“a valid contract exists when (1) the parties intended
that the contract would bind them, (2) the terms of the
192

Eagle Force Hldgs., LLC v. Campbell, C.A. No. 10803VCP, at 48-49 (Del. Ch. July 9, 2015) (TRANSCRIPT).
193
Revolution Retail Sys., LLC v. Sentinel Techs., Inc., 2015
WL 6611601, at *9 (Del. Ch. Oct. 30, 2015).
194
Id. (quoting 2009 Caiola Family Tr. v. PWA, LLC, 2015
WL 6007596, at *12 (Del. Ch. Oct. 14, 2015)).
195
The parties raise the question of which jurisdiction’s law
applies to this case, but they do not brief the choice of law issue.
The briefing relies heavily on Delaware law, and neither of the
parties asserts that the law of Delaware is in conflict with the law
of any other jurisdiction whose law may apply. The Court, thus,
will apply Delaware law to all issues addressed in this opinion.

App. 43
contract are sufficiently definite, and (3) the parties exchange legal consideration.”196 “To determine whether
a contract was formed, the court must examine the parties’ objective manifestation of assent, not their subjective understanding.”197 “If terms are left open or
uncertain, this tends to demonstrate that an offer and
acceptance did not occur.”198
Chancellor Allen held in Leeds v. First Allied Connecticut Corp. that “[i]t is when all of the terms that
the parties themselves regard as important have been
negotiated that a contract is formed.”199 Under Delaware’s objective theory of contract law, the Court must
determine “whether agreements reached were meant
to address all of the terms that a reasonable negotiator
should have understood that the other party intended
to address as important.”200 “Agreements made along
196

Osborn ex rel. Osborn v. Kemp, 991 A.2d 1153, 1158 (Del.

2010).
197

Trexler v. Billingsley, 2017 WL 2665059, at *3 (Del. June
21, 2017).
198
Ramone v. Lang, 2006 WL 905347, at *11 (Del. Ch. Apr.
3, 2006).
199
Leeds v. First Allied Conn. Corp., 521 A.2d 1095, 1101
(Del. Ch. 1986); see also CSH Theatres, LLC v. Nederlander of San
Francisco Assocs., 2015 WL 1839684, at *15 (Del. Ch. Apr. 21,
2015) (“[A]n enforceable contract must contain all material terms
of the agreement and material provisions that are indefinite will
not be enforced.” (quoting Gallagher v. E.I. DuPont De Nemours
& Co., 2010 WL 1854131, at *3 (Del. Super. Ct. Apr. 30, 2010))
(internal quotation marks omitted)).
200
Leeds, 521 A.2d at 1102; see also Gillenardo v. Connor
Broad. Del. Co., 1999 WL 1240837, at *4-5 (Del. Super. Ct. Oct.
27, 1999).

App. 44
the way to a completed negotiation, even when reduced
to writing, must necessarily be treated as provisional
and tentative. Negotiation of complex, multi-faceted
commercial transactions could hardly proceed in any
other way.”201 To conduct such an analysis, courts review “all of the surrounding circumstances, including
the course and substance of the negotiations, prior
dealings between the parties, customary practices in
the trade or business involved and the formality and
completeness of the document (if there is a document)
that is asserted as culminating and concluding the negotiations.”202 “Until it is reasonable to conclude, in
light of all of these surrounding circumstances, that all
of the points that the parties themselves regard as essential have been expressly or . . . implicitly resolved,
the parties have not finished their negotiations and
have not formed a contract.”203 “Thus, determination of
whether a binding contract was entered into will depend on the materiality of the outstanding issues in
the draft agreement and the circumstances of the negotiations.”204

201

Leeds, 521 A.2d at 1102.
Id.
203
Id.; see also J.W. Childs Equity P’rs, L.P. v. Paragon
Steakhouse Restaurants, Inc., 1998 WL 812405, at *4 (Del. Ch.
Nov. 6, 1998) (finding that a letter agreement to sell at least 60
parcels of real property that listed only 17 sites in exhibit A was
not a contract to sell property).
204
Greetham v. Sogima L-A Manager, LLC, 2008 WL
4767722, at *15 (Del. Ch. Nov. 3, 2008).
202

App. 45
B. The Transaction Documents Lack Terms
that Were Essential to the Parties’ Bargain
Campbell asserts that certain material terms are
missing from the Transaction Documents, showing
that the parties never came to agreement and rendering the Transaction Documents unenforceable. In particular, Campbell argues that the closing date, all
schedules to the Transaction Documents except for
Schedule 2.2(b), definitions of the terms “Insurance
Claim” and “IP Disclosure Schedule,” and aggregate
dollar figures for certain representations are missing
from the Transaction Documents.205
1. Kay and Campbell failed to agree on terms
regarding the consideration to be exchanged
Campbell’s primary obligation under the text of
the Contribution Agreement would be to contribute the
stock of EagleForce Associates, the membership interests of EagleForce Health, certain intellectual property
related to the EagleForce businesses, and certain contractual rights and obligations. The precise scope of
that consideration was to be captured in Sections 2.2
and 3.5 of the Contribution Agreement and Schedules
2.2(b), 3.5, 4.3(a), and 4.12(c). But those portions of the
Transaction Documents are either blank or inconsistent with the reality of which Campbell, Kay, Offit,
and Rogers were aware.

205

Def.’s Pre-Trial Br. 13-20.

App. 46
Section 2.2(a) of the Contribution Agreement
states that part of Campbell’s contribution shall be “all
right, title and interest in the Targeted Companies Securities, such that, after such contribution, the Company shall hold all of the Targeted Companies
Securities.”206 Section 4.3(a) of the Contribution Agreement provides that “Schedule 4.3(a) sets forth, as of the
date hereof, (i) the number and class of authorized securities for each Targeted Company, (ii) the number
and class of Targeted Companies Securities for each
Targeted Company and (iii) the number and class of
Targeted Companies Securities held of record by
Campbell for each Targeted Company.”207 But Schedule
4.3(a) is blank except for the bracketed text “[Also describe SARS Plan].”208 Thus, the schedule that was
meant to list an important part of the consideration
Campbell would provide under the agreement is incomplete.
The objective evidence of the course of the parties’
negotiations shows that whether Campbell owns all of
the equity in EagleForce Health and EagleForce Associates is not clear. Salah, Salah’s brother Haney, Cresswell, and Morgan all have employment agreements
that give them some form of equity in the EagleForce
businesses.209 Throughout the negotiation of the Transaction Documents, Kay and Offit were concerned about
206
207
208
209

JX 78, § 2.2(a).
Id. § 4.3(a).
JX 79, Sched. 4.3(a).
May 5, 2017 Hr’g Ex. 6.

App. 47
employee claims for some of the equity of EagleForce
Associates or EagleForce Health. And the evidence
shows that Kay knew of at least Salah’s and Cresswell’s claims to EagleForce Health and EagleForce Associates equity.210 Kay and Campbell’s list of thirteen
points recognized the problem of the SARs program
and began to develop a solution under which Campbell
and Kay would each retain equal control,211 but that
was never incorporated into the Transaction Documents. Instead, Offit included representations from
Campbell in the Transaction Documents that Campbell had obtained releases from Cresswell, Morgan,
and five other EagleForce employees related to their
revenue sharing or profit sharing plans and that neither Salah, Salah’s family, nor Cresswell had any interest in the EagleForce businesses. But Campbell
never agreed to those representations.212 To the contrary, in Rogers’s August 19 draft, Rogers commented
below the representation, “[CAMPBELL] CANNOT
GUARANTEE THIS. WE NEED TO DISCUSS.”213
Rogers’s comment was removed in Offit’s August 27
version, which Kay and Campbell signed on August 28
while Rogers was out of town and unreachable.214
Even after the August 28 signing, Kay, Campbell,
Offit, and Rogers knew they had not come to agreement on the employee claims for equity and the SARs
210
211
212
213
214

Tr. 653 (Cresswell); Tr. 1094 (Salah).
JX 56.
JX 50, §§ 4.3(d), 4.3(e).
JX 58, § 4.3(d).
JX 78, § 4.3(d).

App. 48
plan. In the September 9 version of the Transaction
Documents that Rogers sent post-signing, Rogers
again commented that Campbell could not agree to the
representation regarding the employee releases, stating:
THERE IS STILL MUCH THAT NEEDS TO
BE CLARIFIED HERE: (1) We are not confident that we have all of the SAR Plan offers;
(2) Burden of the SARs should not be solely on
[Campbell] because [Kay] authored it; (3)
Chris Cresswell’s offer was developed by
[Kay]; (4) There was a discussion about the
company taking responsibility for the SARs
up to a certain level. We need to understand
what percentage of SARs was originally
granted to understand the ultimate impact on
[Campbell].215
And Rogers included additional questions about
the SARs Plan in his September 9 cover email.216 As
such, both Kay and Campbell recognized that Campbell likely does not own 100% of the equity of EagleForce Associates and EagleForce Health, and
Campbell had not obtained releases related to any employees’ potential ownership of equity in the EagleForce businesses. Despite this knowledge, they did not
come to agreement on terms that addressed the reality.
Further, Section 4.12(c) of the Contribution Agreement states that “[e]xcept as set forth on Schedule
4.12(c), neither the execution and delivery of this
215
216

JX 84, § 4.3(d).
JX 83.

App. 49
Agreement, nor the consummation of the transactions
contemplated hereby, . . . will . . . accelerate the vesting, funding or time of payment of any compensation,
equity award or other benefit. . . .”217 Cresswell and
Morgan appear to have SARs rights under their employment agreements that automatically vest upon a
sale or change of control,218 and Kay knew of that fact
at least as to Cresswell’s SARs.219 But regardless,
schedule 4.12(c) is blank.220
Kay and Campbell also did not reach agreement
on which contracts Campbell would assign to Eagle
Force Holdings as another part of the consideration in
this proposed deal. The Contribution Agreement that
the parties signed states, “Campbell shall assign to the
Company, and the Company shall be obligated to assume, and shall assume, those agreements set forth on
Schedule 3.5 attached hereto. . . .”221 Sections 4.20(d)
and 4.20(f ) make clear that Schedule 3.5 includes all
of Campbell’s intellectual property license agreements.222 But Schedule 3.5 also is blank. Campbell’s intellectual property listed in Schedule 2.2(b) is the only
portion of Campbell’s consideration outlined in the
Transaction Documents on which the parties appear to
have completed negotiations. Absent definite terms regarding the remainder of the property to be
217
218
219
220
221
222

JX 78 § 4.12(c).
May 5, 2017 Hr’g Ex. 6.
JX 84, § 4.3(d); Tr. 653 (Cresswell).
JX 79, Sched. 4.12(c).
JX 78, § 3.5.
Id. §§ 4.20(d), 4.20(f ).

App. 50
contributed, I find that Campbell and Kay did not come
to agreement on the consideration that Campbell
would provide in the Transaction Documents.
The precise consideration to be exchanged between Campbell and Eagle Force Holdings was highly
material to the parties here. Presumably, the consideration that Campbell would provide to Eagle Force
Holdings would directly affect the number of units or
the size of the capital account Eagle Force Holdings
would provide to Campbell. And division of the equity
in Eagle Force Holdings was extremely important to
Campbell and Kay. From the beginning of Campbell
and Kay’s negotiations, they communicated to each
other that it was very important that they both be 50%
owners of the ultimate holding company. The November 2013 letter agreement provides that both Campbell
and Kay would own 50% of the new LLC, and they
agreed “to never dilute [their stakes to] less than 50.1%
together in order to maintain control. They will also
agree that their vote will always be uniformly tied as
a single vote thus protecting [Campbell] from complete
loss of control.”223 Similarly, the April 2014 letter agreement also contemplated that Campbell would own 50%
of “Holdco,” and Kay and Campbell together would not
be diluted below 51% of “Holdco,” a slightly higher
threshold than the 50.1% in the November letter
agreement.224

223
224

JX 1, ¶ 5.
JX 12, ¶ 5.

App. 51
At the July 7, 2014 meeting at Rogers’s office that
went late into the night, the parties resolved that Eagle Force Holdings would not issue new equity capital
for the additional $5.5 million they wanted to raise.
This would allow Campbell and Kay to retain equal
control of the entire EagleForce business.225 Instead,
the subsidiaries would issue equity in exchange for
new capital, but Eagle Force Holdings would retain
80% control of the subsidiaries.226 That term was reiterated in the handwritten list of thirteen points to
which Campbell and Kay agreed without their lawyers
present.227
Additionally, on August 28, 2014, approximately
one hour before Kay and Campbell signed the Transaction Documents, they exchanged emails that highlight how important it was to both of them that Kay
and Campbell both have equal control. Cresswell sent
a non-disclosure agreement to Kay and Bryan Ackerman, the Sentrillion general counsel, with Campbell on
copy.228 Campbell replied asking Cresswell not to “forward this information outside of the company until I
have had a chance to review.”229 Kay responded, “[w]hat
are you talking about outside the company? We just
talk [sic] 3 minutes ago. I will handle my swim lane.”230
About ten minutes later, Kay wrote “1) Bryan is inside
225
226
227
228
229
230

Tr. 64-66 (Offit).
Id.
JX 56.
JX 75.
Id.
Id.

App. 52
not outside. 2) For the record I will handle all NDA contacts.”231 In reference to earlier emails regarding the
NDA, Campbell wrote to Kay, “[a]s you can see I am not
on the mail routing and this is a bit troubling. Only you
can make these folks know that we are equal partners.”232 Kay replied, “[e]veryone knows we are
equal. . . . Please clarify w[ith] Chris and Bryan that
NDA are in buss lane [sic] and Rick will handle. And
send me the signed document if you want to go forward.”233 Thus, just before signing, Campbell reiterated
that he and Kay must be equal partners. And Kay’s
emails show that equal control was a material term to
Kay as well.234

231

Id.
JX 76.
233
Id.
234
Campbell and Kay were concerned about loss of control
and dilution in part because they did not trust one another. See
Tr. 803 (Campbell). On April 30, 2014, Campbell wrote to Kay, “I
am no longer enjoying coming to work. I do not think this will
work. Please tell me what I owe you and how we can move forward
independently.” JX 130. And during the spring or summer of
2014, Kay met with Cresswell at a country club in Potomac, Maryland and told Cresswell that Campbell had previously committed fraud. Tr. 656-59 (Cresswell). Further, on June 30, 2014,
Campbell received an email from Kay with what Campbell believed to be a racial slur. JX 16. Kay was also particularly concerned about Salah’s equity in the EagleForce businesses because
he did not work well with Salah. Tr. 1087-88 (Salah); id. at 1174
(Morgan). Kay made clear in the handwritten list of thirteen
points that “[Salah] will be entitled to SAR only if [Campbell]
wants to give non-voting equity. It is from his side. [Salah] not a
CFO. [Kay] is not obligated at all for [Salah].” JX 56.
232

App. 53
Campbell and Kay planned for Kay to contribute
$2,300,000 in cash because $2,300,000 was the value
of Campbell’s anticipated contribution.235 To the extent
Campbell’s actual contribution was less than originally contemplated, the negotiating parties would
have to confront the issue of how the precise assets
Campbell contributes to Eagle Force Holdings would
affect the number of units Eagle Force Holdings issues
to Campbell—and, in turn, which party obtains control
over Eagle Force Holdings. Campbell and Kay
acknowledged this reality both before and after the
signing.236 As such, the objective circumstances of the
parties’ negotiating history show that Sections 2.2(a)
and 3.5 of the Contribution Agreement and Schedules
4.3(a) and 4.12(c)—which would have listed Campbell’s holdings in EagleForce Associates and EagleForce Health, any Cresswell, Morgan, or Said or Haney
Salah holdings in those companies, and any holdings
associated with the SARs Plan—and Schedule 3.5—
which would have listed the contract rights and liabilities Campbell planned to contribute—related to terms
that the parties considered essential and on which
they had not completed negotiations.237

235

JX 12, ¶ 6.
JX 56; JX 84, § 4.3(d).
237
J.W. Childs Equity P’rs, L.P. v. Paragon Steakhouse Restaurants, Inc., 1998 WL 812405, at *3 (Del. Ch. Nov. 6, 1998); RESTATEMENT (SECOND) OF CONTRACTS § 33 (AM. LAW
INST. 1981) (“The terms of a contract are reasonably certain if
they provide a basis for determining the existence of a breach and
for giving an appropriate remedy.”).
236

App. 54
Plaintiffs contend that Campbell was obligated to
provide the schedules. They are referenced as the
Campbell Disclosure Schedules in the Contribution
Agreement.238 And that term is defined as “the schedules prepared and delivered by Campbell for and to the
Company and dated as of the Execution Date which
modify (by setting forth exceptions to) the representations and warranties contained herein and set forth
certain other information called for by this Agreement.”239 But the parties were still negotiating on
Schedules 3.5, 4.3(a), and 4.12(c). And the evidence indicates that Kay and Campbell had not agreed on who
would create certain of the schedules. While both
Campbell and Kay appear to have worked slowly, or in
some cases not at all, on the Transaction Documents
schedules other than Schedule 2.2(b), the evidence
does not indicate that they agreed to complete the
Transaction Documents without those schedules.240

238

JX 78, Ex. A.
Id.
240
This opinion does not address whether Campbell and Kay
entered a binding contract (such as the letter agreements) that
lacks a Delaware forum selection clause because the Court does
not have jurisdiction to reach that question. It also does not address any other theory of liability that may arise from Kay and
Campbell’s relationship.
239

App. 55
2. The parties did not assent to the
terms of the LLC Agreement separately
from the Contribution Agreement
As to the LLC Agreement, the evidence shows that
Kay and Campbell did not agree to the terms of the
LLC Agreement separately from the closely related
terms of the Contribution Agreement. From the beginning of Campbell and Kay’s discussions, the two parties sought to combine resources to market the PADRE
technology through a well capitalized business.241 As
early as the November 2013 letter agreement, Campbell and Kay wanted to form a new limited liability
company in connection with that business venture.242
And the Transaction Documents that Kay and Campbell signed on the same day repeatedly reference one
another,243 indicating that neither agreement was designed to stand alone. The Contribution Agreement
that Kay and Campbell signed states, “[a]t the Closing,
the Company, Campbell and EFI shall enter into and
deliver the Company LLC Agreement in the form of
Exhibit B.”244 Exhibit B to the Contribution Agreement
is a placeholder for the LLC Agreement.245 Unlike the
Contribution Agreement, the LLC Agreement that
Campbell and Kay signed does not say “OK DRAFT 826-14” on the cover page,246 which suggests that the
241
242
243
244
245
246

Tr. 774 (Campbell); JX 1.
JX 1, ¶¶ 7-8.
JX 78, Recital C, § 2.3; JX 79, § 3.2.1.
JX 78, § 3.4.
Id. Ex. B.
Compare JX 78, with JX 79.

App. 56
cover page to the Contribution Agreement was considered the cover page to the Transaction Documents as a
whole, and the LLC Agreement was an exhibit. And
many of the blank schedules to the Contribution
Agreement are actually attached to the LLC Agreement.247 Further, no one asserts that Campbell and
Kay intended to enter into the LLC Agreement separate and apart from a Contribution Agreement.248 Rather, “the parties intended these two Agreements to
operate as two halves of the same business transaction.”249 Thus, the LLC Agreement and the Contribution Agreement rise and fall together. Kay and
Campbell did not intend to bind themselves to the
written terms in the Transaction Documents, and this
Court does not have personal jurisdiction over Campbell through his consent.
C. Absent Campbell’s Consent, This Court
Lacks Personal Jurisdiction over Campbell
Without Campbell’s consent, this Court cannot exercise personal jurisdiction over Campbell. Plaintiffs
do not argue that Campbell is subject to personal jurisdiction in Delaware pursuant to the Delaware long247

See JX 79 (including Schedules 4.3(a) and 4.12(c)).
See Tr. 5; Pls.’ Opening Br. This does not mean that
Campbell and Kay did not form a business entity. It simply means
they had not completed negotiations on the Transaction Documents, which include the LLC Agreement.
249
E.I. DuPont de Nemours & Co. v. Shell Oil Co., 498 A.2d
1108, 1115 (Del. 1985).
248

App. 57
arm statute. They do contend that Campbell became a
member and manager of Eagle Force Holdings by executing the April 2014 letter agreement and, thus, impliedly consented to personal jurisdiction in Delaware
under Section 18-109(a) of the Delaware Limited Liability Company Act.250 The April 2014 letter agreement
“amends the letter agreement that [Campbell and
Kay] executed on November 27, 2013 that was dated
as of November 15, 2013.”251 The November 2013 letter
agreement states that Campbell and Kay “will form a
new LLC entity and/or a series of industry specific
LLC’s [sic] verticals in Virginia.”252 And the April 2014
letter agreement states that “a new LLC will be formed
to serve as a parent entity (‘Holdco’)”253 without any
mention of Delaware. Instead, it states, “[t]his letter
agreement is legally binding upon the parties and
shall be governed by the laws of the State of Virginia.”254 Further, at the time of the April 2014 letter
agreement, Campbell did not know that Kay had
formed Eagle Force Holdings in Delaware.255 The only
agreements that mention a Delaware limited liability
company are the Transaction Documents, which are
missing material terms and, thus, are not enforceable.
The April letter agreement does not serve as implied
consent to jurisdiction in Delaware.
250
251
252
253
254
255

6 Del. C. § 18-109(a).
JX 12.
JX 1, ¶ 2.
JX 12, ¶ 2.
Id. ¶ 18.
Tr. 991-92 (Campbell).

App. 58
Plaintiffs also assert that Campbell actively participated in the management of a Delaware limited liability company and, thus, impliedly consented to
personal jurisdiction in Delaware. The facts proven at
trial, however, indicate that Campbell managed only
EagleForce Associates, a Virginia corporation, and EagleForce Health, a Virginia limited liability company.
The record does not show that Campbell ever managed
Eagle Force Holdings or any other Delaware entity. As
such, Campbell is not subject to personal jurisdiction
under Section 18-109.
D. Campbell’s Motion to Conform the
Pleadings to the Evidence is Moot
Campbell also has moved under Court of Chancery Rule 15(b) to conform the pleadings to the evidence presented at trial by adding the defenses of
unilateral and mutual mistake to his answer. But because this Court does not enforce the Transaction Documents, the motion is moot.
E. The Interim Relief Order Does Not
Bind Campbell
Plaintiffs’ three motions for contempt allege that
Campbell violated the interim relief order. “A party petitioning for a finding of contempt bears the burden to
show contempt by clear and convincing evidence; the
burden then shifts to the contemnors to show why they

App. 59
were unable to comply with the order.”256 “To establish
civil contempt, [the petitioning party] must demonstrate that the [contemnors] violated an order of this
Court of which they had notice and by which they were
bound.”257
The party charged [with contempt] is always
at liberty to defend his disregard of the court’s
order by showing that the order was void for
lack of jurisdiction. In a contempt proceeding
based upon the violation of an injunction, the
only legitimate inquiry to be made by the
court is whether or not it had jurisdiction of
the parties and of the subject matter. Subject
to this limitation the court will not listen to
an excuse for the contemptuous action based
upon an argument that the order in question
was imperfect or erroneous. No person may
with impunity disregard an order of the court
having jurisdiction over the subject matter
and of the parties.258
Because this Court lacks personal jurisdiction
over Campbell, he was not bound by the Order and cannot have committed contempt by violating the Order.
Plaintiffs’ motions for contempt are denied.

256

TR Inv’rs, LLC v. Genger, 2009 WL 4696062, at *15 (Del.
Ch. Dec. 9, 2009).
257
Id. (quoting Arbitrium (Cayman Islands) Handels AG v.
Johnston, 1997 WL 589030, at *3 (Del. Ch. Sept. 17, 1997)) (internal quotation marks omitted).
258
Mayer v. Mayer, 132 A.2d 617, 621 (Del. 1957), quoted in
Cohen v. State ex rel. Stewart, 89 A.3d 65, 90 n.115 (Del. 2014).

App. 60
III. CONCLUSION
For the reasons stated herein, this Court lacks personal jurisdiction over Stanley Campbell, and the
Complaint is dismissed. Defendant’s motion to conform the pleadings to the evidence is denied as moot.
Plaintiffs’ motions for contempt are denied.
IT IS SO ORDERED.

App. 61
APPENDIX B
187 A.3d 1209
Supreme Court of Delaware.
EAGLE FORCE HOLDINGS, LLC, and
EF Investments, LLC, Plaintiffs Below, Appellants,
v.
Stanley V. CAMPBELL, Defendant Below, Appellee.
No. 399, 2017
|
Submitted: March 7, 2018
|
Decided: May 24, 2018
Court Below: Court of Chancery of the State of Delaware, C.A. No. 10803–VCMR
Upon appeal from the Court of Chancery. REVERSED
and REMANDED.
Attorneys and Law Firms
Frank E. Noyes, II, Esquire, Offit Kurman, P.A., Wilmington, Delaware. Of Counsel: Harold M. Walter,
Esquire, Baltimore, Maryland, for Appellants.
David L. Finger, Esquire, Finger and Slanina, LLC,
Wilmington, Delaware, for Appellee.

App. 62
Before STRINE, Chief Justice, VALIHURA, VAUGHN,
SEITZ, and TRAYNOR, Justices, constituting the
Court en Banc.
Opinion
VALIHURA, Justice, for the Majority:
One of the first things first-year law students
learn in their basic contracts course is that, in general,
“the formation of a contract requires a bargain in
which there is a manifestation of mutual assent to the
exchange and a consideration.”1 In other words, there
must be a “meeting of the minds” that there is a contract supported by consideration. However, in the context of real life disputes, the basic elements are not
always as straightforward as they might appear in
the hornbooks. This case presents such a situation,
where determining something as seemingly simple as
whether a contract was formed proves a challenging
endeavor.
After months of negotiations, the parties here
signed versions of two transaction agreements: a limited liability company agreement, and a contribution
and assignment agreement. However, a serious question exists as to whether the parties intended to be
bound by these signed documents. And whether there
exists a valid, binding contract implicates the other
main issue raised on appeal—namely, whether this
1

Restatement (Second) of Contracts § 17 (1981) [hereinafter
Restatement].

App. 63
Court can exercise jurisdiction over the defendant. If
at least one of these transaction documents is a valid,
independently enforceable contract, then this Court
has jurisdiction via a forum selection clause favoring
Delaware. If neither document is independently enforceable, and if earlier agreements do not provide
another means of exercising jurisdiction over the defendant, then Delaware courts lack personal jurisdiction over the defendant, and the plaintiffs’ claims for
breach of contract, unjust enrichment, and other
causes of action against the defendant were properly
dismissed.
In this unusual case, after numerous evidentiary
hearings, a five-day trial, and several motions for contempt—proceedings spanning more than two years—
the Court of Chancery determined that neither transaction document is enforceable. As a result, the Court
of Chancery dismissed the case for lack of personal jurisdiction, even after finding one of the parties in contempt of its status quo order.
In Osborn ex rel. Osborn v. Kemp,2 this Court set
forth the elements of a valid, enforceable contract. We
explained that “a valid contract exists when (1) the
parties intended that the contract would bind them, (2)
the terms of the contract are sufficiently definite, and
(3) the parties exchange legal consideration.”3

2
3

991 A.2d 1153 (Del. 2010).
Id. at 1158.

App. 64
The trial court did not apply this test in this case.
Though it mentioned the Osborn test, the trial court
primarily relied on Leeds,4 a Court of Chancery opinion
that addresses the enforceability of letters of intent
and provides that “determination of whether a binding
contract was entered into will depend on the materiality of the outstanding issues in the draft agreement
and the circumstances of the negotiations.”5 Applying
Leeds, the trial court found that the agreement was not
sufficiently definite due to a lack of agreement on certain material terms, primarily the consideration to
be exchanged. Although this could be viewed as an
implicit finding that the parties could never have intended to be bound, we believe that there is force in
appellants’ contention that the parties’ intent to be
bound requires a separate factual finding.
In this case, there is evidence within the four corners of the documents and other powerful, contemporaneous evidence, including the execution of the
agreements, that suggests the parties intended to be
bound. But we acknowledge that there is also evidence
that cuts the other way. Given that this is a question of
fact, we remand to the Court of Chancery to make such
a finding.

4

Leeds v. First Allied Conn. Corp., 521 A.2d 1095 (Del. Ch.

1986).
5

Eagle Force Holdings, LLC v. Campbell (Trial Op.), 2017
WL 3833210, at *14 (Del. Ch. Sept. 1, 2017) (quoting Greetham v.
Sogima L-A Manager, LLC, 2008 WL 4767722, at *15 (Del. Ch.
Nov. 3, 2008) (citing Leeds, 521 A.2d at 1101-02)).

App. 65
Osborn’s second inquiry, i.e., whether the contract’s terms are sufficiently definite, is largely a question of law. We believe that the agreements sufficiently
address all issues identified by the trial court as material to the parties—including the consideration to be
exchanged. We remand because, although we conclude
that the second and third Osborn prongs are satisfied,
we recognize that the trial court’s conclusions as to the
parties’ intent to be bound impact the analysis and ultimate determination as to whether a contract has
been formed.6
If either document is enforceable, then the forum
selection provisions are also enforceable. And, for reasons discussed below, we also find that the Court of
Chancery erred in finding that its jurisdiction to enforce the previously issued contempt order depended
on the enforceability of the transaction documents. It
has jurisdiction to enforce its order regardless of the
transaction documents’ enforceability.
Thus, we REVERSE the Court of Chancery’s decision and REMAND this case with instructions to the
trial court to reconsider the evidence and make a finding on the parties’ intent to be bound to each transaction document in accordance with the framework set
forth in Osborn and guidance included in this opinion.
We also REVERSE and REMAND to the Court of
Chancery to enforce its contempt order, and so even if,
on remand, the Court of Chancery adheres to its
6

The parties do not dispute the third prong of the Osborn
analysis—namely, whether there was sufficient consideration.

App. 66
earlier conclusion that the transaction documents are
unenforceable, it will need to decide the other contempt allegations pending in that court.
I.
Defendant-appellee Stanley Campbell is the creator of PADRE, a software system that aggregates medical information about patients to help physicians
determine the appropriate medications to prescribe.7
He founded EagleForce Associates, Inc. (“Associates”),
a Virginia Corporation, to develop and market PADRE.
In November 2013, Associates had just been denied a
government contract, and Campbell reasoned that it
would have a better chance of succeeding if it were better capitalized.8 Perhaps even more pressing, the company also needed funding to stay afloat.9 It had no
revenue.10
In seeking the much-needed capitalization, Campbell approached Richard Kay, a businessman and investor based in the Washington, D.C., area whom he
7

This narrative relies on the facts as found by the Court of
Chancery and cites to its Memorandum Opinion (Trial Op.).
Where other facts are referenced, citations are to the record (including to the Appendix to Appellants’ Opening Brief, as indicated by page numbers beginning with the letter “A”).
8
Trial Op., 2017 WL 3833210, at *3.
9
Id. at *2.
10
Id.; Chris Cresswell Trial Testimony (Feb. 8, 2017), at
A1900 [hereinafter Cresswell Testimony]; Jashuva Variganti
Trial Testimony (Feb. 8, 2017), at A1911 [hereinafter Variganti
Testimony].

App. 67
had asked to invest in the company once before.11 This
time Kay agreed. To keep Associates operational, and
without a written agreement obligating him to do so,
Kay provided it funding through EF Investments LLC,
a Delaware LLC.
Campbell and Kay sketched out their vision for
their venture in a letter agreement dated November
15, 2013.12 They planned to form “a new LLC entity
and/or a series of industry specific LLC’s [sic] verticals
in Virginia.”13 Campbell was to contribute to the venture his “PADRE source code and patents” (as described in the agreement), and Kay was to contribute
$1.8 million in cash—“the amount stated by [Campbell] that he contributed to the effort so far. . . .”14 They
would “each own 50% of the new companies” and
agreed “to never dilute less than 50.1% together in order to maintain control.” They also promised to vote
their shares as a block and to “confer on all business
and marketing related activities as well as all capital
needs.”15
11

Trial Op., 2017 WL 3833210, at *2-3.
Id. at *1, *3 (“Kay’s lawyers at the law firm Offit Kurman
drafted an initial version of the November letter agreement, but
Campbell and Kay independently made changes to it themselves
before signing.”); November 2013 Letter Agreement (Nov. 15,
2013) (signed Nov. 27, 2013), at A45-46 [hereinafter November
Letter Agreement].
13
Trial Op., 2017 WL 3833210, at *3 (quoting November Letter Agreement, supra note 12, at A45).
14
November Letter Agreement, supra note 12, at A45.
15
Trial Op., 2017 WL 3833210, at *3 (quoting November Letter Agreement, supra note 12, at A45).
12

App. 68
Diligence progressed through the winter and, in
early April 2014, the parties signed a new letter agreement (the “April Letter Agreement”) that “amends”
the November letter and “provides binding terms and
conditions for [Campbell] and [Kay] to proceed with
this venture.”16 The April Letter Agreement envisioned
that “a new LLC will be formed to serve as a parent
entity (‘Holdco’) for [Associates] and the recently
formed EagleForce Health Solutions, LLC,” and that
“ownership shall consist of [Campbell] and [Kay] only
with equal rights to them or their heirs.”17 The agreement provided that, aside from Associates and EagleForce Health Solutions LLC (“EF Health”),18
“[a]dditional new wholly owned Holdco subsidiaries
shall be formed for each subsequent area of opportunity, such as online gambling, identity and cybersecurity, that Holdco elects to pursue.”19 We refer to
Associates and EF Health collectively as the “Targeted
16

April 2014 Letter Agreement (Apr. 4, 2014), at A50 [hereinafter April Letter Agreement].
17
Id. at A50.
18
The trial court opinion does not explain the difference
between EagleForce Health Solutions, LLC, as used in the April
Letter Agreement, and EagleForce Health, LLC, a Virginia limited liability company that, along with Associates, is described as
one of the “Targeted Companies” in the Contribution Agreement
discussed infra. The trial court also does not explain when each
of these entities were formed other than quoting to the April Letter Agreement’s reference to EagleForce Health Solutions as “recently formed.” Trial Op., 2017 WL 3833210, at *3. We refer to
both EagleForce Health Solutions, LLC, and EagleForce Health,
LLC, as “EF Health.”
19
April Letter Agreement, supra note 16, at A50.

App. 69
Companies,” the “subsidiaries,” and “EagleForce” in
this opinion.
The April Letter Agreement reiterated that Campbell and Kay would each own 50% of Holdco directly,
and 50% of the wholly owned subsidiaries, Associates
and EF Health, indirectly through Holdco.20 And it confirmed that Campbell and Kay would never dilute their
ownership “less than 51% together in order to maintain joint control,” and that “their vote will always be
uniformly tied as a single vote thus protecting each of
them from complete loss of control.”21
To obtain his 50% ownership interest in Holdco,
Campbell would contribute all intellectual property
and licensing agreements related to PADRE. The
agreement estimated that this property was worth
$2.3 million.22 For his part, Kay would advance $500,000
to Holdco upon the execution of the letter agreement
(evidenced by a demand promissory note that Associates and EF Health would issue jointly and severally
to Kay) and contribute an additional $1,800,000 to
Holdco—for a total of $2.3 million—once they agreed
on an LLC operating agreement, which they promised
to sign at a future date.23 The April Letter Agreement
provided that Campbell would receive a $500,000

20

Id. at A51.
Id.
22
See Trial Op., 2017 WL 3833210, at *4; April Letter Agreement, supra note 16, at A51.
23
Trial Op., 2017 WL 3833210, at *4.
21

App. 70
distribution from Holdco for his personal use upon
signing an operating agreement.24
In the meantime, absent a formal LLC operating
agreement, the April Letter Agreement further delineated the management responsibilities of the two partners outlined in the November letter into two “swim
lanes,” as the parties described them.25 Campbell was
to serve as a “member, President and Chairman of the
3 member Holdco Board,”26 and his lane included “primary responsibility over all information technology,
product development, R & D, and customer service and
maintenance, in each case subject to an annual budget
approved by the Holdco board.”27 Further, Kay was to
serve as a member and CEO of Holdco, and his swim
lane included “primary responsibility over financial
matters, personnel/HR, and management of outside accounting, legal, tax and other advisors and consultants
as well as all other matters relating to the operation of
the business of Holdco and its subsidiaries. . . .” But
the agreement also specified that Kay “will consult
with [Campbell] on all decisions affecting these functions.”28
The Court of Chancery observed that, soon after
the signing of the April Letter Agreement, “[a]s Kay became more involved in EagleForce Associates, Kay and
24
25
26
27
28

Id.
Id.
April Letter Agreement, supra note 16, at A50.
Trial Op., 2017 WL 3833210, at *4.
Id.

App. 71
Campbell’s relationship began to sour.”29 For example,
Kay told a new employee that Campbell had previously
committed fraud, and Kay “did not get along with certain EagleForce employees. . . .”30
Nonetheless, the parties began negotiating a Contribution Agreement and LLC Agreement (collectively
the “Transaction Documents”) to consummate their
transaction.31 At the advice of Kay’s counsel, Michael
Schlesinger of Latham & Watkins, Campbell sought
separate representation and enlisted Donald Rogers of
the Shulman Rogers firm. On May 13, Latham sent
Rogers a draft LLC Agreement that referred to the
holding company as Eagle Force Holdings LLC (“Holdings” or the “Company”), a Delaware LLC, and indicated that it had been formed on March 17, 2014—
before the signing of the April Letter Agreement.32
Thus, the Court of Chancery observed that Campbell
“was aware that Kay [had] formed Eagle Force Holdings in Delaware at least by May 13, 2014,” the day he

29

Id. at *5.
Id.
31
Id. at *6.
32
Id. Specifically, the draft LLC Agreement indicated that it
was to govern “Eagle Force Holdings, LLC, a Delaware limited
liability company,” which was formed “under the Delaware Limited Liability Company Act by the filing of a Certificate of Formation with the Secretary of State of the State of Delaware on
March 17, 2014.” Draft LLC Agreement (May 13, 2014), at A99.
The draft also indicated that its execution would amend the Original LLC Agreement, which consisted of an agreement executed
on March 17, 2014, and the April Letter Agreement. See id.
30

App. 72
received the draft LLC Agreement from Latham.33 This
draft of the LLC Agreement also included a forum selection clause whereby the parties were to consent to
personal jurisdiction in Delaware and an arbitration
clause.34
Negotiations and diligence continued through the
spring and early summer, and the parties met with
counsel on July 7 to attempt to resolve some outstanding issues, such as the precise scope of the intellectual
property that Campbell would contribute to Holdings,
and Campbell’s belief that, to succeed, the company
needed $7.8 million in capital, which was $5.5 million
more than Kay’s planned $2.3 million contribution.35
As summarized in the trial court opinion, Campbell
and Kay determined that Campbell would “contribute
all of the intellectual property he had created that was
related to the EagleForce business” and that, to avoid
diluting Campbell and Kay at the Holdings level, they
would raise the additional $5.5 million in capital by
selling up to 20% of the equity of each of the subsidiary
Targeted Companies, Associates and EF Health.36
But there was a new hitch: Kay’s attorney, Theodore
Offit of Offit Kurman, P.A., discovered that Campbell
had previously filed for bankruptcy, and Campbell
had failed to list PADRE’s intellectual property on the
schedules of his bankruptcy petition. This revelation
33
34
35
36

Trial Op., 2017 WL 3833210, at *6.
Id.
Id.
Id. at *7.

App. 73
raised doubts about Campbell’s title to the intellectual
property that he planned to contribute to Holdings.
Offit urged Campbell to reopen his bankruptcy to
amend the petition to include the missing intellectual
property. But Campbell feared that two bankruptcies
on his record would lead future EagleForce investors
to question his competency to serve in company management.
Campbell and Kay each signed signature pages
for their attorneys to keep in escrow and trade upon
consummation of the deal—one possible means of
avoiding future logistical hassle had they been forced
to collect signature pages later. Campbell also signed a
note payable to Kay by Associates for the $700,000 that
Kay had already contributed to Associates given that
they had not yet agreed on an operating agreement for
Holdings. Campbell and Kay further agreed that
Campbell would cancel the note once the Transaction
Documents were finalized.
The parties continued to negotiate and exchange
drafts of the Transaction Documents through the late
spring and summer, and Kay kept extending capital to
the company to keep it afloat. But he decided to stop
around August 1, 2014.37 The move ratcheted up the
pressure on Campbell to finalize the deal given that
EagleForce still lacked sales revenue and needed funds
to pay its employees. Campbell missed the company’s
rent for both July and August and borrowed $50,000
37

See Summary List of Kay Monetary Contributions on behalf of EagleForce (July 16, 2015), at 1104.

App. 74
from his wife to meet the company’s August 7 payroll
obligations.38
But the issues of Campbell’s title to the intellectual property and his resistance to reopening the bankruptcy were proving to be sticking points. At one
meeting among the parties and counsel, on August 5,
Campbell walked out of discussions to “ma[ke] clear”
that he would not reopen the bankruptcy, according to
his testimony.39
By August 14, Campbell and Kay had resolved certain other outstanding issues, and they summarized
their discussion in a handwritten list of thirteen points
of agreement (the “Thirteen–Points List”). For example, they agreed that the company would raise capital
by issuing up to 17% of the capital of each of Holdings’
subsidiaries. Given that Holdings would own 80% of
the subsidiaries’ equity, the remaining 3% would be
allocated to a new stock appreciation rights plan (the
“SARS Plan”) for employees as incentive compensation.
The employment contracts of several employees
of the subsidiaries contemplated participation in a
SARS plan, and the future of these rights had been
38

See Transcript of Katrina Powers Trial Testimony (Feb. 6,
2017), at A1667-68; Bank Statements for Eagleforce Associates
Washington First Checking Account # 4141 (showing outgoing
payments to ADP on 08/07/14 that were returned the following
day for insufficient funds; incoming wire from Cheryl R. Campbell
for $50,000.00 on 08/08/14); Transcript of Stanley Campbell Deposition Testimony (Aug. 19, 2016), at A1358-59.
39
Trial Op., 2017 WL 3833210, at *8.

App. 75
complicating negotiations. For example, the employment agreement of one existing Associates employee,
Vice President of Finance and CFO Said S. Salah, provided that he was entitled to 2.5% of Associates’ equity
if it achieved “prorated new business sales of at least
$6.0 million over the next two years.”40 But the Thirteen–Points List provided that Salah “will be entitled
to SAR [sic] only if [Campbell] wants to give non-voting
equity,” that it would be “from his side,” and that Kay
“is not obligated at all” for Salah’s rights.41
EF Health’s General Manager, Christopher Cresswell, and Associates’ Senior Vice President, Lieutenant
General John W. Morgan III, also had employment
agreements entitling them to participate in a SARS
plan at their respective subsidiaries. And, of particular
concern, as the Court of Chancery noted, “Cresswell
and Morgan were both entitled to immediate vesting
of any SARs they had been granted upon a sale or
change of control of the EagleForce businesses.”42
According to the Thirteen–Points List, Campbell
also agreed to relinquish any right to veto new
40

Id. at *2. The Court of Chancery cited to an exhibit to the
May 5, 2017 hearing on Plaintiffs’ motion for contempt and posttrial oral argument. Thus, it relied on evidence that was never
introduced at trial. See id. at *2, *2 n.18 (quoting and citing Employment Letter for Said Salah (May 13, 2013; signed by Salah
May 15, 2013), at A2229) [hereinafter, collectively with the employment agreements for Lieutenant General John W. Morgan
III, Dr. Hany Salah, and Christopher Creswell, at A2224-31, the
“Employment Letters”].
41
Trial Op., 2017 WL 3833210, at *8.
42
Id. at *5.

App. 76
investors and that each of the subsidiaries would have
three-person boards, composed of Campbell, Kay, and
a third person (initially Mitchell Johnson).43 The drafts
that Campbell’s attorney, Rogers, circulated on August
19 included certain of the changes outlined in the
Thirteen–Points List, but “back tracked on some of
Campbell’s concessions,” such as by giving Campbell a
veto right on new investors.44 Nonetheless, the drafts
were responsive to certain of Kay’s requests, such as
that the contribution agreement include a provision requiring that Campbell take the steps to reopen his
bankruptcy, and a provision requiring Kay to fund an
escrow account to pay claims by Campbell’s former
creditors.45
Campbell followed up with an email to Kay and
the parties’ lawyers in which he stated that Kay and
Campbell had agreed to commit up to $5,000 each to
retain Campbell’s personal bankruptcy lawyer to attempt to determine his title to the intellectual property
and, if such efforts failed, that Campbell would contribute $250,000 of the $500,000 distribution that he was
to receive at closing to “an attorney escrow of [his]
choice for a period not to exceed 6 months.”46 The Court
of Chancery summarized that “Campbell was willing

43

Id. at *8; Thirteen-Points List (Aug. 14, 2014), at A152.
Trial Op., 2017 WL 3833210, at *8.
45
Id.
46
Id. at *9 (quoting E-mail from Campbell to Offit and Rogers and copying Kay (Aug. 22. 2014), at A381).
44

App. 77
to set aside funds to pay any creditor claims, but he did
not want to reopen a bankruptcy proceeding.”47
Further, the parties had still not determined how
to address the SARS granted to certain other EagleForce employees in their employment agreements.
Kay’s attorney, Offit, initially suggested that these employees be asked to waive their rights for the promise
of “new and better defined executive incentive benefits.”48 Accordingly, Offit drafted representations from
Campbell that the relevant employees “had executed
releases for any profit sharing plan” and lacked “any
legal or equitable ownership interest in EagleForce
Associates or EagleForce Holdings.”49 But the trial
court found that “[t]he evidence does not show that
either Campbell or Kay approached the EagleForce
Associates employees to resolve this issue.”50 Thus, in
his August 19 revised draft, Rogers bolded and bracketed the representations concerning the releases and
noted that “[CAMPBELL] CANNOT GUARANTEE
THIS. WE NEED TO DISCUSS.”51 The trial court also
found that Kay and Offit both knew that, as of August
19, Associates had not yet secured releases from its
employees.52

47
48
49
50
51
52

Id.
Id.
Id.
Id.
Id.
Id.

App. 78
Nonetheless, after a few follow-up conversations,
Rogers sent an e-mail to Kay, Offit, and Campbell on
August 25 in which he stated:
Based on the resolution of the ‘big issues’, [sic]
I believe we should be able to finalize the document within the next few days.
Also, I would like to have the opportunity to
talk to you about the documentation of the
SAR plan and the offer letters. No major issue.
Just want to make certain that there is total
clarity on what is being offered to employees.53
Offit replied with another round of revisions to
the Transaction Documents on August 27. His cover
email to Campbell and Rogers stated, “Please confirm
your acceptance of the terms of these agreements.
Please commence preparation of schedules needed for
closing.”54 The attached document was marked in the
upper-right-hand corner “OK [Offit Kurman] Draft 826-14,” and the spaces for the “Execution Date” on the
cover page and in the first paragraph were left blank.
Articles II and III listed the events to occur at
“Closing,” defined as occurring “not before each of the
actions and deliveries [of consideration] described in
Sections 3.2 through 3.5 have been taken or made (as
the case may be),” and as taking place “at the office of
the Company, commencing at 10:00 a.m. local time on
the date hereof (the ‘Closing Date’) or at such other
53

E-mail from Rogers to Offit and copying Campbell and Kay
(Aug. 25, 2015), at A382.
54
Trial Op., 2017 WL 3833210, at *9.

App. 79
time and place as the Parties may agree upon in writing.”55
Importantly, Section 2.2 provided, in unequivocal
terms, that Campbell was to contribute all the subsidiaries’ equity and all of his relevant intellectual property:
At the Closing, Campbell shall contribute,
transfer, assign, convey and deliver to the
Company, absolutely and unconditionally, and
free and clear of all Encumbrances (the
“Campbell Contribution”):
(a) all right, title and interest in and to
the Targeted Companies Securities, such
that, after such contribution, the Company shall hold all of the Targeted Companies Securities; and
(b) all right, title and interest in and to
any and all Intellectual Property owned
in whole or in part by Campbell and
which is used or related to, or which can
be used or related to: Health; Identity
Management; Cyber Security, including,
but not limited to, the government data
bases obtained by Campbell through contact with the Social Security Administration, Medicare and Medicaid, which [sic]
(collectively, the Transferred IP), which
55

Id.; Executed Contribution and Assignment Agreement by
and between Eagle Force Holdings, LLC, a Delaware limited liability company, and Stanley V. Campbell (Aug. 28, 2014), § 3.1, at
A666 [hereinafter Executed Contribution Agreement].

App. 80
Intellectual Property is set forth on
Schedule 2.2(b) attached hereto. . . .56
Schedule 2.2(b) provided a detailed list of such
property defined as “Transferred IP.”57 The Contribution Agreement also provided that, at Closing, “Campbell shall deliver verification that he has reopened
his previous bankruptcy proceeding. . . .”58 In return,
Holdings would “issue to Campbell the number of
Class A Units set forth opposite [Campbell’s] name on
Schedule 2.3 hereto (the ‘Equity Consideration Schedule’). . . .”59 However, the Equity Consideration Schedule was not attached.
Aside from Schedule 2.2(b) listing the Transferred
IP, none of the other schedules was completed.60
Many of the incomplete or blank schedules were
supposed to provide details concerning Campbell’s representations and warranties in Article IV.
According to the trial court, Sections 4.20(d) and
4.20(f ) “make clear that Schedule 3.5 includes all of
Campbell’s intellectual property license agreements.”
But Schedule 3.5 is blank other than its subheading,
“Assumed Agreements.”61
56

Id. §§ 2.2(a) and (b), at A665 (italicized emphases added).
Id. § 2.2(b), at A710-14.
58
Id. § 3.2(c), at A666.
59
Id. § 2.3, at A665.
60
Trial Op., 2017 WL 3833210, at *9.
61
Id.; Executed Contribution Agreement, supra note 55,
Schedule 3.5, at A715.
57

App. 81
Section 4.3(a) posits that “Schedule 4.3(a) sets
forth, as of the date hereof, (i) the number and class of
authorized securities for each Targeted Company, (ii)
the number and class of Targeted Companies Securities for each Targeted Company and (iii) the number
and class of Targeted Companies Securities held of record by Campbell for each Targeted Company.”62 But
Schedule 4.3 (including 4.3(a)) is incomplete. It only includes the subheading “Capitalization Table” and the
bracketed text “[Also describe SARS Plan].”63 Nonetheless, the SARS Plan is defined elsewhere, in Exhibit A,
as “mean[ing] the existing stock appreciation rights
plan currently in effect which is described in Schedule
4.3(b).” But both sides agree in this appeal that there
was no “SARS Plan.”64
Section 4.3 (entitled, “Capitalization”) makes certain additional representations. Importantly, Section
4.3(e) states that “Campbell is the true and lawful
owner of all the Targeted Companies Securities set
forth opposite his name on Schedule 4.3(a), which constitute all of the issued and outstanding Targeted
Companies Securities, and has full capacity, power
and authority to surrender the Targeted Companies
62

Trial Op., 2017 WL 3833210, at *9; Executed Contribution
Agreement, supra note 55, § 4.3(a), at A670.
63
Executed Contribution Agreement, supra note 55, Schedule 4.3(a), at A773. Both sides agree that, whatever a SAR was
supposed to be, it was not “equity.” See Appellants’ Opening Br.
at 39-41; Appellee’s Answering Br. at 42 n.13 (noting that “Campbell testified that SARS are not literally equity”).
64
See Appellants’ Opening Br. at 16, 43; Appellee’s Answering Br. at 41-42.

App. 82
Securities for exchange pursuant to the terms of this
Agreement, free and clear of any Encumbrances, and
such Targeted Companies Securities are not subject
to any adverse claims.”65 Other representations, such
as in Section 4.3(b), state, “[e]xcept for the SARS Plan,
there are no outstanding options, warrants, calls,
profit sharing rights, bonus plan rights, rights of conversion or other rights, agreements, arrangements or
commitments relating to Targeted Companies Securities. . . .”66 Section 4.3(d) further represents and warrants that “[t]he revenue sharing plans and/or profit
sharing plans for Chris Creswell [and other listed employees including John Morgan] . . . have been eliminated without continuing liability to any Targeted
Company, and each of the foregoing persons has given
the appropriate Targeted Company a legally binding
release from any further liability for such plans.”67
Similarly, subsection (e) also states that “[n]either
Chris Creswell, Said Saleh nor any member of the

65

Executed Contribution Agreement, supra note 55, § 4.3(e),
at A671.
66
Id. § 4.3(b), at A670; see also id. § 4.3(d), at A671 (“Except
for the SARS plan, there are (i) no rights, agreements, arrangements or commitments relating to the Targeted Companies Securities to which any Targeted Company is a party, or by which it is
bound, obligating any Targeted Company to repurchase, redeem
or otherwise acquire any issued and outstanding shares of Targeted Companies Securities. . . .”).
67
Id. § 4.3(d), at A671.

App. 83
family of Said Saleh have any legal or equitable ownership interest in any Targeted Companies Securities.”68
There are several additional blank schedules. Section 4.12(c) provides that, “[e]xcept as set forth on
Schedule 4.12(c), neither the execution and delivery of
this Agreement, nor the consummation of the transactions contemplated hereby, . . . will . . . accelerate the
vesting, funding or time of payment of any compensation, equity award or other benefit. . . .”69 Schedule
4.12(c) is blank aside from its subheading, “Effect of
Transaction on Certain Payments.”70 Similarly, Schedules 4.6 (“Liabilities of Targeted Companies”),71 4.9
(“Real Property Leases and Licenses”),72 and 4.15(a)
(“Certain Proceedings and Orders”),73 among others,
are also left blank.
Section 8.4(a) provides that “[t]his Agreement, together with the exhibits and schedules hereto (including the Campbell Disclosure Schedules, Schedules 8.3
and 8.4 and the other Transaction Documents referred
to herein), constitutes the entire agreement among
the parties pertaining to the subject matter hereof and
68

Id. § 4.3(e), at A671 (misspelling Cresswell’s and Salah’s
last names).
69
Trial Op., 2017 WL 3833210, at *9; Executed Contribution
Agreement, supra note 55, § 4.12(c), at A675.
70
Executed Contribution Agreement, supra note 55, Schedule 4.12(c), at A780.
71
Id. Schedule 4.6, at A775.
72
Id. Schedule 4.9, at A776.
73
Id. Schedule 4.15(a), at A784.

App. 84
supersedes all prior agreements, understandings, negotiations and discussions, whether oral or written, of
the parties.”74 However, Section 8.4(b) specified that
any provision could be waived or modified “if, and only
if,” signed by both parties or, for waiver, the party
against whom the waiver was to be effective.75 Despite
the reference to Schedules 8.3 and 8.4, these schedules
do not appear in the signed version.
The term “Campbell Disclosure Schedules” is defined as “the schedules prepared and delivered by
Campbell for and to the Company and dated as of the
Execution Date which modify (by setting forth exceptions to) the representations and warranties contained
herein and set forth certain other information called
for by this Agreement.”76
The Agreement’s choice of law provision selected
Delaware law,77 and its forum selection clause provided
that “any suit, action or other legal proceeding arising
out of this Agreement may be brought in the United
States District Court for Delaware or, if such court does
not have jurisdiction or will not accept jurisdiction,
in any court of general jurisdiction in the City of
Wilmington, Delaware. . . .”78 The parties “irrevocably
74

Id. § 8.4(a), at A696.
Id. § 8.4(b), at A696.
76
Trial Op., 2017 WL 3833210, at *10; Executed Contribution Agreement, supra note 55, Exhibit A, at A700.
77
Executed Contribution Agreement, supra note 55, § 8.3, at
A695.
78
Id. § 8.9(b), at A697.
75

App. 85
consent[ed] to the service of any process or pleading
by any method permitted under Delaware law.”79 The
Agreement also included a severability provision.80
The signed Amended and Restated LLC Agreement (the “LLC Agreement”) noted that it was amending and restating the “Original LLC Agreement,”
which was dated March 17, 2014, and amended in
April 2014.81 This new, signed LLC Agreement specified that Campbell and Kay shall be the sole members
of the initial Board of Managers.82 It also designated
Campbell as initial Chairman of the Board of Managers and President. The Agreement provided that the
Chairman “shall work with the President and Chief
Executive Officer as to matters relating to the Company’s business.”83 The LLC Agreement also named
Campbell as President with the management responsibilities resembling his “swim lane” as articulated in
the April Letter Agreement.84 Meanwhile, Kay was
appointed Chief Executive Officer, but the LLC
79

Id. § 8.9(a), at A697.
Id. § 8.7, at A696.
81
Executed Amended and Restated Limited Liability Company Agreement of Eagle Force Holdings LLC (dated as of Aug.
25, 2014, and executed Aug. 28, 2014), at 719 [hereinafter Executed LLC Agreement]. The part of the Original LLC Agreement
dated as of March 17, 2014, does not appear to be in the record
before us, unless it is referring to the Certificate of Formation of
that date. See Eagle Force Holdings, LLC Certificate of Formation
(Mar. 17, 2014), at A47-49.
82
Id. § 4.1.1, at A729.
83
Id. § 4.4.2, at A734.
84
Id. § 4.4.3, at A735.
80

App. 86
Agreement now provided that Kay “may act independently of, and without being required to consult
with, all other officers of the Company, including the
President,” with respect to each of certain designated
areas.85 Further, Section 3.2 describes the capital contributions of the parties and states that they are set
forth in Schedule A. That schedule shows their initial
capital account balances, a fifty-fifty split of all of
Holdings’ issued and outstanding Class A Units:
50,000,000 units for EF Investments, LLC (Kay’s investment vehicle), and 50,000,000 units for Campbell.86
Like the Contribution Agreement, the LLC Agreement also included choice of law and forum selection
clauses specifying that Delaware law governs and that
the parties consented to the exclusive jurisdiction of
state and federal courts sitting in Delaware “for the
purpose of any action, claim, cause of action or suit (in
contract, tort or otherwise), inquiry, proceeding or investigation arising out of or based upon this Agreement or relating to the subject matter hereof ”87—a
broader range of actions than the class of actions covered by the Contribution Agreement’s forum selection
clause.
Moreover, the LLC Agreement states in Section
13.1 that “[t]his Agreement,” which was defined as the
LLC Agreement itself, “contains the entire contract
85
86
87

Id. § 4.4.4, at A735.
Id. § 3.2, at A722; id., Schedule A, at A770.
Id. §§ 12.1, 12.2, at A752.

App. 87
among the Members as to the subject matter hereof.”88
In contrast, Section 13.10 with the subheading “Complete Agreement” states that “[t]his Agreement, together with its Schedules and any other document
signed by the parties at or after the signing of this
Agreement constitute the complete agreement between the parties concerning the subject matter in
such documents and supersede all prior written or
oral understandings among such parties.”89 The LLC
Agreement also has a severability clause that provides,
in part, that, “[i]f any provision of this Agreement is
determined by a court to be invalid or unenforceable,
that determination shall not affect the other provisions
hereof, each of which shall be construed and enforced
as if the invalid or unenforceable portion were not contained herein.”90
The next day, August 28, at around 7:00 p.m.,
Campbell and Kay met at Associates’ offices without
their lawyers. At trial, Campbell testified that Kay had
assured him that the attorneys “were done” reviewing
the agreements, but Kay disputed that characterization.91 Campbell tried to call his attorney, Rogers, but
he could not reach him as he was away from the office.
Campbell testified that Kay also tried to call his counsel, Offit, but was not able to reach him either. But Kay
also disputed that he tried to call Offit.
88
89
90
91

Id. §§ 13.1, at A755 (emphasis added).
Id. §§ 13.10, at A757 (emphasis added).
Id. § 13.4, at A756.
Trial Op., 2017 WL 3833210, at *10.

App. 88
At this meeting on August 28, both parties signed
each of the Transaction Documents circulated on August 27 with the terms described above.92 Katrina
Powers, the CFO of one of Kay’s companies, Sentrillion,
witnessed the signing. And the Court of Chancery
found that, “[a]fter Kay and Campbell signed the
agreements, Campbell walked around his desk and
embraced Kay and Powers.”93 However, the Court of
Chancery noted that the parties dispute whether the
embrace was a “hug” or a “dap handshake.”94
Rogers returned from vacation unaware that the
parties had signed the Transaction Documents and believing negotiations were ongoing. Thus, on September
9, he circulated proposed edits and comments to the
Transaction Documents.95 Following Section 4.3(d) of
the Contribution Agreement, the representation concerning the SARS releases from employees, Rogers
commented:
THERE IS STILL MUCH THAT NEEDS TO
BE CLARIFIED HERE: (1) We are not confident that we have all of the SAR Plan offers;
(2) Burden of the SARs should not be solely
on [Campbell] because [Kay] authored it; (3)
92

The Transaction Documents included the draft of the Contribution Agreement that was marked “OK [i.e., Offit Kurman]
DRAFT 8-26-14.” Id.
93
Id. at *11.
94
Id. at *11 n.162 (noting that Kay and Powers testified that
Campbell hugged both of them, and Campbell testified that he
gave Kay a “dap handshake”).
95
Id. at *11.

App. 89
Chris Cresswell’s offer was developed by
[Kay]; (4) There was a discussion about the
company taking responsibility for the SARs
up to a certain level. We need to understand
what percentage of SARs was originally
granted to understand the ultimate impact on
[Campbell].96
Rogers also stated in his cover email that he anticipated having difficulty representing the financial
health of the companies given that only Kay had the
financial information for the past six months.97
Yet the parties continued negotiating over additional revisions that month, including during a conference call among Campbell, Kay, and their attorneys on
September 17. According to the trial court’s opinion,
“Offit testified that Kay stated on the call that he was
willing to discuss potential amendments to the agreements but was not willing to rescind and re-execute
them. But Rogers did not remember the contents of
that call.”98
By late October, the parties had still not closed the
deal. Kay wrote to Offit, Campbell, and Rogers, asking
96

Id. Rogers later testified that he made no material changes
to the Transaction Documents in his September 9 drafts, and that
his comment concerning the SARS Plan excerpted above did not
propose edits to the document itself as he confirmed, “[a] SARs
plan would be a separate agreement, yes.” Donald Rogers Trial
Testimony (Feb. 9, 2017), at A2047.
97
Trial Op., 2017 WL 3833210, at *11; E-mail from Rogers
to Offit, copying Campbell and Kay and attaching revised Transaction Documents (Sept. 9, 2014), at A799.
98
Trial Op., 2017 WL 3833210, at *12.

App. 90
“[w]hat else can we do together to get this done. I understand we have signed the deal but need the exhibits.”99 But Campbell retorted “[t]he signatures on the
drafts did not represent the completed document
which remains not completed given the two or three
remaining items.”100
Kay countered on November 19 by reiterating his
view that the signed Transaction Documents were
binding contracts that obligated Campbell to complete
the steps for Closing. He argued that Campbell was in
breach because he refused to assign ownership of his
intellectual property to Holdings and reopen his bankruptcy, among other things.101 Yet, despite the dispute
between Campbell and Kay, Kay continued to fund
EagleForce’s payroll obligation until early February
2015.102 By that point, Kay had contributed at least
$1,983,491.00 to EagleForce.103
That month, February 2015, EagleForce achieved
its first sales revenue ever—$700,000 from PSKW,

99

Id.
Id.
101
See id.; E-mail from Offit to Campbell and Rogers, and
copying Kay (Nov. 19, 2015), at A1096 (writing to Campbell: “You
are contractually obligated to: (i) deliver the schedules to the Contribution Agreement, (ii) reopen of [sic] your bankruptcy case, (iii)
assign of [sic] ownership of all your IP to EagleForce Holdings
LLC, and (iv) assign ownership of EagleForce Associates, Inc. and
EagleForce Health, LLC to EagleForce Holdings, LLC.”).
102
Trial Op., 2017 WL 3833210, at *12.
103
See Summary List of Kay Monetary Contributions on behalf of Eagle Force (July 16, 2015), at A1104-05.
100

App. 91
LLC.104 Thus, with an alternative base of operating
cash in hand, Campbell moved to cut ties with Kay.
And, on February 18, 2015, he wrote to Kay and the
attorneys:
[W]e have reached an impass [sic] that we are
unable to resolve. I would respectfully request
that the atty’s get together to discuss the
means and methods for us to close this matter
and allow us to move on. We have booked the
funding as a loan and will proceed with
amending the existing documentation in a
means that is reasonable for us both.105
Kay responded the following morning:
Your email is totally untrue, misleading[,] and
the EF investment money has never been a
loan[.] You know that as does everyone. I am
50 percent owner and will continue to operate
in that role.106
On March 17, 2015, Holdings and Kay’s investment vehicle, EF Investments, LLC (“Plaintiffs”) filed
the first complaint in this action against Campbell
seeking specific performance requiring Campbell to
close the transaction and immediate injunctive relief
directing Campbell to comply with his obligations

104

Cresswell Testimony, supra note 10, at A1900; Variganti
Testimony, supra note 10, at A1917-18.
105
Trial Op., 2017 WL 3833210, at *13; E-mail from Campbell to Kay (Feb. 18, 2015), at A1100.
106
E-mail from Kay to Campbell (Feb. 19, 2015), at A1100.

App. 92
under the Transaction Documents.107 The suit also
sought money damages for breach of contract, unjust
enrichment, and breach of fiduciary duty, among other
causes of action (seven total, later amended to nine
total with the First Amended Complaint).108 On May 7,
Plaintiffs also moved for emergency interim relief,
seeking an order temporarily restraining Campbell
“from refusing to provide information concerning the
operations and finances of [Holdings] and the Targeted
Companies” and refusing to identify any other contracts that he may have entered into on behalf of these
companies, and otherwise upholding the status quo.109
Campbell immediately disputed that the Court of
Chancery had personal jurisdiction over him.110 The
Vice Chancellor suggested at a conference among the
parties that Plaintiffs’ pleadings on the existence of a
Delaware LLC agreement sufficed to confer personal
jurisdiction for the purposes of determining the appropriateness of interim relief.111 At a subsequent hearing
107

Complaint (March 17, 2015), ¶¶ 30, 38, 61. The First
Amended Complaint (the operative complaint) was filed on June
5, 2015. See First Amended Complaint (June 5, 2015), available
via File & ServeXpress.
108
Id. ¶ 74.
109
Brief in Support of Motion of Plaintiffs Eagle Force Holdings, LLC and EF Investments, LLC for Interim Emergency Relief Pursuant to Ct. Ch. R.65(b) (May 7, 2015), at 25, available via
File & ServeXpress.
110
See Motion for a More Definite Statement and To Dismiss
and/or Stay the Complaint (Apr. 27, 2015), available via File &
ServeXpress.
111
Transcript of Scheduling Conference (May 15, 2017), at
16-17, available via File & ServeXpress.

App. 93
on the motion for interim emergency relief, on July 9,
2017, the Vice Chancellor observed, “I don’t think the
Court’s going to be able to resolve whether there is or
isn’t personal jurisdiction without resolving whether
there were or were not agreements reached between
these parties.”112 Thus, he stated that “[a]ll issues as
far as the personal jurisdiction are preserved and they
may come up in a summary judgment context or some
sort of thing like that that the Court will have enough
before it.”113
At the July 9 hearing on the request for interim
relief, the court ruled that, although Plaintiffs could
not satisfy the mandatory preliminary injunction
standard, they could satisfy “the normal preliminary
injunction standard with respect to their request for
information and blocking rights” as Plaintiffs had a
“reasonable probability of success on the merits.”114
The court reasoned that, “[a]lthough Campbell disputes the effect of his signature, it cannot be disputed
that plaintiffs have submitted signed copies of the
transaction documents.” And the Vice Chancellor
added, “[s]imilarly, the record also supports an inference that, for at least some period of time, Kay actively
was involved in the management of the Eagle Force
businesses, which favors plaintiffs’ argument that

112

Transcript of Oral Argument on Plaintiffs’ Renewed Motion for Interim Emergency Relief and Rulings of the Court (July
9, 2015), at 48, available via File & ServeXpress.
113
Id. at 49.
114
Id. at 71.

App. 94
there was an agreement as to the existence and nature
of the Holdings LLC.”115
The court also stated:
Finally, and importantly, Kay formed Holdings
as a Delaware LLC, and plaintiffs purportedly
have paid over $2 million to Campbell,
Health, or Associates, and that is a course of
action which appears designed to follow
through on the transaction contemplated by
the April letter agreement and the allegedly
memorialized version of that in the transaction document.
Under Delaware law, an LLC agreement is
designed “to give maximum effect to the
principle of freedom of contract and to the enforceability of limited liability company agreements.” Such agreements can be “written, oral
or implied” under 6 Delaware Code Section
18-101(7). Which side ultimately will prevail
at trial currently is unclear, but I am comfortable concluding on the current record that
plaintiffs have demonstrated a reasonable
probability of success on the merits.116

115

Id. at 72.
Id. at 72-73. At oral argument before this Court, Campbell’s counsel stated that Campbell has not returned any of the
money contributed by Kay, but that Campbell is “willing to” do so
“with interest,” over a “payout period,” and “perhaps even possibly” with “an exit bonus.” Oral Argument at 29:59-30:27,
https://livestream.com/accounts/5969852/events/8091956/videos/
171199929 [hereinafter Oral Argument].
116

App. 95
Thus, on July 23, 2015, the court granted Plaintiffs’
requested status quo order (the “Order”), providing
them access to information concerning the Targeted
Companies while litigation was pending.117 The Order
also required Campbell to give Plaintiffs ten days advance notice of any transaction subject to the Order
and mandated that any transaction that Plaintiffs
objected to in writing could not proceed without court
approval.118
On May 27, 2016, while proceedings were pending
before the trial court, Plaintiffs moved for sanctions
and to hold Campbell in contempt for violating the
Order. 119 The Court of Chancery (with another Vice
Chancellor succeeding the retiring prior presiding Vice
Chancellor in this matter) held an evidentiary hearing
on August 31, 2016, and Campbell appeared in court
and testified.120 But Campbell failed to show up the
next day as directed by the trial court. The court ultimately found Campbell in contempt for failing to give
117

Trial Op., 2017 WL 3833210, at *13. The Order also directed Associates and EF Health to provide Plaintiffs with weekly
reports of all sales or distribution leads concerning the Transferred IP (referenced in § 2.2(b)), weekly bank statements, weekly
statements of accounts receivable and accounts payable, and biweekly payroll statements annotated with explanations for any
changes, among other information. Id.; Order Granting Plaintiffs’
Petition for Interim Relief Pursuant to Ct. Ch. R. 65(b) (July 23,
2015), available File & ServeXpress [hereinafter Status Quo Order].
118
Trial Op., 2017 WL 3833210, at *13; Status Quo Order,
supra note 117, at 4-8.
119
Trial Op., 2017 WL 3833210, at *13.
120
Id.

App. 96
Plaintiffs the required advance notice before withdrawing approximately $100,000 in accrued unreimbursed expenses from Associates and paying $38,000
in vendor fees. However, the court delayed determining
the remedy until after it resolved whether it had personal jurisdiction over Campbell. Still, it did require
Campbell to reimburse Plaintiffs on or before December 23, 2016, for Plaintiffs’ attorneys’ fees of $4,639.00
for the day that Campbell refused to show up in
court.121 Campbell did not deposit the funds until the
business day following the deadline, December 27.122
The Court of Chancery held a five-day trial in February 2017. Then, on March 6, 2017, Plaintiffs filed a
supplemental motion for contempt against Campbell
for an additional alleged violation of the Order.123 And
Plaintiffs filed yet another motion for contempt on May
24, 2017, in which they alleged yet another violation of
the Court’s Order.124 The court held evidentiary hearings on both supplemental motions for contempt, and
Campbell testified at each.125 But the court delayed its
rulings until its decision on personal jurisdiction.126

121

Id.; Order Awarding Partial Remedy for Defendant’s Contempt (Dec. 15, 2016), at 2, available via File&ServeXpress.
122
Trial Op., 2017 WL 3833210, at *13.
123
Id. at *14.
124
Id.
125
The second contempt hearing was held on August 28,
2017, just a few days before the court issued its post-trial opinion.
126
Id.

App. 97
The trial court issued its post-trial opinion on September 1, 2017. It found that the court lacked personal
jurisdiction over Campbell for three reasons. First, it
determined that the Contribution Agreement was not
a binding contract because the parties failed to agree
on the consideration to be exchanged and, thus, it
deemed its forum selection provision favoring Delaware to be unenforceable. Second, it believed that the
parties failed to agree to the terms of the LLC Agreement separate and apart from the Contribution Agreement and, thus, it similarly found the forum selection
provision in the LLC Agreement unenforceable. Third,
the Court of Chancery determined that Campbell was
not subject to personal jurisdiction via Section 18–109
of the Delaware Limited Liability Company Act, which
provides for the implied consent to personal jurisdiction of all persons named as a manager or who act as
a manager of a Delaware LLC.127 The Court of Chancery observed that the Plaintiffs did not contend that
Campbell became a manager of Holdings by executing
the April Letter Agreement. And it concluded that
“[t]he record does not show that Campbell ever managed Eagle Force Holdings or any other Delaware entity”128—just Associates and EF Health, which are
Virginia entities.129 Thus, the trial court deemed Section 18-109 inapplicable. And, finally, because the court
127

Id. at *19. In light of our decision to remand on the other
issues, we do not reach the issue of whether Campbell was subject
to jurisdiction by virtue of 6 Del. C. § 18-109(a).
128
Id.
129
Id.

App. 98
decided that it lacked personal jurisdiction over Campbell, it held that its prior contempt orders were unenforceable and that it could not decide the pending
contempt motion.
Appellants dispute each of the Court of Chancery’s
conclusions in this appeal.
II.
Given that the trial court found it lacked personal
jurisdiction over Campbell, the precise question in this
appeal is whether there exists any basis for Delaware
courts to exercise personal jurisdiction over Campbell.
The existence of personal jurisdiction is a mixed question of fact and law.130 We review the trial court’s factual determinations for clear error and its legal rulings
de novo.131
When evaluating whether plaintiffs have met their
burden of showing a basis for jurisdiction over a nonresident defendant,132 Delaware courts invoke a “twoprong” test.133 First, we consider whether a statute

130

Plummer v. Sherman, 861 A.2d 1238, 1242 (Del. 2004).
Osborn, 991 A.2d at 1158.
132
AeroGlobal Capital Mgmt., LLC v. Cirrus Indus., Inc., 871
A.2d 428, 437 (Del. 2005) (“A plaintiff bears the burden of showing
a basis for a trial court’s exercise of jurisdiction over a nonresident
defendant.”). At trial, Plaintiffs did not argue that Campbell was
subject to personal jurisdiction pursuant to Delaware’s Long Arm
Statute. Trial Op., 2017 WL 3833210, at *19.
133
AeroGlobal, 871 A.2d at 438.
131

App. 99
such as Delaware’s Long Arm Statute, 10 Del. C.
§ 3104, authorizes service of process on the defendant.134 Second, we evaluate whether the plaintiff
has shown that subjecting the defendant to jurisdiction in Delaware does not violate the Due Process
Clause of the Fourteenth Amendment.135 Compliance
with Due Process is satisfied via “the so-called ‘minimum contacts’ requirement” because, when a nonresident defendant has sufficient minimum contacts with
Delaware, that nonresident “should ‘reasonably anticipate’ being required to defend itself in Delaware’s
courts.”136 Where a party commits to the jurisdiction of
a particular court or forum by contract,137 such as
through a forum selection clause, a “minimum contacts” analysis is not required as it should clearly anticipate being required to litigate in that forum.138
134

Id.
Id.
136
Id. at 438, 440.
137
See Sternberg v. O’Neil, 550 A.2d 1105, 1109 n. 4
(Del.1988) (“A party may submit to a given court’s jurisdiction by
contractual consent.”), overruled on other grounds by Genuine
Parts Co. v. Cepec, 137 A.3d 123 (Del. 2016); Mobile Diagnostic
Grp. Holdings, LLC v. Suer, 972 A.2d 799, 809 n.47 (Del. Ch.
2009) (“[T]o the extent that a party wants to ensure that it can
sue a nonresident in Delaware based on a contract signed by the
nonresident outside of this State, it can bargain for consent to jurisdiction in the contract.”).
138
See Nat’l Indus. Grp. (Holding) v. Carlyle Inv. Mgmt.
L.L.C., 67 A.3d 373, 381 (Del. 2013) (“Where the parties to the
forum selection clause have consented freely and knowingly to the
court’s exercise of jurisdiction, the clause is sufficient to confer
personal jurisdiction on a court.”); Ruggiero v. FuturaGene, plc.,
948 A.2d 1124, 1132 (Del. Ch. 2008) (“If a party properly consents
135

App. 100
Here, both Transaction Documents contain forum selection clauses favoring Delaware. This state’s courts
could also potentially have jurisdiction under Section
18-109 of the LLC Act, which provides for the implied
consent to jurisdiction by anyone listed as a manager
of a Delaware LLC, given that Campbell is listed as a
manager in the LLC Agreement.
Although we defer to the Court of Chancery’s factual findings after its careful review of the evidence
in these complicated proceedings,139 we REVERSE and
REMAND. We hold that the trial court erred by failing
to make a critical finding on the parties’ intent to be
bound, and in its implicit determination that the terms
are not sufficiently definite. In addition, we hold that
the trial court erred in its determination that it lacked
jurisdiction to enforce its findings that Campbell violated the court’s status quo order.140

to personal jurisdiction by contract, a minimum contacts analysis
is not required.”).
139
See Osborn, 991 A.2d at 1158 (“We review a trial judge’s
factual findings for clear error.”).
140
Id. (“We review questions of law and interpret contracts
de novo.”). It is arguable that Virginia law should apply given that
the contract was formed in Virginia and the parties’ relationship
centered there. See Certain Underwriters at Lloyds, London v.
Chemtura Corp., 160 A.3d 457, 464 (Del. 2017) (“Delaware follows
the Second Restatement’s ‘most significant relationship’ analysis
when considering choice of law in contract disputes.”) Though
Campbell’s answering brief suggests Virginia law could apply, it
does not assert a position concerning which law should govern,
and it does not argue that there are significant differences between Virginia’s and Delaware’s laws of contracts. See Appellee’s
Answering Br. at 28-29 (“[W]here the Court applies Virginia law

App. 101
Our reasoning follows.
A. The Contribution Agreement
Under Osborn, a valid contract exists when (1) the
parties intended that the instrument would bind them,
demonstrated at least in part by its inclusion of all material terms; (2) these terms are sufficiently definite;
and (3) the putative agreement is supported by legal
consideration.141
1. Intent to Be Bound
The first prong of Osborn is whether “the parties
intended that the contract would bind them.”142 This
question looks to the parties’ intent as to the contract
as a whole, rather than analyzing whether the parties
possess the requisite intent to be bound to each particular term. “Under Delaware law, ‘overt manifestation

(the locus of all activity relating to the negotiation and creation of
the Transaction Documents) or Delaware law, extrinsic evidence
is admissible to show that the Transaction Documents never became operative.”). We apply Delaware law, as did the Court of
Chancery. See Trial Op., 2017 WL 3833210, at *14 n.195.
141
See Osborn, 991 A.2d at 1158-59.
142
Id. at 1158; see also 2 Richard A. Lord & Samuel Williston,
Williston on Contracts § 6:1 (4th ed.) [hereinafter Williston] (“Acceptance of an offer is necessary to create a simple contract, since
it takes two to make a bargain. An offer to contract is a proposal
in the form of an express or implied promise to exchange a promise or an act for a specified return promise or act of another, and
it is therefore obvious that the latter’s assent is necessary in order
to complete the transaction.”).

App. 102
of assent—not subjective intent—controls the formation of a contract.’ ”143 As such, in applying this objective test for determining whether the parties
intended to be bound, the court reviews the evidence
that the parties communicated to each other up until
the time that the contract was signed—i.e., their words
and actions—including the putative contract itself.144
And, where the putative contract is in the form of a
signed writing, that document generally offers the
most powerful and persuasive evidence of the parties’
intent to be bound.145 However, Delaware courts have
143

Black Horse Capital, LP v. Xstelos Holdings, Inc., 2014
WL 5025926, at *12 (Del. Ch. Sept. 30, 2014) (quoting Indus. Am.,
Inc. v. Fulton Indus., Inc., 285 A.2d 412, 415 (Del. 1971)); see also
2 Williston, supra note 142, at § 6:3 (“[S]ince the formation of informal contracts depends not upon an actual subjective meeting
of the minds, but instead upon outward, objective manifestations
of assent, an actual intention to accept is unimportant except in
those situations when the acts or words of the offeree are ambiguous.”).
144
Black Horse, 2014 WL 5025926, at *12 (“Whether both of
the parties manifested an intent to be bound ‘is to be determined
objectively based upon their expressed words and deeds as manifested at the time rather than by their after-the-fact professed
subjective intent.’ ” (quoting Debbs v. Berman, 1986 WL 1243, at
*7 (Del. Ch. Jan. 29, 1986))); see also Restatement, supra note 1,
at § 50 cmt. c. (acceptance of an offer “may be made in words or
other symbols of assent, or it may be implied from conduct, other
than acts of performance, provided only that it is in a form invited
or required by the offer.”).
145
See Seiler v. Levitz Furniture Co. of E. Region, 367 A.2d
999, 1005 (Del. 1976) (“We have no doubt that the parties intended to be bound by what is written in the April 30 Agreement.
No other conclusion is reasonably possible from the plain words
which they used to state their commitment to each other.”);
Osborn, 991 A.2d at 1158-59 (declining to look beyond the face of

App. 103
also said that, in resolving this issue of fact,146 the court
may consider evidence of the parties’ prior or contemporaneous agreements and negotiations in evaluating
whether the parties intended to be bound by the agreement.147
We also said in Osborn that “a contract must contain all material terms in order to be enforceable.”148
Chancellor Allen similarly observed in Leeds that,
“[u]ntil it is reasonable to conclude, in light of all of
the[ ] surrounding circumstances, that all of the points
that the parties themselves regard as essential have
been expressly or (through prior practice or commercial custom) implicitly resolved, the parties have not
finished their negotiations and have not formed a contract.”149 Though Leeds concerned a letter of intent,
common sense suggests that parties to a sophisticated
commercial agreement, let alone any agreement,
would not intend to be bound by an agreement that does
not address all terms that they considered material
the document in determining whether the parties intended to be
bound by it); see also infra note 153.
146
Delaware Bay Surgical Servs., P.C. v. Swier, 900 A.2d
646, 650 (Del. 2006) (“Determining the intent of the parties is a
question of fact.”).
147
See Black Horse, 2014 WL 5025926, at *12 (“[C]ourts in
Delaware look for ‘objective, contemporaneous evidence indicat[ing] that the parties have reached an agreement,’ whether
that be in the parties’ spoken words or writings.” (quoting Debbs,
1986 WL 1243, at *7)).
148
Osborn, 991 A.2d at 1159 (quoting Ramone v. Lang, 2006
WL 905347 (Del. Ch. Apr. 3, 2006)).
149
Leeds, 521 A.2d at 1102.

App. 104
and essential to that agreement—a different inquiry
than whether these terms are sufficiently definite. As
such, all essential or material terms must be agreed
upon before a court can find that the parties intended
to be bound by it and, thus, enforce an agreement as
a binding contract.150 What terms are material is determined on a case-by-case basis, depending on the
subject matter of the agreement and on the contemporaneous evidence of what terms the parties considered
essential.151
Here, the Court of Chancery found that “the precise consideration to be exchanged between Campbell
and Eagle Force Holdings was highly material to the
parties here.”152 The Contribution Agreement addresses the consideration to be exchanged. The only
dispute is whether the terms relating to that consideration are sufficiently definite—a subject we address
under the second prong of the Osborn test.
Regarding the parties’ intent to be bound, we observe that Professor Williston has stated that a signature “naturally indicates assent, at least in the absence
150

See, e.g., Osborn, 991 A.2d at 1159.
See Leeds, 521 A.2d at 1097 (“[O]ur task is to determine
the factual setting in which the document that is here claimed to
constitute a contract was negotiated and executed and to decide
the factual question whether a reasonable negotiator in the position of one asserting the existence of a contract would have concluded, in that setting, that the agreement reached constituted
agreement on all of the terms that the parties themselves regarded as essential and thus that that agreement concluded the
negotiations and formed a contract.”).
152
Trial Op., 2017 WL 3833210, at *16.
151

App. 105
of an invalidating cause such as fraud, duress, mutual
mistake, or unconscionability. . . .”153 In Osborn itself,
the signatures of both parties and the notarization of
the written agreement provided enough evidence to
show that the parties intended to be bound by it.154
Here, both parties signed the Contribution Agreement.155 That is strong evidence that the parties intended to be bound by it.156 Moreover, Campbell and
Kay’s embrace after signing suggests the parties’ reconciliation (however fleeting) and the consummation of
153

Williston, supra note 142, at § 6:44; see also Hough Assocs., Inc. v. Hill, 2007 WL 148751, at *14 (Del. Ch. Jan. 17, 2007),
(“The parties’ signatures on the Non-Competition Agreement after nearly six months review, and in the absence of any colorable
claim of coercion, manifest mutual assent.”), judgment entered,
(Del. Ch. Jan. 23, 2007); Kirkwood Motors, Inc. v. Conomon, 2001
WL 112054, at *2 (Del. Super. Ct. Feb. 5, 2001) (“By reducing the
agreement to writing, Kirkwood was demonstrating its intent to
be bound by its terms. By signing the agreement, the Conomons
were also indicating their intent to be bound by its terms.”);
Comolli v. Huntington Learning Ctrs., Inc., 683 Fed.Appx. 27, 29
(2d Cir. 2017) (observing that the parties, “in printing their
names below the ‘Very Truly yours’ valediction, ‘objective[ly]
manifest[ed]’ their intent to be bound. Whatever the meaning of
the Disputed Signature Line, it would be unreasonable for a person printing her name below the valediction to believe that she
was not agreeing to the substance of the release.” (quoting Brown
Bros. Elec. Contractors, Inc. v. Beam Const. Corp., 41 N.Y.2d 397,
393 N.Y.S.2d 350, 361 N.E.2d 999, 1001 (1977))).
154
See Osborn, 991 A.2d at 1158-59 (“The face of this contract
manifests the parties’ intent to bind one another contractually.”);
see also, e.g., Schulz v. U.S. Boxing Ass’n, 105 F.3d 127, 136 (3d
Cir. 1997) (“[T]he signatures manifested an intention to be bound
by these rules.”).
155
Trial Op., 2017 WL 3833210, at *1.
156
See supra note 153.

App. 106
a deal, offering additional objective manifestation that
the parties intended to be bound by the Transaction
Documents.
But we acknowledge that there is evidence that
cuts the other way (for example, the “DRAFT” notation
and blank schedules). On remand, the trial court
should weigh the evidence and make a finding on the
parties’ intent to be bound by the Contribution Agreement.157
2. The Essential Terms of the Contribution
Agreement Are Sufficiently Definite
The second question under Osborn is whether
the putative contract’s material terms are sufficiently

157

We note that even Campbell’s counsel at oral argument
agreed that the trial court had not made a finding as to the first
prong of the Osborn test and suggested that, if this Court were to
reverse on that basis, that it remand the case for the court to
make a finding. See Oral Argument, supra note 116, at 23:2023:36, 24:40-25:02. We agree. Although the Court of Chancery’s
opinion does state that “Kay and Campbell did not intend to bind
themselves to the written terms in the Transaction Documents,”
Trial Op., 2017 WL 3833210, at *18, for the reasons discussed in
this opinion, we do not read this sentence as a finding of fact sufficient to satisfy Osborn’s first prong. Among other things, the
trial court conflated the analysis under Osborn and based its decision largely on its conclusion that the consideration to be exchanged was not sufficiently definite—largely due to the SARS
issues. See id. at *16 (“Absent definite terms regarding the remainder of the property to be contributed, I find that Campbell
and Kay did not come to agreement on the consideration that
Campbell would provide in the Transaction Documents.”).

App. 107
definite.158 This is mostly, if not entirely, a question of
law.159 Though this Court has not articulated a precise
standard for what qualifies as sufficiently definite,
several of our trial courts have followed the test from
Restatement (Second) of Contracts § 33(2), which suggests that terms are sufficiently definite if they “provide a basis for determining the existence of a breach
and for giving an appropriate remedy.”160 We adopt this
158

Osborn, 991 A.2d at 1158; see also Scarborough v. State,
945 A.2d 1103, 1112 (Del. 2008) (“As every first year law student
learns, one of the central tenets of contract law is that a contract
must be reasonably definite in its terms to be enforceable.”);
2 Joseph M. Perillo & Helen Hadjiyannakis Bender, 1-4 Corbin
on Contracts § 4.1 (1993) [hereinafter Corbin] (“A court cannot enforce a contract unless it can determine what it is.”)
159
See Osborn, 991 A.2d at 1158-61 (applying de novo review
when evaluating whether the contract was sufficiently definite);
see also Reynolds v. Univ. of Pennsylvania, 483 Fed.Appx. 726,
735 (3d Cir. 2012) (“[U]nder Pennsylvania law the issue of
whether the terms are sufficiently definite to be enforced is a
question of law. (citing Am. Eagle Outfitters v. Lyle & Scott Ltd.,
584 F.3d 575, 585 (3d Cir. 2009))).
160
See Carteret Bancorp, Inc. v. Home Grp., Inc., 1988 WL
3010, at *9 (Del. Ch. Jan. 13, 1988) (citing Restatement, supra
note 1, § 33(2)); Bryant v. Way, 2011 WL 2163606, at *4 (Del. Super. Ct. May 25, 2011) (“[T]he Court will deny the existence of a
contract only if the terms ‘are so vague that a Court cannot determine the existence of a breach.’ ” (quoting Cont’l. Ins. Co. v.
Rutledge & Co., Inc., 750 A.2d 1219, 1230 (Del. Ch. 2000)); Cont’l
Ins., 750 A.2d at 1230 (“Where terms in an agreement are so
vague that a Court cannot determine the existence of a breach,
then the parties have not reached a meeting of the minds, and a
Court should deny the existence of the alleged agreement.” (citing
Haft v. Dart Grp. Corp., 877 F.Supp. 896, 906 (D. Del. 1995)));
Indep. Cellular Tele., Inc. v. Barker, 1997 WL 153816, at *4 (Del.
Ch. Mar. 21, 1997) (“The material terms of a contract will be
deemed fatally vague or indefinite if they fail to provide a

App. 108
test. A contract is sufficiently definite and certain to be
enforceable if the court can—based upon the agreement’s terms and applying proper rules of construction
and principles of equity—ascertain what the parties
have agreed to do. Indeed, as Corbin has stated, “[i]f
the parties have concluded a transaction in which it
appears that they intend to make a contract, the court
should not frustrate their intention if it is possible to
reach a fair and just result, even though this requires
a choice among conflicting meanings and the filling of
some gaps that the parties have left.”161
The Court of Chancery determined that “the precise consideration to be exchanged between Campbell
and Eagle Force Holdings was highly material to the
parties here.”162 But the trial court believed that the
parties failed to agree on “precise scope” of this consideration: several terms were “either blank or inconsistent with the reality of which Campbell, Kay, Offit,
reasonable standard for determining whether a breach has occurred and the appropriate remedy.” (citing Restatement, supra
note 1, § 33(2))); Litle v. Waters, 1992 WL 25758, at *6 (Del. Ch.
Feb. 11, 1992) (“The material terms are uncertain where they fail
to provide a reasonable basis for determining the existence of a
breach and for giving the appropriate remedy.” (citing Restatement, supra note 1, at § 33(2)); see also Corbin, supra note 158,
§ 4.1 (The parties “must have expressed their intentions in a manner that is capable of being understood. It is not even enough that
they have actually agreed, if their expressions, when interpreted
in the light of accompanying factors and circumstances, are not
such that the court can determine what the terms of that agreement are.”).
161
Corbin, supra note 158, § 4.1.
162
Trial Op., 2017 WL 3833210, at *16.

App. 109
and Rogers were aware.”163 We disagree. Accepting the
Court of Chancery’s factual finding that the consideration to be exchanged was material to the parties’ agreement, the text of the executed Contribution Agreement
is sufficiently definite. It allows us to ascertain not only
the consideration, but also what should happen in the
event that Campbell could not actually deliver his
specified amounts and provides a means of enforcement if one party proved incapable of performing as
promised.
At the very beginning, in the recitals, the Contribution Agreement articulates the consideration to be
exchanged. These recitals summarize that Campbell
was to contribute to the Company all his rights in the
Transferred IP and Targeted Companies Securities, as
those terms are defined, and that, in return, Campbell
was to receive Class A Units constituting half of all issued and outstanding Class A Units at the time of his
contribution.164 The terms of the Contribution Agreement reiterate this statement of the consideration to
be exchanged.

163

Id. at *15.
Executed Contribution Agreement, supra note 55, Recitals, at A664 (noting, among other things, that “[t]he parties
hereto intend that the contribution to the Company by Campbell
of the Targeted Companies Securities and the Transferred IP
shall be treated as Campbell’s capital contribution to the Company in exchange for which Campbell shall receive Class A Units
comprising 50% of the issued and outstanding Class A Units at
such time.”); see also Executed LLC Agreement, supra note 81,
Schedule A, at A770.
164

App. 110
For example, Section 2.2(b) specifies that Campbell was to contribute “all right, title and interest in
and to any and all Intellectual Property owned in
whole or in part by Campbell and which is used or related to, or which can be used or related to: Health;
Identity Management; Cybersecurity,” and other specified issues.165 The agreement refers to this intellectual
property as the “Transferred IP.”166 As the Court of
Chancery acknowledged, Sections 4.20(d) and 4.20(f )
“make clear that Schedule 3.5 includes all of Campbell’s intellectual property license agreements.”167 Yet
the trial court noted that Schedule 3.5 is blank and, as
such, concluded that the parties “did not reach agreement on which contracts Campbell would assign to
Eagle Force Holdings as another part of the consideration in this proposed deal.”168 The text of the agreement
defines which contracts should be delivered as all
means all. Campbell’s obligations were clear without
the schedules: he had to contribute the licensing agreements for all the Transferred IP, and the text of the
executed agreement leaves no doubt about the IP
165

Executed Contribution Agreement, supra note 55,
§ 2.2(b), at A665.
166
Id.
167
Trial Op., 2017 WL 3833210, at *16. This observation is
confirmed elsewhere in the agreement. Section 3.5 reiterates that,
at Closing, “Campbell shall assign to the Company . . . those
agreements set forth on Schedule 3.5 attached hereto (collectively, the ‘Assumed Agreements’).” Executed Contribution
Agreement, supra note 55, § 3.5, at A668. A footnote to that sentence states that “Schedule 3.5 should include any of Campbell’s
licenses to Intellectual Property.” Id. § 3.5 n.2, at A668.
168
Trial Op., 2017 WL 3833210, at *16.

App. 111
consideration to be exchanged. In addition, the trial
court found that the parties had resolved the scope of
the intellectual property that Campbell would contribute.169
Section 2.2(a) of the Contribution Agreement
similarly provides that Campbell shall contribute “all
right, title, and interest in and to the Targeted Companies Securities, such that, after such contribution, the
Company shall hold all of the Targeted Companies Securities. . . .”170 “Targeted Companies Securities” are
defined as “the ownership interests (and rights to acquire ownership interests) of the Targeted Companies
set forth in Schedule 4.3(a).”171 In Section 4.3(e), Campbell represents and warrants that the Targeted Companies Securities listed opposite his name on Schedule
4.3(a) “constitute all of the issued and outstanding Targeted Companies Securities. . . .”172 Hence, Campbell
had to contribute all the Targeted Companies Securities, which were equivalent to the securities next to his
name on Schedule 4.3(a). Schedule 4.3(a) included the
header “Capitalization,” and then, as the Court of
Chancery observed, it was left “blank except for the

169

Id. at *7 (“As to the scope of the intellectual property
Campbell would contribute, the parties agreed that he would contribute all of the intellectual property he had created that was
related to the EagleForce business.”).
170
Executed Contribution Agreement, supra note 55, § 2.2,
at A665.
171
Id. Exhibit A, at A705.
172
Id. § 4.3(e), at A671.

App. 112
bracketed text ‘[Also describe SARS Plan],’ ”173 where it
seems subsection 4.3(b) was supposed to appear.174
Thus, the trial court concluded that “the schedule that
was meant to list an important part of the consideration Campbell would provide under the agreement is
incomplete,”175 contributing to the court’s view that the
parties failed to form a contract. However, Schedule
4.3(a) is not necessary for determining Campbell’s contribution: Campbell had to contribute “all right, title,
and interest” in these securities.176 Given that all
means all, additional clarification from Section 4.3(a)
similarly is not essential.
Nonetheless, the trial court believed and emphasized that “[t]he objective evidence of the course of the
parties’ negotiations shows that whether Campbell
owns all of the equity in EagleForce Health and
173

Trial Op., 2017 WL 3833210, at *15.
SARS Plan is defined as “the existing stock appreciation
rights plan currently in effect which is described in Schedule
4.3(b).” Executed Contribution Agreement, supra note 55, Exhibit
A, at A704.
175
Trial Op., 2017 WL 3833210, at *15.
176
Executed Contribution Agreement, supra note 55, § 2.2(a),
at A665 (emphasis added). Further, Section 3.3(a)(i) confirms
that, to effectuate this contribution, at Closing, “Campbell shall
deliver to the Company the Surrender Documents and Surrendered Securities.” Id. § 3.3(a)(i), at A667. “Surrender Documents”
means “a letter of transmittal surrender form regarding the surrender of Targeted Companies Securities which shall be in form
and substance reasonably satisfactory to Campbell and the Company.” Id. Exhibit A, at A705. Further, “Surrendered Securities”
is defined as “(a) certificates representing the Targeted Companies Securities, and (b) assignments and assumptions of interests
in Targeted Companies Securities, as applicable.” Id.
174

App. 113
EagleForce Associates is not clear,”177 given that the
employment agreements of certain employees at the
subsidiaries purported to provide for SARS.178 We conclude, however, that Section 2.2 is not ambiguous. It is
clear that Campbell promised to deliver all the Targeted Companies Securities. Further, the trial court’s
finding that “Kay, Campbell, Offit, and Rogers knew
[that Kay and Campbell] had not come to agreement
on the employee claims for equity and the SARs
plan”179 is based on post-signing extrinsic evidence.
Even Campbell acknowledges that “[t]he trial court
reached this conclusion from evidence that, on September 9, 2017 (post-signing), Rogers had notified Offit of
a number of unresolved issues relating to the SARS”
and representations about “waivers of third-party equity claims.”180 The possibility that Campbell could not
177

Trial Op., 2017 WL 3833210, at *15 (“Throughout the negotiation of the Transaction Documents, Kay and Offit were concerned about employee claims for some of the equity of EagleForce
Associates or EagleForce Health.”).
178
See also Employment Letters, supra note 40, at A2224-31.
Plaintiffs’ counsel raises an important issue: whether it was even
proper for the trial court to factor these letters into its opinion
given that they were never introduced into evidence at trial. See
Oral Argument, supra note 116, at 03:10-03:30 (“There’s an evidentiary problem that we raised, and that is that the SARS letters
were not introduced at trial. They were actually introduced at a
contempt hearing following trial, for a completely different purpose. And, therefore, our position is that the Chancery Court
should not have considered them because they were not introduced in evidence at trial.”).
179
Trial Op., 2017 WL 3833210, at *16.
180
Appellee’s Answering Br. at 32 n. 7. The Court of Chancery looked to evidence after the documents had been signed—
from after the time of execution—and then used an apparent

App. 114
deliver all of the Targeted Companies Securities is
based upon the hypothetical scenario that claims arising from the Employment Letters (which were never
introduced as evidence at trial) would be asserted, and
ultimately prove successful.181 Instead, the question at
hand is whether the terms of the agreement itself were
sufficiently definite so as to provide a basis for determining a breach. We conclude that the terms of the
Contribution Agreement are sufficiently definite.

misalignment between one party’s post-execution view and the
text of the executed document to find that the terms of the executed document must not have been sufficiently definite. This is
a form of “after-the-fact professed subjective intent” that our
courts typically refuse to consider. See, e.g., Sarissa Capital Domestic Fund LP v. Innoviva, Inc., 2017 WL 6209597, at *21 (Del.
Ch. Dec. 8, 2017), judgment entered, (Del. Ch. Dec. 20, 2017).
181
Even Campbell’s Answering Brief refers to SARS as “potential employee claims to equity.” Appellee’s Answering Br. at
31. The record is woefully undeveloped as to what a “SAR” was
meant to be, let alone whether it could have any potential impact
on capitalization at the Holdings level, and we question the trial
court’s basis for its conclusion that it was not clear whether
Campbell owned all of the subsidiaries’ equity. For one, Plaintiffs’
counsel explained at oral argument before this court that the
existing SARS offers did not encompass equity ownership. See
Oral Argument, supra note 116, at 5:18-5:19 (“What [a SAR]
didn’t mean was ownership. Everybody agrees on that. Mr. Campbell agreed on that. Mr. Campbell’s counsel, deal counsel, agreed
on that. Mr. Kay understood that. And Mr. Kay’s deal counsel
agreed on that. So, to the extent the court was questioning
whether Mr. Campbell owned 100% of the company, the SARS
have nothing to do with it because Ownership is different than a
right to a payment based on appreciation of the stock value.
That’s what a SAR is. They’re non-voting. You don’t own any part
of the company. You have a right to a payment, a bonus.”). Campbell’s attorney did not refute that characterization.

App. 115
In addition to promising to deliver all of the Targeted Companies Securities, Campbell represented
and warranted that “Campbell is the true and lawful
owner of the Targeted Companies Securities set forth
opposite his name on Schedule 4.3(a), which constitute
all of the issued and outstanding Targeted Companies
Securities, and has full capacity, power and authority
to surrender the Targeted Companies Securities for
exchange pursuant to the terms of this Agreement, free
and clear of any Encumbrances, and such Targeted
Companies Securities are not subject to any adverse
claims.”182 And Campbell further represented and warranted that “[n]either Chris Creswell, Said Saleh nor
any member of the family of Said Saleh have any legal
or equitable ownership interest in any Targeted Companies Securities.”183 Similarly, Campbell additionally
represented and warranted that “[t]he revenue sharing plans and/or profit sharing plans for Chris Creswell [and other listed employees] . . . have been
eliminated without continuing liability to any Targeted Company, and each of the foregoing persons has
given the appropriate Targeted Company a legally
binding release from any further liability for such
plans.”184 Thus, even if Campbell could not deliver all
182

Executed Contribution Agreement, supra note 55,
§ 4.3(e), at A671 (emphasis added).
183
Id.
184
Id. § 4.3(d), at A671. Similarly, Section 4.12(c) of the Contribution Agreement represented and warranted that, “[e]xcept
as set forth on Schedule 4.12(c), neither the execution and delivery of this Agreement, nor the consummation of the transactions
contemplated hereby, . . . will . . . accelerate the vesting, funding

App. 116
the Targeted Companies Securities as promised, in addition to claims for breach of contract, Kay and the
Company had possible recourse through actions for
possible breaches via the warranty and/or indemnification provisions.185 But, again, the possibility that
or time of payment of any compensation, equity award or other
benefit. . . .” Id. § 4.12(c), at A675. Kay knew that at least Cresswell’s employment agreement stated that his SARS rights vest
upon a sale or change of control. Trial Op., 2017 WL 3833210, at
*15. But Schedule 4.12(c) was blank. Executed Contribution
Agreement, supra note 55, Schedule 4.12(c), at A780. Regardless,
Kay had obtained Campbell’s representation and warranty that
the “revenue sharing plans and/or profit sharing plans for Chris
Creswell” and other employees, including John Morgan “have
been eliminated without continuing liability to any Targeted
Company. . . .” Id. § 4.3(d), at A671.
185
We acknowledge the debate over whether a party can recover on a breach of warranty claim where the parties know that,
at signing, certain of them were not true. Campbell argues that
reliance is required, but we have not yet resolved this interesting
question. See Genencor Int’l, Inc. v. Novo Nordisk A/S, 766 A.2d
8, 12 n.8 (Del. 2000) (noting that the Court did not need to decide
whether detrimental reliance is an element of a claim for a breach
of warranty because that issue was not squarely at issue in the
case). And we observe that a majority of states have followed the
New York Court of Appeals’ decision in CBS Inc. v. Ziff-Davis
Publishing Co., 75 N.Y.2d 496, 554 N.Y.S.2d 449, 553 N.E.2d 997
(1990), which holds that traditional reliance is not required to recover for breach of an express warranty: the only “reliance” required is that the express warranty is part of the bargain between
the parties. Id., 554 N.Y.S.2d 449, 553 N.E.2d at 1001 (“This view
of ‘reliance’—i.e., as requiring no more than reliance on the express warranty as being a part of the bargain between the parties—
reflects the prevailing perception of an action for breach of express
warranty as one that is no longer grounded in tort, but essentially
in contract.”); see also See Tina L. Stark, Nonbinding Opinion,
Bus. Law Today, Jan.-Feb. 2006, at https://apps.americanbar.org/
buslaw/blt/2006-01-02/nonbindingopinion.html (“Since the CBS

App. 117
Campbell might not perform is a different question
than the definiteness of the putative contract’s terms.
Further, assuming that SARS entailed some form
of equity ownership and that successful claims were
made, the Contribution Agreement includes a provision that articulates how Holdings was to provide for
such claims without impacting the equal and shared
ownership of Holdings that Campbell and Kay so desired.186 Section 5.7 of the LLC Agreement, which was
integrated into the Contribution Agreement and thus
considered part of the agreement,187 provides:
At such time as the Board of Managers shall
determine, but in no event later than after the
Company shall receive its first contract in
case was decided, the majority of states have followed New
York.”). We need not decide this interesting issue because such
claims are not before the court.
Further, Article IV, the “Representations and Warranties of
Campbell,” begins by stating that “Campbell hereby represents
and warrants to the Company that the following representations
and warranties are, as of the Execution Date, and will be, as of
the Closing Date, true and correct.” Executed Contribution Agreement, supra note 55, Article IV, at A668 (emphasis added). Thus,
even though the parties apparently appreciated that the “reality”
of not having signed releases in hand did not comport with certain
representations at the time of execution, it appears the parties
were willing to overlook any problem at signing and allow Campbell to strive to obtain any necessary releases by Closing.
186
Trial Op., 2017 WL 3833210, at *16 (“From the beginning
of Campbell and Kay’s negotiations, they communicated to each
other that it was very important that they both be 50% owners of
the ultimate holding company.”).
187
See Executed Contribution Agreement, supra note 55,
§ 8.4(a), at 695-96.

App. 118
respect of its business, the Company, the
Board of Managers and its officers, and the
managers, directors and officers, if any, of each
of the Company’s Subsidiaries, as the case
may be, shall take all actions as are necessary
to set aside (i) three percent (3%) of the equity
in each of the Company’s Subsidiaries, which
equity shall be reserved for a stock appreciation rights plan, and (ii) seventeen percent
(17%) of the equity in each of the Company’s
Subsidiaries, which equity shall be reserved
for investors, key employees or other persons
that the Board of Managers shall so determine in its sole discretion.188
As noted above, the record is woefully undeveloped
as to what a “SAR” was intended to be, let alone
whether it could have any potential impact on capitalization at the Holdings level.189 We are reluctant to find
188

Executed LLC Agreement, supra note 81, § 5.7, at A739.
The inclusion of this provision seems to contradict the trial court’s
conclusion that “Kay and Campbell’s list of thirteen points recognized the problem of the SARs program and began to develop a
solution under which Campbell and Kay would each retain equal
control, but that was never incorporated into the Transaction
Documents.” See Trial Op., 2017 WL 3833210, at *15. In addition,
Section 5.7 first appeared in Rogers’ August 19 draft of the LLC
Agreement, the first draft circulated following the ThirteenPoints List of August 14. See Rogers’ LLC Agreement Redline
(Aug. 19, 2019), § 5.7, at A339-40.
189
See, e.g., Oral Argument, supra note 116, at 4:38-5:22
(Kay’s Counsel: “I’m not sure that anybody understands what
those letters were offering to Mr. Creswell or Mr. Morgan because, as I said, there was no plan. So, our position is and was,
and what Mr. Campbell agreed to was, he would obtain releases
from those people and tell them that once the corporation, the
subsidiaries, were owned by the holding company, a new SARS

App. 119
that the agreements fail for lack of definiteness based
upon speculation that claims might be asserted; that,
if asserted, they will be successful; and that, if successful, they will exceed the amounts set aside in Section
5.7. If all of that comes to pass, it appears that the representations, warranty, and indemnification provisions
will be at issue. Facially, these provisions address what
the representations and warranties are, and what happens in the event of a breach. Whether they reasonably
could be relied upon under circumstances then presented is a question for another day.190 We are satisfied
that the provisions contained in the Contribution
Agreement provide a basis for determining the existence of a breach and for giving an appropriate remedy.
Thus, they are sufficiently definite.

plan would be introduced, and that they would be offered SARS
or whatever was available in that plan, but that the existing offer was in a non-existent plan, so what did it mean? What it didn’t
mean was ownership. We know that. Everybody agrees on
that.”); id. at 8:34-9:05 (Kay’s Counsel: “As far as Mr. Creswell
and Mr. Morgan, as Your Honor points out, you can’t make heads
or tails of what it means. What kind of a claim could they make?
Mr. Morgan comes in and says, ‘I have 150,000 of something. I
don’t know what it is.’ So the idea was we were going to clean that
up by obtaining releases from these folks, and then we were going
to produce a SARS plan and offer it to them and it would make
sense. That never happened.”).
190
We note Corbin’s word of caution: “The courts must take
cognizance of the fact that the argument that a particular agreement is too indefinite to constitute a contract frequently is an
afterthought excuse for attacking an agreement that failed for
reasons other than the indefiniteness.” Corbin, supra note 158,
§ 4.1.

App. 120
3. The Contribution Agreement
Is Backed by Legal Consideration
The last requirement for a valid contract is the existence of legal consideration. The parties do not dispute that legal consideration exists.
If, on remand, the court determines that the Osborn
test is satisfied, then the Contribution Agreement is
enforceable, and the court has personal jurisdiction via
the forum selection provision favoring Delaware.
B. On Remand, the Court of Chancery Should
Reconsider Its Determination that the
LLC Agreement is Unenforceable
If the Court of Chancery determines that the Contribution Agreement is indeed enforceable, then the
trial court’s basis for finding the LLC Agreement unenforceable falls away. But if it determines that the
Contribution Agreement is not enforceable, then it
should examine the LLC Agreement under the Osborn
framework, including making a finding on the parties’
intention to be bound, with the guidance offered above
and below.
The trial court had determined, based on its review of extrinsic evidence, that “the parties intended
these two Agreements to operate as two halves of the
same business transaction,”191 and thus found that
191

Trial Op., 2017 WL 3833210, at *18 (quoting E.I. du Pont
de Nemours & Co. v. Shell Oil Co., 498 A.2d 1108, 1114-15 (Del.
1985)).

App. 121
they “rise and fall together.”192 To the extent that the
court’s conclusion was based on our decision in E.I. du
Pont de Nemours & Co. v. Shell Oil Co.,193 we urge it to
reexamine that conclusion, as Shell speaks more to the
interpretation of the contracts at issue there—and not
the court’s evaluation of the parties’ intent to be
bound.194
Like the Contribution Agreement, the four corners
of the LLC Agreement suggest a strong intent to be
bound at the time of signing. For one, in addition to
the signatures of the parties and the LLC Agreement’s
express statement that each member “intend[s] to be

192

Id.
498 A.2d 1108 (Del. 1985).
194
Trial Op., 2017 WL 3833210, at *18. In Shell, the plaintiff
DuPont had a contract with the defendant Shell that barred sublicenses, and the Court had to determine whether a contractual
arrangement between Shell and a wholly-owned subsidiary of the
Union Carbide Company constituted a single “sublicense” that
thus breached Shell-DuPont contract. 498 A.2d at 1110, 1115.
This Court noted that the “interrelatedness” of the two ShellCarbide agreements that were part of this contractual arrangement—including that Shell’s obligations under one were contingent on Carbide’s performance under the other—“ma[de] it clear
that the two parties intended these two Agreements to operate as
two halves of the same business transaction” and, thus, the Court
interpreted the two documents as one. Id. We held that, “[w]here
two agreements are executed on the same day and are coordinated to the degree outlined above [as indicated in the opinion],
in essence, they form one contract and must be examined as
such.” Id. Shell did not hold that one of the contracts was only
enforceable if the other one was also enforceable and, therefore,
has no bearing on the enforceability of the LLC Agreement.
193

App. 122
legally bound” by the document,195 the LLC Agreement
provides that they entered into the agreement, in part,
“to amend and restate the Original LLC Agreement in
its entirety. . . .”196 The fact that the Original LLC
Agreement preceded any such contribution agreement
additionally underscores that the parties intended to
be bound by the LLC Agreement independent of the
validity of any other document: it amended and restated a preexisting agreement that stood on its own
in the past and could do so in the future. Further, the
recitals also suggest that the LLC Agreement had different “material” or essential provisions than the
Contribution Agreement as it was meant to serve a different purpose: govern the members’ relationships
among themselves and clarify the Company’s operating structure. The recitals state that the parties entered into this LLC Agreement in order to:
amend and restate the Original LLC Agreement in its entirety in order to delineate the
rights and obligations of the Members and to
provide for, among other things, (a) the management of the business and affairs of the
Company, (b) the allocation among the Members of the profits and losses of the Company,
(c) the respective rights and obligations of the
parties to each other with respect to the Company and (d) the addition of Persons (other
than EFI) listed on Schedule A attached

195

Executed LLC Agreement, supra note 81, Background, at

A719.
196

Id.

App. 123
hereto as additional members of the Company,
all as permitted under the Act.197
The inclusion of provisions addressing these topics
is strong evidence that the LLC Agreement included
all material terms.
The LLC Agreement also states in Section 13.1
that “[t]his Agreement . . . contains the entire contract
among the Members as to the subject matter hereof,”198
indicating that the LLC Agreement is a completely integrated document and accordingly emphasizing its independence.
The Severability Clause confirms the LLC Agreement’s lack of dependence on any other contract or any
particular provision within it by indicating that, if any
provision of the LLC Agreement is deemed invalid or
unenforceable, the contract should be construed as if
the invalid parts were excised and all other portions
remain enforceable.199
On remand, as with the Contribution Agreement,
the Court of Chancery should revisit the evidence and
make an express finding on the parties’ intent to be
bound by the LLC Agreement. In this context, it is important to consider the General Assembly’s statement
197

Id.
Id. § 13.1, at A755 (emphasis added).
199
See id. § 13.4, at A756 (“If any provision of this Agreement
is determined by a court to be invalid or unenforceable, that determination shall not affect the other provisions hereof, each of
which shall be construed and enforced as if the invalid or unenforceable portion were not contained herein.”).
198

App. 124
that “[i]t is the policy of [the LLC Act] to give the maximum effect to the principle of freedom of contract and
to the enforceability of limited liability company agreements.”200 Given that the parties do not contend before
this Court that any terms of the LLC Agreement are
not sufficiently definite or that the LLC Agreement is
not supported by legal consideration, we conclude that
these two prongs are satisfied.
C. Delaware Courts Retain Jurisdiction to Punish
Violations of their Contempt Orders
After presiding over two hearings on the contempt
motions, the trial court determined that, because it
found that it lacked personal jurisdiction over Campbell, it could not hold Campbell in contempt and impose sanctions for his violations of its status quo order.
This Court has not squarely addressed whether the
Court of Chancery may impose sanctions on a defendant for violating its status quo order if the court ultimately finds that it lacks personal jurisdiction over the
defendant.
The Court of Chancery cited this Court’s decision
in Mayer v. Mayer,201 in support of its conclusion that,
because it lacked personal jurisdiction over Campbell,
it could not enforce its prior contempt orders.202 In
Mayer, a man who was denied a divorce by the
200

6 Del. C. § 18-1101(b); see also Elf Atochem N. Am., Inc. v.
Jaffari, 727 A.2d 286, 291-92 (Del. 1999).
201
132 A.2d 617 (Del. 1957).
202
Trial Op., 2017 WL 3833210, at *19.

App. 125
Superior Court in Delaware sold his property in Delaware and moved with all his belongings to Nevada.203
Soon after settling out West, he filed for divorce in Nevada on the grounds that he had been living apart from
his wife for three years—a reason that provided
grounds for divorce in Nevada, but not in Delaware. In
the meantime, his wife in Delaware sought and obtained an order from the Court of Chancery restraining the husband from continuing with his divorce
action in Nevada. The husband’s Nevada counsel received the order, but the husband ignored the order
and completed the Nevada divorce and remarried. The
wife then sought to hold the husband in contempt for
violating the Delaware court’s order, and the husband
appeared specially in the Court of Chancery to move to
dismiss the wife’s complaint for contempt of the court
order for lack of personal jurisdiction, among other reasons. The Court of Chancery granted the husband’s
motion, and this Court affirmed. In doing so, this Court
observed:
The party charged [with contempt] is always
at liberty to defend his disregard of the court’s
order by showing that the order was void for
lack of jurisdiction. In a contempt proceeding
based upon the violation of an injunction, the
only legitimate inquiry to be made by the
court is whether or not it had jurisdiction of
the parties and of the subject matter. Subject
to this limitation the court will not listen to
an excuse for the contemptuous action based
203

Mayer, 132 A.2d at 618.

App. 126
upon an argument that the order in question
was imperfect or erroneous. No person may
with impunity disregard an order of the court
having jurisdiction over the subject matter
and of the parties.204
In Mayer, the Court made the only legitimate inquiry—whether it had jurisdiction over the husband
when it issued its order restraining the Nevada divorce—and this Court agreed with the husband that
the Delaware court lacked jurisdiction over him at the
time the court issued the order.205 Further, the husband
was not before the court when the Court of Chancery
issued its order. The husband’s only appearance before
the court was a special appearance to contest personal
jurisdiction. And there was never any finding of contempt given the court’s determination that it lacked jurisdiction at the outset.
By contrast, in this case, the Court of Chancery issued its status quo order while the defendant was before the court, as other proceedings were pending.
Several courts have noted that courts may hold proceedings to determine whether it has jurisdiction
over a given action and, while doing so, impose orders
to preserve the status quo pending the outcome of the
proceedings. Indeed, in R & R Capital LLC v. Merritt,206
a decision affirmed by this Court, the Court of
204

Id. at 621, quoted in Cohen v. State ex rel. Stewart, 89 A.3d
65, 90 n.115 (Del. 2014), and Trial Op., 2017 WL 3833210, at *19.
205
Mayer, 132 A.2d at 621.
206
2013 WL 1008593 (Del. Ch. Mar. 15, 2013), aff ’d, 69 A.3d
371 (Del. 2013).

App. 127
Chancery determined that it “has the power to grant
ancillary injunctive relief to protect its jurisdiction
over (and the parties entitlement to a meaningful adjudication of their rights in) the property or other matter that is subject of the action.”207 Those orders would
be meaningless absent the power to enforce them.208

207

2013 WL 1008593, at *8 (quoting E.I. Du Pont de Nemours
& Co. v. HEM Research, Inc., 576 A.2d 635, 639 (Del. Ch. 1989)).
208
12 A.L.R. 2d 1059 § 6 (1950) (“[A] court possesses the
power of hearing and determining the question of its jurisdiction,
and may while so doing, require the parties to preserve the status
of the subject matter, and may punish for contempt disobedience
of its temporary restraining order.” (citing Pitcock v. State, 91
Ark. 527, 121 S.W. 742, 744-45 (1909))); see also United States v.
United Mine Workers of Am., 330 U.S. 258, 293, 67 S.Ct. 677, 91
L.Ed. 884 (1947) (“[T]he District Court had the power to preserve
existing conditions while it was determining its own authority to
grant injunctive relief. The defendants, in making their private
determination of the law, acted at their peril. Their disobedience
is punishable as criminal contempt.”); Hayes v. Towles, 95 Idaho
208, 506 P.2d 105, 109 (1973) (“In general, a court has the power
to order the preservation of the status quo while it determines its
own authority to grant relief, and the violation of a restraining
order issued for that purpose may be punished as criminal contempt, even if the court subsequently determines that it is without jurisdiction to grant the ultimate relief requested.”); Ohio
Contractors Ass’n v. Local 894 of Int’l Hod Carriers’, Bldg. & C. L.
Union of Am., 108 Ohio App. 395, 162 N.E.2d 155, 160 (1959)
(“[T]he trial court, whether it ultimately determines that it has or
does not have jurisdiction upon a consideration of the merits of
the case, did have authority to issue the temporary restraining
order and the temporary injunction; that it likewise had the
power and legal authority to punish for contempt those parties
who flagrantly flouted its order prior to a determination of the
jurisdictional question upon a consideration of the case on its merits.”).

App. 128
Moreover, some courts have found that, while a
party may contest a contempt order for lack of personal
jurisdiction, as the defendant did in Mayer, the party
waives that right if it voluntarily decides to contest the
merits of the claim that it violated a court order, regardless of whether that order was validly issued.209
Campbell did so here as he contested the merits of the
court’s order. We hold that, when a Delaware court issues a status quo order pending its adjudication of
questions concerning its own jurisdiction, it may punish violations of those orders with contempt and for
sanctions, no matter whether it ultimately finds that it
lacked jurisdiction.
III.
We reverse the trial court’s determination that it
lacked personal jurisdiction over Campbell and the
corollary finding that it could not impose sanctions for
contempt. And we otherwise remand this case to the
Court of Chancery for proceedings consistent with this
opinion.

209

17 C.J.S. Contempt § 104 (“A voluntary appearance in a
contempt proceeding ordinarily confers jurisdiction of the person
of the defendant.”); see also id. § 133 (“[A] voluntary appearance
may result in a waiver of defects or irregularities in the commencement of the proceedings, except as to matters affecting jurisdiction of the subject matter.”).

App. 129
STRINE, Chief Justice, joined by VAUGHN, Justice,
concurring in part and dissenting in part:
I join in the Majority’s decision finding that Campbell cannot escape responsibility for contempt. Having
exercised the privilege to litigate before our Court of
Chancery, he was bound to honor its orders relating to
his behavior, and he cannot escape responsibility for
his non-compliance by claiming that he was only before
the court to contest the question of personal jurisdiction.
I part company to some extent from the Majority’s
learned and careful consideration of the Court of Chancery’s decision that the August 28th draft Contribution
Agreement (the “Draft Contribution Agreement”) was
not enforceable because it failed to contain certain material terms. Like my friends in the Majority, I agree
that the Court of Chancery’s analysis tended to blend
two issues relevant to formation: whether the parties
intended to be bound by the contract and whether the
contract contained sufficiently definite terms.1 These
elements are related but distinct. In some ways, the
Court of Chancery’s decision can be read as based on
this chain of reasoning: i) when one reads the Draft
Contribution Agreement on its face, it looks markedly
different than what one would expect of a final contract; ii) aside from glaring gaps like the date of closing

1

See Eagle Force Holdings, LLC v. Campbell, 2017 WL
3833210, at *14 (Del. Ch. Sept. 1, 2017) (citing Osborn ex rel. Osborn v. Kemp, 991 A.2d 1153, 1158 (Del. 2010)).

App. 130
and the date of signing,2 those gaps also included the
absence of key schedules addressing critical issues like
the capital structure of the company’s operating subsidiaries;3 iii) when one looks to the parol evidence on
those gaps, one finds that the parties had not reached
closure on them, and that there were fundamental disagreements about risk allocation regarding them;4 iv)
even more, the parol evidence revealed that certain
material terms in the written document were inconsistent with the objective reality as understood by both
Kay and Campbell;5 v) therefore, this could not have
been intended to be a final contract; and vi) thus the
parties did not mean to be bound to the Draft Contribution Agreement on August 28th when they both put
their signature on it.
Although the Court of Chancery appears to have
determined that “Kay and Campbell did not intend to
bind themselves to the terms of the Transaction Documents,”6 it did not make a clear finding that it was
basing its refusal to enforce the Draft Contribution
Agreement on that ground. Instead, the trial court
more clearly based its ruling on the related point that
Kay and Campbell had not reached agreement on
terms of the Draft Contribution Agreement they considered essential,7 and it never, as the Majority rightly
2
3
4
5
6
7

Id. at *9.
Id.
Id. at *15-18.
Id. at *16.
Id. at *18.
Id. at *17.

App. 131
finds,8 resolved the specific fact question of whether
Campbell’s signature signaled his intention to be
bound, as Kay argues, or was just a signal that the
parties were making progress toward the goal of a final
agreement, as Campbell argues.9
In this situation, I agree with the Majority that it
would have been preferable for the Court of Chancery
to have isolated the first factor of the Osborn test and
decided whether it believed Campbell or Kay as to
this point.10 Although I do not think that trial courts
are obliged to cover every Osborn factor in every case,
especially if it is obvious that one of the factors can be
applied efficiently to fairly resolve the case, I understand why the Majority views that as advisable here,
given the unusual nature of the facts. Arguably, if
Campbell intended to be bound, then one should just
read any gaps in the Draft Contribution Agreement
against him, when he signed a document that, on issues that the Court of Chancery found unresolved
when looking at the parol evidence, tended to be highly
unfavorable to him, if one ignores those gaps and the
parol evidence, and solely focuses on the language of
the Draft Contribution Agreement.
But to the extent that Kay obtained a representation and warranty from Campbell that Campbell
was the sole owner of the Targeted Companies, as

8

Majority Op. at ___—___.
Eagle Force Holdings, 2017 WL 3833210, at *1.
10
Majority Op. at ___—___.
9

App. 132
suggested by the Majority,11 the evidence supports the
Court of Chancery’s finding that Kay knew that the
representation was false as of the time of the supposed
agreement.12 Both sides knew that several subsidiary
employees had viable claims to what seems to be a
form of equity. Thus, Kay and Campbell were still trying to get rescission agreements from Cresswell, whose
five percent equity in EagleForce Health was to be expressed as SARS;13 Morgan, who was eligible for SARS
in EagleForce Associates;14 Said Salah, who testified
that he has two and a half percent equity in EagleForce
Associates and whose employment letter does not refer
to SARS;15 and Hany Salah, whose employment letter
gave him one and a half percent equity in EagleForce
Associates and does not refer to SARS.16

11

Id. at ___—___.
See App. to Opening Br. at A1645 (Cross Examination of
Ted Offit) (explaining that his client, Kay, knew that Cresswell
and Salah had potential equity claims, and that Kay and Campbell intended to secure a waiver substituting SARS for those potential claims, but had not yet done so).
13
See id. at A1891 (Direct Examination of Christopher
Cresswell) (explaining that his employment offer letter gave him
five percent equity expressed as SARS to avoid tax liability).
14
Id. at A2225 (Employment Offer Letter of General John
Morgan) (offering “equity participation . . . in the amount of
300,000 SAR’s (150,000 each) valued one dollar ($1) per SAR”).
15
Id. at A2128 (Direct Examination of Said Salah) (explaining that Kay knew his employment letter offered equity because
Kay reviewed the letter during due diligence and discussed it with
him).
16
Id. at A2227 (Employment Offer Letter of Dr. Hany Salah).
12

App. 133
Despite the close nature of the case and my respect
for the Majority’s analysis, I would nonetheless affirm
given the trial evidence buttressing the Court of Chancery’s ultimate conclusions. In my view, our law permits the Court of Chancery to consider parol evidence
in determining whether the parties formed a contract.17 That is the position of the Restatement (Second) of Contracts,18 and of Chancellor Allen’s learned

17

See Hynansky v. Vietri, 2003 WL 21976031, at *3 (Del. Ch.
Aug. 7, 2003) (“In order for the parol evidence rule to apply in all
its splendor, one must first present a ‘fully integrated agreement.’ ” (quoting Taylor v. Jones, 2002 WL 31926612, at *3 (Del.
Ch. Dec. 17, 2002))); 11 Williston on Contracts § 33:15 (4th ed.
2017) (“[W]hat determines whether a writing is an integration is
the memorialization of the agreement in writing coupled with an
intention that the writing completely embody the contract between the parties. When that occurs, the fact of integration triggers the parol evidence rule.”); Addy v. Piedmonte, C.A. No. 3571VCP, 2009 WL 707641 (Del. Ch. Mar. 18, 2009) (explaining that
extrinsic evidence may be used to determine if a contract is completely or partially integrated).
18
Restatement (Second) of Contracts § 214 (Am. Law. Inst.
1981) (“Agreements and negotiations prior to or contemporaneous
with the adoption of a writing are admissible in evidence to establish (a) that the writing is or is not an integrated agreement; (b)
that the integrated agreement, if any, is completely or partially
integrated. . . .”); id. § 214 cmt. a (“Writings do not prove themselves; ordinarily, if there is dispute, there must be testimony that
there was a signature or other manifestation of assent. The preliminary determination is made in accordance with all relevant
evidence, including the circumstances in which the writing was
made or adopted.”); 11 Williston on Contracts § 33:17 (4th ed.
2017) (“The questions whether an integration is intended and
whether any integration is partial or total are distinct from and
preliminary to the application of the parol evidence rule. . . .”).

App. 134
analysis in Leeds v. First Allied Connecticut Corporation,19 a decision that the Court of Chancery has applied many times for over a quarter-century and forms
a more established part of our jurisprudence than our
recent decision in Osborn, which appears to have borrowed a test from an intermediate appellate court in
one of our neighboring states that was cited by the
Court of Chancery when applying that state’s law to a
contract claim.20 I consider Leeds a learned and solid
articulation of Delaware contract law, as has our Court
of Chancery.21
Given the unusual looking nature of the Draft
Contribution Agreement, and its many odd omissions
involving important subjects,22 the Court of Chancery
was justified in considering parol evidence for another reason. The Draft Contribution Agreement was
19

521 A.2d 1095 (Del. Ch. 1986).
Osborn, 991 A.2d at 1158 (citing Carlson v. Hallinan, 925
A.2d 506, 524 (Del. Ch. 2006)); Carlson, 925 A.2d at 522 n.95 (applying Pennsylvania law).
21
E.g., Greetham v. Sogima L-A Manager LLC, C.A. No.
2084-VCL, 2008 WL 4767722, at *15 (Del. Ch. Nov. 3, 2008)
(Lamb, V.C.); Loppert v. WindsorTech, Inc., 865 A.2d 1282, 1285
(Del. Ch. 2004) (Chandler, C.).
22
See, e.g., App. to Opening Br. at A683 (“OK DRAFT 8-2614”); id. (“Dated as of August [•], 2014”); id. at A664 (“dated as of
July [•], 2014”); id. at A666 (“Campbell shall deliver verification
that he has reopened his previous bankruptcy proceeding
[NOTE: TO BE IDENTIFIED].”); id. at A671 (noting in a footnote that the provision related to Campbell’s ownership of the
Targeted Companies Securities “may be revised to include Schedule 4.3(b) if there are any options or warrants outstanding”); id.
at A702 (“[‘IP Disclosure Schedule’ shall mean [•].]”).
20

App. 135
unclear as to key issues, like the capitalization of the
key operating subsidiaries, because key text that the
agreement’s terms called for, such as critical schedules,23 were absent.24 When the Court of Chancery examined the parol evidence, it made findings of fact that
support its conclusion that the Draft Contribution
Agreement’s omissions were evidence of missing material terms.25
Despite Kay’s assertion that he had flat out won
on all issues and those issues were resolved in his favor
by the Draft Contribution Agreement, the parol evidence supports the Court of Chancery’s contrary finding. As of August 28th, the parties still had not worked
out the key issue of how to address the written agreements that Kay knew existed that gave key employees
of the subsidiaries a right to what looked like equity.26
The Draft Contribution Agreement contained objective
23

Eagle Force Holdings, 2017 WL 3833210, at *9-10 (identifying as incomplete Schedule 3.5, listing Campbell’s intellectual
property license agreements; Schedule 4.3(a), listing the capitalization of the Targeted Companies; Schedule 4.12(c), listing equity
awards affected by the transaction; Schedule 4.6, listing certain
contractual liabilities of the Targeted Companies; Schedule 4.9,
listing all leases, subleases, or licenses to which the Targeted
Companies are party; and Schedule 4.15(a), listing pending legal
proceedings involving the Targeted Companies).
24
See App. to Opening Br. at A668 (Signed Contribution
Agreement) (“Campbell hereby represents and warrants . . . that
the following representations and warranties are, as of the Execution Date, and will be, as of the Closing Date, true and correct.”).
25
Eagle Force Holdings, 2017 WL 3833210, at *15-18.
26
Id. at *15.

App. 136
statements about those written agreements that were
inconsistent with them, or at least in such tension as
to create material ambiguity.27 And the parol evidence
supports the Court of Chancery’s finding that the parties had not agreed whether Campbell owned all of the
equity of the Targeted Companies in light of the unresolved employee agreements that appeared to give
“some form of equity” to certain employees.28 As to this
point, I respectfully part company from the Majority’s
conclusion that the Campbell Disclosure Schedules
were immaterial and redundant. To my mind, the
Court of Chancery was justified in concluding otherwise because the purpose of the Campbell Disclosure
Schedules was, in part, to “modify (by setting forth exceptions to) the representations and warranties” in the
Contribution Agreement.29
Likewise, although the Draft Contribution Agreement required Campbell to reopen his bankruptcy proceeding, the Court of Chancery found that the parties
were still haggling over that issue and the issue of how
to allocate the risk that creditors of Campbell could
complain that he had not listed his intellectual property relevant to Eagle Force as an asset in his bankruptcy.30 For these reasons, I would defer to the Court
27

Id.
Id. at *15-16.
29
App. to Opening Br. at A700 (Signed Contribution Agreement) (emphasis added).
30
Eagle Force Holdings, 2017 WL 3833210, at *7-12 (describing the evolution of the bankruptcy issue from the time it surfaced
in July 2014 through November 2014, when Kay alleged that
28

App. 137
of Chancery’s determination that because “all of the
points that the parties themselves regard[ed] as essential” were not “expressly or . . . implicitly resolved,”
most particularly, the capitalization of the two operating subsidiaries and the effect the subsidiaries’ capitalization would have on Kay and Campbell’s
respective ownership of Eagle Force Holdings, Kay and
Campbell “ha[d] not finished their negotiations and
ha[d] not formed a contract.”31
In other words, although I agree with the Majority
that the Court of Chancery’s consideration of two related issues was perhaps less than ideal, the record
supports the trial court’s related conclusions that the
Draft Contribution Agreement was both: i) not sufficiently definite,32 and ii) not intended to be a final
agreement.33 Like my colleague, Justice Vaughn, in
Campbell’s failure to reopen his bankruptcy proceeding constituted a breach of the August 28th documents).
31
Leeds, 521 A.2d at 1102; Eagle Force Holdings, 2017 WL
3833210, at *1, 17.
32
Leeds, 521 A.2d at 1097 (identifying as the test of contract
formation “whether a reasonable negotiator in the position of one
asserting the existence of a contract would have concluded, in that
setting, that the agreement [the parties] reached constituted
agreement on all of the terms that the parties themselves regarded as essential and thus that that agreement concluded the
negotiations and formed a contract.”); Osborn, 991 A.2d at 1158
(“A valid contract exists when . . . (2) the terms of the contract are
sufficiently definite. . . .”).
33
Leeds, 521 A.2d at 1097 (“It is elementary that determination of the question whether a contract has been formed essentially turns upon a determination whether the parties to an
alleged contract intended to bind themselves contractually. A
court determining if such intention has been manifested,

App. 138
whose opinion I join, I would therefore defer to the trial
court’s fact findings and affirm.
I also note that the facts that supported the Court
of Chancery’s determination that the parties did not
reach agreement on material terms also bear importantly on whether Kay can obtain any remedy,
other than a return of the capital he risked in the
course of trying to forge an agreement with Campbell,
plus a fair rate of interest. Specific performance involves a mandatory injunction and a correspondingly
high confidence that the Court knows the specific
terms it is ordering to be enforced.34 That sort of confidence would, for the reasons discussed by the Court of
Chancery, be difficult to muster. An order of specific
performance would have to specify who owned what,
the very issue that the Court of Chancery had a
however, does not attempt to determine the subjective state of
mind of either party, but, rather, determines this question of fact
from the overt acts and statements of the parties.”) (internal citation omitted); Osborn, 991 A.2d at 1158 (“A valid contract exists
when (1) the parties intended that the contract would bind
them. . . .”).
34
See Osborn, 991 A.2d at 1159 (“ ‘[A] contract must contain
all material terms in order to be enforceable, and specific performance will only be granted when an agreement is clear and definite and a court does not need to supply essential contract
terms.’ ” (quoting Ramone v. Lang, No. Civ.A. 1592-N, 2006 WL
905347, at *10 (Del. Ch. Apr. 3, 2006))); Minnesota Invco of RSA
No. 7, Inc. v. Midwest Wireless Holdings LLC, 903 A.2d 786, 793
(Del. Ch. 2006) (“ ‘Specific performance is a matter of grace that
rests in the sound discretion of the court.’ Under Delaware law, a
party seeking the equitable remedy of specific performance must
prove the existence and terms of an enforceable contract by clear
and convincing evidence.”) (internal citation omitted).

App. 139
reasoned basis to conclude had not been determined as
of August 28th.
Not only that, in deciding whether specific performance is warranted, the interests of others affected by
the ruling are to be considered,35 and it would seem to
invite harm to employees and creditors of Eagle Force
to issue a remedy that would result in an immediate
deadlock between two people who are so adverse.36 An
order of specific performance would likely lead to
amended or new pleadings turning this breach of contract case into a follow-on dissolution proceeding.37

35

See In re IBP Shareholders Litig., 789 A.2d 14, 82-83 (Del.
Ch. 2001) (considering the effect of a compulsory merger on the
companies’ employees in light of the parties’ conduct during litigation that suggested they cannot work together); Bernard Personnel Consultants, Inc. v. Mazarella, Civ.A. No. 11660, 1990 WL
124969, at *3 (Del. Ch. Aug. 28, 1990) (Allen, C.) (noting that “the
request for specific performance raises other issues that do not
focus upon the time of contracting, but upon the time of enforcement” related to “the traditional concern of a court of equity that
its special processes not be used in a way that unjustifiably increases human suffering”).
36
App. to Opening Br. at 1746 (Cross Examination of Richard Kay) (stating that he would not want to cause any harm to
employees); see also id. at A1906 (Cross Examination of Christopher Cresswell) (stating that his willingness to continue working
for Eagle Force under Kay and Campbell depends on the equity
component of his compensation).
37
Compare id. at 1745-46 (Cross Examination of Richard
Kay) (suggesting he may be able to work with Campbell), with id.
at A2061-64, 2180 (Direct Examination of Stanley V. Campbell)
(describing events over the course of his dealings with Kay that
made him wary of entering a business relationship with Kay, including Kay’s use of what he believed to be a racial slur).

App. 140
And, as the Majority acknowledges,38 the Court of
Chancery had a basis to find that key provisions of
the Draft Contribution Agreement signed on August
28th were at odds with objective reality as Kay understood it. Thus, to the extent Kay is seeking damages
because Campbell supposedly made promises that
were false, there is doubt that he can then turn around
and sue because what he knew to be false remained so.
Venerable Delaware law casts doubt on Kay’s ability to
do so,39 and a provision of the Draft Contribution
Agreement also appears to limit his ability to recover
in contract anything other than “in the aggregate . . .
the sum of (i) the capital contributed to the Company
by Campbell, and (ii) Campbell’s pro rata share of
Company profits which have not been distributed to
Campbell” absent a finding of fraud, intentional misrepresentation, or willful misconduct.40
38

See Majority Op. at ___ n.185 (acknowledging that the parties “appreciated that the ‘reality’ of not having signed releases”
was inconsistent with the representations and warranties in the
Contribution Agreement).
39
Clough v. Cook, 87 A. 1017, 1018 (Del. Ch. 1913) (a party
who signs a contract with knowledge that a representation is false
may not later claim reliance on it).
40
App. to Opening Br. at A693 (Signed Contribution Agreement). As to this point, Kay is arguably on stronger ground to recover his invested capital as reliance damages for a claim for
promissory estoppel or unjust enrichment, than if the August
28th draft Contribution Agreement is binding. See Ramone, 2006
WL 905347, at *14 (“Promissory estoppel involves ‘informal promises for which there was no bargained-for exchange but which
may be enforceable because of antecedent factors that caused
them to be made or because of subsequent action that they caused
to be taken in reliance.’ The purpose of the promissory estoppel

App. 141
For all these reasons, I would defer to the judgment of our Court of Chancery on the issue of formation in this unusual case. One hopes that before the
parties engage in remand proceedings of great expense, they exhale and consider a sensible solution so
that they can move on, with Kay receiving fair compensation for his investments, but without harming themselves or others by continuing a bitter battle over
whether they should be declared to have had a brief,
loveless marriage, only to then commence immediate
divorce proceedings.

VAUGHN, Justice, joined by STRINE, Chief Justice,
concurring in part and dissenting in part:
It appears to me that the issue before the Vice–
Chancellor was whether the parties had come to a
meeting of the minds on all material terms of the contract, not whether agreed upon terms were sufficiently
definite to be enforced. I see her analysis as going to
the first prong of Osborn, that is, whether the parties
intended to be bound. After carefully considering the
evidence, she concluded that the Transaction Documents lacked agreement on material terms that were
essential to the parties’ bargain. Such terms included
doctrine is to prevent injustice.”) (internal citations omitted);
Nemec v. Shrader, 991 A.2d 1120, 1130 (Del. 2010) (“Unjust enrichment is ‘the unjust retention of a benefit to the loss of another,
or the retention of money or property of another against the fundamental principles of justice or equity and good conscience.’ ”)
(internal citations omitted).

App. 142
the precise scope of the consideration to be contributed
by Campbell, the equity holdings in the Targeted Companies, the status of employee claims, and what contracts Campbell would assign to Eagle Force Holdings.
She further found that the parties continued to negotiate on these issues, that the parties had not agreed
on who would create certain of the schedules, and that
the parties did not intend to complete the Transaction
Documents without completion of the blank schedules.
She further found that the parties did not assent to the
terms of the LLC agreement separately from the Contribution Agreement. Finally, at the end of her analysis, she found that “Kay and Campbell did not intend
to bind themselves to the written terms in the Transaction Documents. . . .”1 I am satisfied there is evidence
to support these findings, and that they should receive
the deference normally given to the trial court’s findings of fact. I would affirm the Vice–Chancellor’s determination that no contract was formed for the reasons
assigned by her.
I agree with the Majority’s analysis and conclusion
that the Court of Chancery may punish violations of
its orders in this case even if it ultimately determines
that it does not have jurisdiction over Campbell.

1
Eagle Force Holdings, LLC v. Campbell, 2017 WL 3833210
(Del. Ch. Sept. 1, 2017).

App. 143
APPENDIX C
IN THE COURT OF CHANCERY
OF THE STATE OF DELAWARE
EAGLE FORCE HOLDINGS, LLC, )
)
and EF INVESTMENTS, LLC,
)
Plaintiffs,
) C.A. No.
) 10803-VCMR
v.
)
STANLEY V. CAMPBELL,
)
Defendant.
)
ORDER GRANTING PLAINTIFFS’
THREE MOTIONS FOR CONTEMPT
(Filed Apr. 23, 2019)
WHEREAS, Plaintiffs Eagle Force Holdings, LLC,
and EF Investments, LLC filed this action on March
17, 2015;
WHEREAS, on July 23, 2015, this Court entered
the Order Granting Plaintiffs’ Petition for Interim Relief (the “Order”),
WHEREAS, on May 27, 2016, Plaintiffs filed their
Motion to Hold Defendant in Contempt for Violations
of the Order (the “First Motion”);
WHEREAS, on August 31, 2016, and September 8,
2016, this Court held two evidentiary hearings related
to the First Motion;

App. 144
WHEREAS, on March 6, 2017, Plaintiffs filed their
Supplemental Motion to Hold Defendant in Contempt
for Violations of the Order (the “Second Motion”);
WHEREAS, on May 5, 2017, this Court held an evidentiary hearing related to the Second Motion;
WHEREAS, on May 24, 2017, Plaintiffs filed their
Second Supplemental Motion to Hold Defendant in
Contempt for Violations of the Order (the “Third Motion”; together with the First and Second Motions, the
“Motions”);
WHEREAS, on July 27, 2017, Plaintiffs filed a letter to supplement their Third Motion (the “July 2017
Letter”);
WHEREAS, on August 28, 2017 this Court held an
evidentiary hearing related to the Third Motion;
NOW, THEREFORE, THE COURT HEREBY
FINDS AND ORDERS AS FOLLOWS:
1. The Court has reviewed the parties’ briefs,
supporting submissions, and the applicable law.
2.

The Motions are GRANTED.

3. “To be held in contempt, a party must be
bound by an order, have notice of it, and nevertheless
violate it.” Aveta Inc. v. Bengoa, 986 A.2d 1166, 1181
(Del. Ch. 2009) (citing Arbitrium (Cayman Islands)
Handels AG v. Johnston, 1997 WL 589030, at *3 (Del.
Ch. Sept. 17, 1997;)). The purpose of civil contempt is
twofold—“to coerce compliance with the order being violated, and to remedy injury suffered by other parties

App. 145
as a result of the contumacious behavior.” Id. (citing
Del. State Bar Ass’n v. Alexander, 386 A.2d 652, 665
(Del. 1978)). Use of this remedy is at the discretion of
the Court. Id. (citing Dickerson v. Castle, 1991 WL
208467, at * 3 (Del. Ch. Oct. 15, 1991)). “The violation
‘must not be a mere technical one, but must constitute
a failure to obey the Court in a meaningful way.’ ” Id.
(quoting Dickerson, 1991 WL 208467, at *4). The Court
will consider good faith efforts to comply with the order
or to remedy the consequences of non-compliance even
when there has been a violation. Id.
4. Paragraph 3.F of the Order requires Defendant Stanley V. Campbell to “provide Plaintiffs with
written notice and disclosure . . . at least ten business
days . . . prior to” “[a]ny action transferring, encumbering, pledging, loaning, or otherwise disposing, directly
or indirectly, of any asset of [Eagle Force Holdings,
LLC], [EagleForce Health, LLC], or [EagleForce Associates, Inc.] . . . with an aggregate value in excess of
$5,000.00 (aggregate meaning an action or series of actions with a single or related entities or individuals).”
5. Plaintiffs allege in their First Motion that
Campbell violated the Order by taking $143,592.86
from EagleForce Associates, Inc. (“EagleForce Associates”), for his own personal use without the required
notice, including payments to third parties related to
Campbell’s litigation expenses. Plaintiffs also allege
that Campbell’s violations include his failure to provide specific information about EagleForce Associates and EagleForce Health, LLC (collectively, the

App. 146
“Companies”), as required by the Order. Br. Supp. Pls.’
First Motion 4-5, May 27, 2016.
6. Plaintiffs allege in their Second Motion that
Campbell violated the Order by paying himself
$38,683.94 from EagleForce Associates’ funds without
providing the required notice to Plaintiffs. Br. Supp.
Pls.’ Second Motion 4, Mar. 6, 2017. Plaintiffs also allege that Campbell inappropriately used a debit card
of one of the Companies to pay personal expenses. Id.
at 8-9.
7. Plaintiffs allege in their Third Motion that
Campbell violated the Order by paying himself an additional $26,985.79 from EagleForce Associates’ funds.
See Pls.’ Third Mot. ¶¶ 7-8, May 24, 2017. Plaintiffs
also allege that Campbell violated the Order when he
failed to provide “proper notice” of these payments. Id.
¶ 11.
8. Plaintiffs allege multiple violations of the
Order in their July 2017 Letter.
a. Plaintiffs allege that Campbell’s re-hiring
of Said Salah, an employee of EagleForce Associates, without notice to Plaintiffs violated Paragraph 3.H of the Order. July 2017 Letter ¶ 4.
Paragraph 3.H requires notice before “[Miring of
any senior management employee or strategic employee.”
b. Plaintiffs also allege that Campbell violated the Order by paying himself $4,626.01 from
EagleForce Associates’ funds without providing
notice to Plaintiffs. Id. ¶ 1.

App. 147
c. Plaintiffs further allege that Campbell
made excessive payments to other EagleForce Associates employees in violation of Paragraphs 3.F,
3.H, and 3.J of the Order. Id. ¶¶ 3, 5-6.
d. Finally, Plaintiffs complain that instead
of giving notice to Plaintiffs of future payments,
Campbell places the agreed-upon notice language
at the top of accounts payable and accounts receivable reports without indicating which amounts he
in fact intends to pay. Such notice, Plaintiffs contend, is meaningless and avoids the purpose of the
Order. Id. at 1-2.
9. At the time of the conduct described above, the
Order bound Campbell. The Order names Campbell
explicitly and sets out the actions Campbell must take
or refrain from taking.
10. Campbell had notice of the Order. As a party
to this litigation, Campbell received notice of the Order
when the Court entered it. In fact, before the Court entered the Order, Campbell had submitted a proposed
order, and that proposed order included the language
of Paragraph 3.F. Def.’s Proposed Order Granting Pl.’s
Pet. Interim Relief ¶ 2.E, July 17, 2015.
11. Campbell does not dispute that he caused the
transactions to occur. For some transactions, Campbell
provided no notice to Plaintiffs, and he argues that
these transactions were in the ordinary course of
business. Def.’s Answering Br. Opp’n First Mot. 9-10,
June 10, 2016. The Order, however, does not provide
any exception for transactions in the ordinary course
of business.

App. 148
12. For other transactions, including when
Campbell paid commissions to employees of EagleForce Associates, he testified that he had provided notice to Plaintiffs. Hr’g Tr. 37, Aug. 28, 2018. Specifically,
Campbell noticed the entire accounts payable report
without indicating what he actually planned to pay
that period. E.g., July 2017 Letter Ex. B. This procedure does not provide meaningful notice to Plaintiffs.
Giving notice of all possible payments without indicating which payments Campbell actually intends to
make prevents Plaintiffs from determining whether
they wish to object to the payments, as Paragraph 5 of
the Order permits. To serve the purpose of the Order,
Campbell must give meaningful notice for each payment he actually intends to make where Paragraph 3
of the Order applies. The transactions at issue fall
under the purview of Paragraph 3.F, and Campbell
failed to provide meaningful notice to Plaintiffs. Therefore, these transactions, both the payments for which
Campbell provided no notice whatsoever and the
payments for which he provided no meaningful notice,
violate the Order. And, Campbell has not identified any
efforts to comply or remedy these violations that would
justify denial of the Motions.
13. Plaintiffs also complain that Campbell violated Paragraph 3.H of the Order by re-hiring Said
Salah, an employee of EagleForce Associates. July
2017 Letter 114. Salah explained in his testimony during the evidentiary hearing that his employment with
EagleForce Associates never terminated and that
any confusion results from a temporary reduction in

App. 149
Salah’s responsibilities while he was living outside the
United States. Hr’g Tr. 20-27, Aug. 28, 2018. Campbell’s
testimony supports this explanation. Id. at 35-36.
Campbell’s and Salah’s testimonies suggest that
Campbell did not violate Paragraph 3.H. Plaintiffs,
however, may not have had to complain had Campbell
fully complied with Paragraph 2.C, which requires that
Campbell provide to Plaintiffs the Companies’ payroll
statements “with an annotation or alternatively, a document, explaining any changes in status or pay for any
employee.” An annotation explaining Salah’s return to
full duties may have prevented Plaintiffs’ complaint.
Campbell’s failure to fully comply with Paragraph 2.0
is a violation of the Order.
14. Plaintiffs seek a variety of remedies for
Campbell’s violations of the Order:
e. disgorgement of the funds Campbell paid
to himself ($213,886.80);
f.

an award of attorneys’ fees ($148,830.50);

g. interest on both the funds and the attorneys’ fees;
h. a requirement that Campbell must provide regular, detailed reports concerning business
activities (beyond the reports the Order requires);
i. a requirement that Campbell participate
in monthly conference calls to address Plaintiffs’
questions regarding business activities;
j. a detailed order providing for the management of the Companies with disputes to be

App. 150
resolved by a Court-appointed neutral certified
public accountant;
k. the appointment of Plaintiffs’ financial
representative to act as a second signatory on all
bank accounts; and
1.

suspension of the Companies’ debit card.

15. Plaintiffs further request that this Court
schedule a hearing date to address any future violation
of the Order and that if Campbell fails to repay the disgorged funds, attorneys’ fees, and interest, this Court
order a reduction in Campbell’s proportionate interest
in Eagle Force Holdings, LLC.
16. Because the purpose of civil contempt is to
encourage compliance by the parties with all applicable orders, I award those remedies necessary to address this purpose and reject, at this time, the
remaining remedies Plaintiffs seek. I order that,
within twenty days from the date of this order, Campbell disgorge to EagleForce Associates $213,886.80
(which reflects only payments to Campbell or for
Campbell’s personal use) and pay to Plaintiffs their attorneys’ fees in the amount of $148,830.50, which
Plaintiffs incurred in bringing these Motions.
17. I am not convinced that these payments
alone address Campbell’s repeated violations (Plaintiffs have complained of over twenty-five separate violations), including payments to third parties, his
failure to comply with reporting requirements of the
Order, and his misuse of the debit card. These repeated
violations lead me to conclude that oversight is

App. 151
necessary to remedy past violations and facilitate future compliance.
18. One proven tool for addressing a party’s repeated failure to comply with an order of this Court is
to appoint an agent of the Court to provide assistance.
In a treatise focusing on receivers, Professor Clark recognizes that a receiver can be appointed “either for the
purpose of carrying the judgment into effect, or for the
preservation of the property until judgment shall be
executed.” 1 Ralph Ewing Clark, The Law and Practice
of Receivers § 240, at 349 (3d ed. 1959). In his treatise
on remedies, Professor Dobbs observes that “a master
might be appointed to monitor the execution of and
compliance with a complex decree and report to the
court if the defendant fails to comply.” 1 Dan B. Dobbs,
Dobbs Law of Remedies § 1.4, at 20 (2d ed. 1993).
Courts have developed oversight mechanisms
“grounded on recognized equitable powers of the
courts,” such as receivers, custodians, and monitors.
Robert E. Buckholz, Jr. et al., The Remedial Process in
Institutional Reform Litigation, 78 Colum. L. Rev. 784,
789 (1978). Courts that have ordered oversight mechanisms have cited many factors to justify their use. One
factor is a significant risk of noncompliance. Campbell’s conduct to date demonstrates that this factor is
present here. Greater oversight is, therefore, warranted. “Court appointed agents are identified by a variety of terms—monitor, master, master hearing officer,
human rights committee, ombudsman, administrator,
advisory committee.” Elizabeth Montgomery, Comment, Force and Will: An Exploration of the Use of

App. 152
Special Masters to Implement Judicial Decrees, 52 U.
Colo. L. Rev. 105, 105 (1980). The critical question,
however, is not what the role is called; it is the nature
of the charge and the powers it carries.
19. I appoint an independent third-party facilitator to serve at Plaintiffs’ expense, with potential reimbursement to Plaintiffs pending the outcome of this
litigation. I appoint the facilitator as an officer of the
Court empowered to monitor compliance with applicable orders but without the power to enforce an order
directly. With regard to financial transactions, the facilitator will serve as a second signatory on all relevant
bank accounts. With regard to the notice provisions of
any order, the facilitator will observe the parties’ activities and elicit cooperation in settling technical problems which would otherwise require judicial hearing
and decision. I encourage the facilitator to evaluate the
parties’ conduct objectively, provide suggestions to the
parties, and facilitate the resolution of potential violations. If the facilitator believes that a party is not complying with an order and the facilitator’s efforts to
persuade have failed, the facilitator will be free to communicate with the Court, and the Court may take action.
20. Both Campbell and the Plaintiffs shall copy
the facilitator in real time on all written communications. The parties also shall allow the facilitator to participate in any other communication between the
parties, whether in person, telephonic, or otherwise.

App. 153
21. If the parties have a dispute regarding the
provisions of an order, then they will present the dispute first to the facilitator so that the facilitator can
attempt to resolve the dispute. If those efforts are unsuccessful, then the parties may present their concern
to the Court by motion. After briefing, the facilitator
will provide the Court with a recommendation regarding the proper outcome.
22. Within five days of this order, Plaintiffs and
Campbell shall each submit names of three disinterested and independent individuals who are qualified
and willing to serve as the facilitator. The submissions
shall include the candidates’ curricula vitae and qualifications. Within five days after submission, Campbell
may submit objections to any of Plaintiffs’ proposed
candidates and vice versa. The Court will then make a
determination and enter a separate order appointing
the facilitator and outlining more specifically the facilitator’s duties.
/s/ Tamika Montgomery-Reeves
Vice Chancellor
Dated: April 23, 2019

App. 154
APPENDIX D
IN THE COURT OF CHANCERY
OF THE STATE OF DELAWARE
EAGLE FORCE HOLDINGS, LLC, )
)
and EF INVESTMENTS, LLC,
)
Plaintiffs,
) C.A. No.
) 10803-VCMR
v.
)
STANLEY V. CAMPBELL,
)
Defendant.
)
ORDER ADDRESSING PLAINTIFFS’
MOTIONS FOR CONTEMPT
(Filed Apr. 23, 2019)
WHEREAS, Plaintiffs Eagle Force Holdings, LLC,
and EF Investments, LLC filed this action on March
17, 2015;
WHEREAS, on July 23, 2015, this Court entered
the Order Granting Plaintiffs’ Petition for Interim Relief (the “Order”),
WHEREAS, the Order remained in effect “pending
the conclusion of this action or further order of this
Court” (Order ¶ 8.);
WHEREAS, Plaintiffs filed previous motions for
civil contempt on May 27, 2016, March 6, 2017, and
May 24, 2017, for Defendant Stanley V. Campbell’s violations of the Order, including payment to himself

App. 155
from the funds of EagleForce Associates, Inc. without
proper notice to the Plaintiffs;
WHEREAS, this Court held, and Campbell testified at, evidentiary hearings related to the previous
motions for civil contempt on August 31, 2016, September 8, 2016, May 5, 2017, and August 28, 2017;
WHEREAS, on September 1, 2017, this Court issued a post-trial Memorandum Opinion (the “Memorandum Opinion”) dismissing this action;
WHEREAS, Plaintiffs appealed the Memorandum
Opinion, and on May 24, 2018, the Supreme Court of
Delaware reversed the Memorandum Opinion and remanded this action to this Court;
WHEREAS, on September 14, 2018, Plaintiffs filed
their Motion for Contempt – Seeking Order Directing
Campbell to Return Funds Taken from EagleForce Associates, Inc. During Appeal Period (the “Motion”);
WHEREAS, on December 13, 2018, this Court
heard arguments related to the Motion;
NOW, THEREFORE, THE COURT HEREBY
FINDS AND ORDERS AS FOLLOWS:
1. The Court has reviewed the parties’ briefs,
supporting submissions, and the applicable law.
2. ”To be held in contempt, a party must be
bound by an order, have notice of it, and nevertheless
violate it.” Aveta Inc. v. Bengoa, 986 A.2d 1166, 1181
(Del. Ch. 2009) (citing Arbitrium (Cayman Islands)
Handels AG v. Johnston, 1997 WL 589030, at *3 (Del.

App. 156
Ch. Sept. 17, 1997)). The purpose of civil contempt is
twofold—“to coerce compliance with the order being violated, and to remedy injury suffered by other parties
as a result of the contumacious behavior.” Id. (citing
Del. State Bar Ass’n v. Alexander, 386 A.2d 652, 665
(Del. 1978)). Use of this remedy is at the discretion of
the Court. Id. (citing Dickerson v. Castle, 1991 WL
208467, at *3 (Del. Ch. Oct. 15, 1991)). “The violation
‘must not be a mere technical one, but must constitute
a failure to obey the Court in a meaningful way.’” Id.
(quoting Dickerson, 1991 WL 208467, at *4). The Court
will consider good faith efforts to comply with the order
or to remedy the consequences of non-compliance even
when there has been a violation. Id.
3. Paragraph 3.F of the Order requires Campbell
to “provide Plaintiffs with written notice and disclosure . . . at least ten business days . . . prior to” “[a]ny
action transferring, encumbering, pledging, loaning, or
otherwise disposing, directly or indirectly, of any asset
of [Eagle Force Holdings, LLC], [EagleForce Health,
LLC] or [EagleForce Associates, Inc.] . . . with an aggregate value in excess of $5,000.00 (aggregate meaning an action or series of actions with a single or
related entities or individuals).”
4. Plaintiffs allege that “[b]etween September 5,
2017 and April 11, 2018, Campbell made nine payments [from EagleForce Associates, Inc.’s funds] to
himself and his wife totaling $1,853,558.47” in violation of the Order. Pls.’ Opening Br. 5. They seek disgorgement of those payments and reimbursement of
their attorneys’ fees. Id. at 22. Campbell argues that

App. 157
he was not bound by the Order during this period because the Memorandum Opinion concluded this action
and dissolved the Order. Def.’s Opp’n Br. ¶ 18.
5. “[T]he effect of a general and unqualified reversal . . . of a judgment, order, or decree is to nullify it
completely and to leave the case standing as if such
judgment, order, or decree had never been rendered.” 5
C.J. S. Appeal and Error § 1126, Westlaw (database updated Mar. 2019).
6. The Order bound Campbell during the appeal
period because the Delaware Supreme Court’s reversal
of the Memorandum Opinion nullified the Memorandum Opinion. By making payments to himself and to
his wife during the appeal period, Campbell took the
risk that the Supreme Court may reverse the Memorandum Opinion, which it ultimately did.
7. The parties shall confer and inform the Court
within seven days whether they require an evidentiary
hearing in this matter.
/s/ Tamika Montkomerv-Reeves
Vice Chancellor
Dated: April 23, 2019

App. 158
APPENDIX E
[SEAL]
IN THE COURT OF CHANCERY
OF THE STATE OF DELAWARE
EAGLE FORCE HOLDINGS, LLC, )
)
and EF INVESTMENTS, LLC,
)
Plaintiffs,
) C.A. No.
) 10803-VCMR
v.
)
STANLEY V. CAMPBELL,
)
Defendant.
)
ORDER RESOLVING PLAINTIFFS’
MOTION FOR CONTEMPT
(Filed May 17, 2019)
WHEREAS, Plaintiffs Eagle Force Holdings, LLC,
and EF Investments, LLC, filed this action on March
17, 2015;
WHEREAS, on July 23, 2015, this Court entered
the Order Granting
Plaintiffs’ Petition for Interim Relief (the “Order”);
WHEREAS, on September 1, 2017, this Court issued a post-trial
Memorandum Opinion (the “Memorandum Opinion”) dismissing this action;
WHEREAS, Plaintiffs appealed the Memorandum
Opinion, and on May 24, 2018, the Supreme Court of

App. 159
Delaware reversed the Memorandum Opinion and remanded this action to this Court;
WHEREAS, on September 14, 2018, Plaintiffs filed
their Motion for Contempt – Seeking Order Directing
Campbell to Return Funds Taken from EagleForce Associates, Inc. During Appeal Period (the “Motion”);
WHEREAS, on December 13, 2018, this Court
heard arguments related to the Motion;
WHEREAS, on April 23, 2019, this Court issued
the Order Addressing Plaintiffs’ Motion for Contempt;
WHEREAS, on May 10, 2019, this Court granted
the parties’ Stipulation and Proposed Order That No
Hearing Is Required for Plaintiffs’ Fourth Contempt
Motion (the “Stipulated Order”);
NOW, THEREFORE, THE COURT HEREBY
FINDS AND ORDERS AS FOLLOWS:
1. The Court has reviewed the parties’ briefs,
supporting submissions, and the applicable law.
2. “To be held in contempt, a party must be
bound by an order, have notice of it, and nevertheless
violate it.” Aveta Inc. v. Bengoa, 986 A.2d 1166, 1181
(Del. Ch. 2009) (citing Arbitrium (Cayman Islands)
Handels AG v. Johnston, 1997 WL 589030, at *3 (Del.
Ch. Sept. 17, 1997)).
3. The April 23, 2019 Order held that Campbell
was bound by the Order during the appeal period.

App. 160
4. In the Stipulated Order, Campbell waives his
due process right to an evidentiary hearing to contest
whether Campbell had notice of the Order and
whether he violated the Order.
5. In the Stipulated Order, Campbell agrees that
he must return $1,097,558.47 to EagleForce Associates, Inc.
6. Campbell shall disgorge to EagleForce Associates, Inc. $1,097,558.47 within twenty days from the
date of this order.
/s/ Tamika Montkomerv-Reeves
Vice Chancellor
Dated: May 17, 2019

App. 161
APPENDIX F
2019 WL 4072124
Only the Westlaw citation is currently available.
UNPUBLISHED OPINION. CHECK COURT RULES
BEFORE CITING.
Court of Chancery of Delaware.
EAGLE FORCE HOLDINGS, LLC, and
EF Investments, LLC, Plaintiffs,
v.
Stanley V. CAMPBELL, Defendant.
C.A. No. 10803-VCMR
|
Date Submitted: January 25, 2019
|
Date Decided: August 29, 2019
Attorneys and Law Firms
Frank E. Noyes, II, OFFIT KURMAN, P.A., Wilmington, Delaware; Harold M. Walter and Angela D. Pallozzi, OFFIT KURMAN, P.A., Baltimore, Maryland;
Attorneys for Plaintiffs.
David L. Finger, FINGER & SLANINA, LLC, Wilmington, Delaware, Attorney for Defendant.
MEMORANDUM OPINION
MONTGOMERY-REEVES, Vice Chancellor.
In 2013, Richard Kay and Stanley Campbell decided to form a business venture to market medical

App. 162
diagnosis and prescription technology that Campbell
had developed. The parties outlined the principal
terms of the investment through two letter agreements
in November 2013 and April 2014. Under the principal
terms, Kay and Campbell would form a new limited liability company and each would be a fifty-percent
member. Campbell would contribute the stock of
EagleForce Associates, Inc. (“EagleForce Associates”),
a Virginia corporation, and the membership interest of
EagleForce Health, LLC (“EagleForce Health,” together with EagleForce Associates, “EagleForce”), a
Virginia limited liability company, along with intellectual property. Kay would contribute cash. For many
months after April 2014, the parties negotiated several
key terms of the transaction documents for the new
venture. In the meantime, Kay contributed cash to
EagleForce Associates. Campbell executed a promissory note for these contributions with the agreement
that Kay would cancel the note when they closed the
deal on the new venture.
On August 28, 2014, Kay and Campbell signed the
transaction documents, which included an operating
agreement for Eagle Force Holdings, LLC (“Eagle
Force Holdings”), a Delaware limited liability company,
and a contribution agreement. The parties dispute
what occurred at the August 28 meeting. Plaintiffs assert that the parties formed binding contracts at the
August 28 meeting. Campbell contends that he signed
to acknowledge receipt of the latest drafts of the agreements but not to manifest his intent to be bound by the
agreements.

App. 163
In this opinion, I hold that Campbell’s conduct and
communications with Kay before and during the signing of the transaction documents do not constitute an
overt manifestation of assent to be bound by the documents. Thus, the contribution agreement and the operating agreement are not enforceable. Further, because
Campbell is not bound by the agreements’ forum selection clauses and because Plaintiffs fail to identify any
other applicable basis for personal jurisdiction, I dismiss the remainder of the claims for lack of personal
jurisdiction.
I.

PROCEDURAL HISTORY

Plaintiffs filed the original complaint in this case
on March 17, 2015, and the First Amended Complaint—the operative complaint—on June 5, 2015 (the
“Complaint”). Beginning on February 6, 2017, this
Court held a five-day trial in this case. This Court issued its post-trial opinion on September 1, 2017.1
In that opinion, this Court outlined the standard
for determining whether a valid contract exists,
citing Osborn ex rel. Osborn v. Kemp.2 That test requires that “(1) the parties intended that the contract
would bind them, (2) the terms of the contract are sufficiently definite, and (3) the parties exchange legal

1

Eagle Force Hldgs., LLC v. Campbell (Trial Op.), 2017 WL
3833210 (Del. Ch. Sept. 1, 2017).
2
Id. at *14.

App. 164
consideration.”3 “To determine whether a contract was
formed, the court must examine the parties’ objective
manifestation of assent, not their subjective understanding.”4 “If terms are left open or uncertain, this
tends to demonstrate that an offer and acceptance did
not occur.”5 “It is when all of the terms that the parties
themselves regard as important have been negotiated
that a contract is formed.”6
In determining whether the parties possessed the
requisite intent that the transaction documents would
bind them, this Court relied on Leeds v. First Allied
Connecticut Corp. and evaluated the parties’ objective
manifestation of assent, focusing on “whether agreements reached were meant to address all of the terms
that a reasonable negotiator should have understood
that the other party intended to address as important.”7 “Agreements made along the way to a completed negotiation, even when reduced to writing,
must necessarily be treated as provisional and tentative. Negotiation of complex, multi-faceted commercial

3

Id. (quoting Osborn ex rel. Osborn v. Kemp, 991 A.2d 1153,
1158 (Del. 2010)).
4
Id. (Trexler v. Billingsley, 166 A.3d 101, 2017 WL 2665059,
at *3 (Del. June 21, 2017) (TABLE)).
5
Id. (Ramone v. Lang, 2006 WL 905347, at *11 (Del. Ch. Apr.
3, 2006)).
6
Leeds v. First Allied Conn. Corp., 521 A.2d 1095, 1101 (Del.
Ch. 1986) (citing 1 Corbin on Contracts § 29, at 87-88 (1963); Reprosystem, B.V. v. SCM Corp., 727 F.2d 257, 261 (2d Cir. 1984)).
7
Trial Op., 2017 WL 3833210, at *14 (quoting Leeds, 521
A.2d at 1102).

App. 165
transactions could hardly proceed in any other way.”8
To conduct such an analysis, courts review “all of the
surrounding circumstances, including the course and
substance of the negotiations, prior dealings between
the parties, customary practices in the trade or business involved and the formality and completeness of
the document (if there is a document) that is asserted
as culminating and concluding the negotiations.”9
“Thus, determination of whether a binding contract
was entered into . . . depend[ed] on the materiality of
the outstanding issues in the draft agreement and the
circumstances of the negotiations.”10
Using the analytical framework of Osborn and
Leeds, this Court held that the contribution agreement
“[l]ack[ed] [t]erms that [w]ere [e]ssential to the [p]arties’ [b]argain,” and the parties, therefore, “did not intend to bind themselves to the written terms” in the
contribution agreement.11 This Court concluded that
“the parties intended [the contribution agreement and
the operating agreement] to operate as two halves of
the same business transaction,” and thus, the agreements “rise and fall together.”12 For that reason, this
Court held that the parties did not intend to bind
themselves to the written terms of the operating
8

Id. (quoting Leeds, 521 A.2d at 1102).
Id. (quoting Leeds, 521 A.2d at 1102).
10
Id. (quoting Greetham v. Sogima L-A Manager, LLC, 2008
WL 4767722, at *15 (Del. Ch. Nov. 3, 2008)).
11
Id. at *14, *18.
12
Id. at *18 (quoting E.I. DuPont de Nemours & Co. v. Shell
Oil Co., 498 A.2d 1108, 1115 (Del. 1985)).
9

App. 166
agreement.13 As such, neither document was an enforceable contract.
Because the documents were not enforceable, the
forum selection clauses in the documents subjecting
Campbell to this Court’s personal jurisdiction were not
binding on Campbell.14 This Court further held that
Plaintiffs failed to identify any alternative basis for
personal jurisdiction over Campbell.15 Without the
ability to exercise personal jurisdiction over the defendant, this Court dismissed the remaining claims in
this matter.16
Plaintiffs appealed the decision.17 On May 24,
2018, the Supreme Court reversed the decision and remanded with instructions and guidance.18
First, the Supreme Court instructs that this Court
make an express “finding on the parties’ intent to be
bound to each transaction document in accordance
with the framework set forth in Osborn and guidance
included” in its opinion.19 In making these findings,
this Court may consider only “evidence that the parties
communicated to each other up until the time the
13

Id.
See id.
15
See id. at *19.
16
See id.
17
Notice of Appeal, Eagle Force Hldgs., LLC v. Campbell, No.
399,2017 (Del. Sept. 28, 2017).
18
Eagle Force Hldgs., LLC v. Campbell (Supr. Ct. Op.), 187
A.3d 1209 (Del. 2018).
19
Id. at 1213.
14

App. 167
contract was signed.”20 The evidence that may be considered includes “the parties’ prior or contemporaneous agreements and negotiations.”21 The Supreme
Court’s guidance prohibits consideration of post-signing evidence.22 Additionally, the Supreme Court instructs that “a signed writing . . . generally offers the
most powerful and persuasive evidence of the parties’
intent to be bound.”23
Second, the Supreme Court instructs that the parties’ intent to be bound be considered separately for the
contribution agreement and for the operating agreement.24
Consistent with that guidance, on remand, this
Court considers whether the parties possessed the requisite intent to be bound by either the contribution
agreement or the operating agreement. The evidence
that may be considered is limited to the conduct of the
parties during the period they negotiated the agreements and when they signed the agreements. This
Court considers only that evidence that the parties
communicated to each other up until the time the parties signed the documents. Any post-signing evidence
included below serves only to prevent confusion for the
20

Id. at 1229-30 (citing Black Horse Capital, LP v. Xstelos
Hldgs., Inc., 2014 WL 5025926, at *12 (Del. Ch. Sept. 30, 2014)).
21
Id. at 1230 (citing Black Horse, 2014 WL 5025926, at *12).
22
See id. at 1229-30, 1235 n.180.
23
Id. at 1230 (citing Seiler v. Levitz Furniture Co. of E. Region, 367 A.2d 999, 1005 (Del. 1976); Osborn, 991 A.2d at 115859).
24
Id. at 1238.

App. 168
reader. Also, because the Supreme Court’s analysis
suggests that both transaction documents address all
terms material to the parties,25 this Court does not examine the materiality of the terms of the agreements,
or lack thereof.
II.

FACTUAL BACKGROUND

The facts in this opinion are my findings based on
the parties’ stipulations, 152 trial exhibits, including
deposition transcripts, and the testimony of ten witnesses presented at a five-day trial before this Court
that began on February 6, 2017.26

25

See id. at 1231 (“Here, the Court of Chancery found that
‘the precise consideration to be exchanged between Campbell and
Eagle Force Holdings was highly material to the parties here.’
The Contribution Agreement addresses the consideration to be
exchanged. The only dispute is whether the terms relating to that
consideration are sufficiently definite – a subject we address under the second prong of the Osborn test.” (footnote omitted)); id.
at 1239 (“The inclusion of provisions addressing these topics is
strong evidence that the LLC Agreement included all material
terms.”).
26
Citations to the trial transcript are in the form “Tr. # (X)”
with “X” representing the surname of the speaker. Joint trial exhibits are cited as “JX #.” Facts drawn from the Joint Pretrial
Stipulation and Order are cited as “PTO ¶ #.” Unless otherwise
indicated, citations to the parties’ briefs are to their post-remand
briefs. After initially identifying individuals, I reference surnames without honorifics or regard to formal honorifics such as
“Doctor.” I intend no disrespect.

App. 169
A. Parties and Relevant Non-Parties
1.

Plaintiff EF Investments, LLC,
and Richard Kay

Kay is a businessman and investor in the Washington, D.C., metropolitan area.27 Since 2005, Kay has
owned a government contracting company called Sentrillion with other partners.28 Kay also controls Plaintiff EF Investments, LLC (“EF Investments”), a
Delaware limited liability company.29
2.

Plaintiff Eagle Force Holdings

Kay created Eagle Force Holdings, a Delaware
limited liability company, to serve as the holding company for EagleForce subsidiaries.30 The Amended and
Restated Limited Liability Company Agreement of Eagle Force Holdings, LLC (the “LLC Agreement”) contemplates that Campbell and EF Investments will
each own fifty percent of the membership interests in
Eagle Force Holdings.31 The Contribution and Assignment Agreement (the “Contribution Agreement,” together with the LLC Agreement, the “Transaction
Documents”) contemplates that EagleForce Associates

27
28
29
30
31

Tr. 310:2-4, 354:22-355:2 (Kay).
Tr. 18:8-23 (Offit).
PTO ¶¶ 3-4.
PTO ¶ 3; see JX 12 ¶ 2.
See JX 79 § 3.2.1.

App. 170
and EagleForce Health will become subsidiaries of Eagle Force Holdings.32
3.

Defendant Stanley Campbell

Campbell controls EagleForce Associates and Eagle
Force Health.33 EagleForce Associates is a start-up
company that Campbell intended to use to market a
pharmaceutical software system called PADRE.34 PADRE aggregates medical information about patients to
assist in determining patients’ prescriptions.35 It also
monitors pharmaceutical sales for compliance with
federal law.36
4.

Attorneys

Donald Rogers is an attorney from the Schulman
Rogers law firm who represented Campbell through
key parts of his negotiations with Kay.37
Theodore Offit is an attorney from the law firm Offit Kurman who represented Kay in the negotiations
with Campbell.38

32
33
34
35
36
37
38

JX 78 Recitals.
See PTO ¶ 5.
Tr. 775:1-17 (Campbell).
Tr. 765:15-766:10 (Campbell).
See Tr. 766:16-20 (Campbell).
Tr. 817:3-4, 818:1-13 (Rogers).
Tr. 17:4-7, 20:11-12, 20:17-22 (Offit).

App. 171
5.

Employees

Said Salah is the Vice President of Finance and
CFO of EagleForce Associates.39 From January 2016
until July 2017, he lived overseas and tapered off his
services to EagleForce Associates.40
General John W. Morgan III is a Senior Vice President of EagleForce Associates and EagleForce
Health.41
Christopher Cresswell is the head of Business Development of EagleForce Health.42
Katrina Powers is an employee of Sentrillion.43
B.

Facts

Campbell and Kay first met in 2005 or 2006
through a mutual friend when Campbell was seeking
an investor for an earlier iteration of EagleForce Associates.44 Kay did not invest in Campbell’s business
then.45
In January 2013, Campbell needed capital to market his PADRE technology through EagleForce

39
40
41
42
43
44
45

Tr. 1086:2-8 (Salah).
Tr. 1086:12-14 (Salah).
Tr. 1166:1-10 (Morgan).
JX 143, at 2; see Tr. 650:6-10 (Cresswell).
Tr. 246:24-247:2 (Powers).
Tr. 768:1-18 (Campbell).
Tr. 768:22-23 (Campbell).

App. 172
Associates.46 Before approaching Kay again, Campbell
met Salah, who had experience with government contracting.47 In April or May 2013, Campbell hired Salah
to work with EagleForce Associates.48 Salah also
loaned money to EagleForce Associates and deferred
collection of his salary to provide EagleForce Associates with cash needed for its operations.49
1.

The November 2013 Letter Agreement

Despite Salah’s investment, Campbell believed
that EagleForce Associates needed additional capitalization from investors to obtain government contracts.50
Campbell approached Kay again in or around November 2013 to discuss Kay’s potential investment in
EagleForce Associates.51
On November 27, 2013, Campbell and Kay signed
a letter agreement dated November 15, 2013 (the “November 2013 Letter Agreement”).52 Kay’s lawyers53 at
46

See Tr. 775:1-6, 926:1-3 (Campbell); Tr. 1094:1 (Salah).
Tr. 1087:13-17, 1093:23-24 (Salah).
48
Tr. 1094:1-4 (Salah).
49
Tr. 926:1-3 (Campbell); Tr. 1091:17-22, 1094:19-1095:1
(Salah).
50
Tr. 774:14-24 (Campbell).
51
Tr. 774:6-9, 775:1-3 (Campbell).
52
JX 1.
53
At the time the parties signed the November 2013 Letter
Agreement, Campbell believed that Offit Kurman represented
both Kay and Campbell. Tr. 783:21-784:6, 794:23-795:9 (Campbell). Offit Kurman, in fact, represented only Kay, and Campbell
had no attorney representation. Tr. 18:8-11, 19:22-24 (Offit).
47

App. 173
the law firm Offit Kurman drafted an initial version of
the November 2013 Letter Agreement, but Campbell
and Kay made changes to it before signing.54 The November 2013 Letter Agreement contemplated that
Campbell and Kay would “form a new LLC entity
and/or a series of industry specific LLC’s [sic] verticals
in Virginia.”55 Campbell would contribute “PADRE
source code and patents,”56 and Kay would contribute
at least $1.8 million in cash with the goal of raising
$7.8 million in total financing from either Kay or a mutually agreed-upon investor.57
Under the November 2013 Letter Agreement, both
Campbell and Kay would manage the new LLC and
“confer on all business and marketing related activities as well as all capital needs.”58 All of the material
terms of the November 2013 Letter Agreement were
subject to due diligence.59
2.

The April 2014 Letter Agreement

After executing the November 2013 Letter Agreement, Kay and Campbell continued to negotiate.60 On
March 17, 2014, Kay filed a certificate of formation for

54
55
56
57
58
59
60

Tr. 131:3-8 (Offit).
JX 1 ¶ 2.
Id. ¶ 7.
Id. ¶ 6.
Id. ¶ 4.
Id. ¶¶ 6, 8, 10.
See Tr. 322:14-18 (Kay); Tr. 795:10-23 (Campbell).

App. 174
Eagle Force Holdings in Delaware.61 Kay did not tell
Campbell he had formed the Eagle Force Holdings entity; nor did he inform Campbell that he created a Delaware entity, rather than a Virginia entity.62 On April
4, 2014, Kay and Campbell signed an amendment to
the November 2013 Letter Agreement (the “April 2014
Letter Agreement”), which stated “[b]y April 21 it is anticipated that a new LLC will be formed to serve as a
parent entity (‘Holdco’) for Eagle Force [sic] Associates,
Inc. and the recently formed Eagle Force Health Solutions, LLC. . . .”63
Kay and Campbell signed the April 4, 2014 Letter
Agreement without counsel present.64 The April 2014
Letter Agreement “amend[ed] the letter agreement
that [Campbell and Kay] executed on November 27,
2013 that was dated as of November 15, 2013.”65 The
April 2014 Letter Agreement maintained that Campbell and Kay would share management responsibilities
and confer regarding marketing and capital needs.66 It
also further defined Campbell’s and Kay’s roles in the

61

JX 7.
Tr. 991:3-993:24 (Campbell).
63
JX 12 ¶ 2.
64
Tr. 380:10-11 (Kay). At the time Kay and Campbell signed
the April 2014 Letter Agreement, Campbell believed that Offit
Kurman represented both Kay and Campbell. Tr. 783:21-784:6,
794:23-795:9 (Campbell). Campbell did not hire his own attorney
until later in April or May 2014. Tr. 796:4-11 (Campbell); Tr.
817:22-24 (Rogers).
65
JX 12, at 1.
66
Id. ¶ 4.
62

App. 175
anticipated parent company, referred to as “Holdco.”67
The April 2014 Letter Agreement stated that
[Campbell] will have primary responsibility
over all information technology, product development, R&D, and customer service and
maintenance, in each case subject to an annual budget approved by the Holdco board.
[Kay] will have primary responsibility over financial matters, personnel/HR, and management of outside accounting, legal, tax, and
other advisors and consultants as well as all
other matters relating to the operation of the
business of Holdco and its subsidiaries and
will consult with [Campbell] on all decisions
affecting these functions.68
The parties referred to the more defined spheres
of management responsibility in the anticipated fiftyfifty business venture as “swim lanes.”69
Recognizing that Kay and Campbell had not yet
completed negotiations nor finalized the necessary
documents reflecting their new business venture, the
April 2014 Letter Agreement provided that Kay would
advance $500,000 to Eagle Force Holdings immediately upon the execution of the April 2014 Letter
Agreement.70 And “[t]his $500,000 [would] be evidenced by a demand promissory note issued to [Kay]
by Eagle Force [sic] Associates, Inc. and Eagle Force
67
68
69
70

See id. ¶ 3.
Id.
Tr. 319:11-14 (Kay).
JX 12 ¶ 6.

App. 176
Health Solutions, LLC, jointly and severally. . . .”71 The
April 2014 Letter Agreement also contemplated that
once Kay and Campbell finalized negotiations and
completed the necessary transaction documents, Kay
would contribute an additional $1,800,000 to equal the
value of Campbell’s intellectual property, $2,300,000.72
3.

Negotiation of the LLC Agreement
and the Contribution Agreement

After signing the April 2014 Letter Agreement,
Kay continued due diligence on the EagleForce Associates business.73 During this time, he provided funding
to EagleForce Associates74 and became involved in certain aspects of the day-to-day operations of the company.75 Unfortunately, Kay’s increased involvement in
EagleForce Associates created tension and mistrust in
Kay and Campbell’s relationship, due in large part to
their very different management styles and differing
expectations of, involvement in, and control over the
“swim lanes” identified in the April 2014 Letter Agreement.
As early as April 30, 2014, only two weeks after
signing the April 2014 Letter Agreement, Kay expressed disappointment in Salah’s contract-drafting
skills and advised Campbell that Bryan Ackerman,
71
72
73
74
75

Id.
See id.
See, e.g., JX 39.
JX 106.
E.g., Tr. 192:15-193:11 (Powers).

App. 177
Sentrillion’s general counsel, would be involved in all
contracts into which EagleForce Associates entered.76
Campbell, however, valued Salah’s contributions and
experience and wanted Salah to have a greater role.77
Campbell responded to Kay, “I am no longer enjoying
coming to work. I do not think this will work. Please
tell me what I owe you and how we can move forward
independently.”78 Kay responded, referring to the November 2013 and April 2014 Letter Agreements, “I
hope you had a tough day and don’t really want to get
into a [sic] issue. My position is we are signed partners. . . .”79
Despite the fact that Kay and Campbell’s relationship was becoming strained,80 they began to negotiate
the LLC Agreement for Eagle Force Holdings and the
Contribution Agreement.81 In addition to Offit Kurman, Kay engaged Latham & Watkins to advise him
on investing in the EagleForce Associates business.82
Campbell believed that Offit Kurman had been representing both Kay and Campbell together until Michael
Schlesinger of Latham & Watkins advised Campbell
that he should retain his own counsel.83 In April or

76
77
78
79
80
81
82
83

JX 130, at 2.
See id.; Tr. 797:7-16 (Campbell).
JX 130, at 1.
Id.
See, e.g., id.
See JX 14; JX 15.
Tr. 32:16-24 (Offit).
Tr. 783:21-784:6, 794:23-795:9 (Campbell).

App. 178
May 2014, Campbell retained his own attorney, Donald
Rogers with the Schulman Rogers law firm.84
On May 13, 2014, Latham & Watkins presented a
draft Contribution Agreement and a draft LLC Agreement for Eagle Force Holdings to Campbell.85 Each
agreement included a forum selection clause consenting to personal jurisdiction in the Delaware courts.86
The LLC Agreement referred to the March 17, 2014
certificate of formation for Eagle Force Holdings in
Delaware.87 Campbell, thus, learned that Kay formed
Eagle Force Holdings in Delaware at least by May 13,
2014.
Kay’s involvement in the EagleForce businesses
continued as Kay and Campbell negotiated the terms
of the Transaction Documents. For example, in or
about June 2014, Kay suggested that EagleForce Associates hire Melinda Walker as a secretary and pay her
$75,000 per year.88 This concerned Campbell because
Walker’s salary was higher than most EagleForce Associates employees’ salaries at the time.89
On June 30, 2014, Rogers sent a revised draft of
the LLC Agreement to Offit.90 The draft included
84

Tr. 796:4-11 (Campbell); Tr. 817:22-24 (Rogers).
JX 14; JX 15.
86
JX 14 § 8.9(b); JX 15 § 12.2.
87
JX 15 Recitals.
88
Tr. 436:16-22 (Kay); Tr. 735:2-4 (Variganti); Tr. 917:19-21,
918:12-18 (Campbell).
89
Tr. 919:6-10 (Campbell).
90
JX 17.
85

App. 179
several notes indicating that certain points needed to
be discussed and resolved, such as the distribution waterfall and the structure of Campbell’s contribution of
intellectual property.91
Also on June 30, 2014, Campbell received an email
from Kay that Campbell believed contained a racial
slur.92 This email caused Campbell to have reservations about Kay’s character, and from Campbell’s perspective, his personal relationship with Kay continued
to deteriorate. Despite Campbell’s reservations, he continued to pursue a business relationship with Kay;
EagleForce Associates continued to receive funding
from Kay; and the parties continued to negotiate the
Transaction Documents.
4.

The July 7, 2014 meeting

On July 3, 2014, Offit sent Rogers an email confirming a meeting on July 7, 2014, at Rogers’s office to
negotiate the Transaction Documents.93 Offit expressed his and Kay’s concern that the negotiations
were proceeding slowly, and Rogers responded that
“[f ]or the benefit of everyone, let’s make Monday [July
7] the day we agree on all terms.”94

91

E.g., JX 18 §§ 3.2.1, 5.1.2.
Tr. 1301:12 (Campbell); see JX 16. Kay maintains that the
word was an error. Tr. 444:16-19 (Kay).
93
JX 24, at 1.
94
Id.
92

App. 180
On July 7, 2014, Kay, Campbell, and their respective counsel met at Rogers’s office to negotiate the unsettled terms of the Contribution Agreement and the
LLC Agreement.95 Offit believed that three primary issues remained to be negotiated:96 (1) the scope of the
intellectual property that Campbell would contribute
and the extent of Campbell’s representation regarding
his ownership of the intellectual property and any
third-party infringement;97 (2) the mechanics for dilution of Kay’s and Campbell’s interests upon additional
third-party investments;98 and (3) the structure of the
Eagle Force Holdings board of directors.99
The July 7 meeting went late into the night, and
the parties resolved the three issues that Offit understood to be outstanding.100 But a substantial new issue
arose. During that meeting, Offit discovered for the
first time that Campbell had previously filed for bankruptcy.101 This discovery led to another point of contention between Kay and Campbell.

95

Tr. 61:8-23 (Offit).
Tr. 61:24-62:4 (Offit).
97
Tr. 62:4-18 (Offit).
98
Tr. 62:19-63:6 (Offit); see JX 18 § 3.2.
99
Tr. 63:7-13 (Offit).
100
Tr. 63:16-66:9 (Offit). Also on July 7, Campbell signed an
EagleForce Associates note payable to Kay for the $700,000 Kay
had already contributed to EagleForce Associates. JX 34; JX 35.
Kay and Campbell agreed that Kay would cancel the note if they
were able to reach agreement on the Transaction Documents. JX
25, at 2.
101
Tr. 69:16-70:20 (Offit).
96

App. 181
On July 8, 2014, Offit sent Rogers a list of changes
to the Contribution Agreement based on the July 7 discussion.102 An associate at Rogers’s firm sent a redlined
draft of the LLC Agreement to Offit and Kay on July 9,
2014, incorporating the negotiated terms from the July
7 meeting.103
On July 9, 2014, an email was sent from Campbell’s email address to Morgan announcing that EagleForce Associates and EagleForce Health had taken on
Kay as their “first Partner.”104 Morgan responded, congratulating both Kay and Campbell and copying several EagleForce employees.105 The same day, Campbell
held a meeting at EagleForce Associates’ office with all
of the office staff to announce Kay’s involvement in the
business.106 Kay suggested that Campbell’s wife attend
the meeting, and Campbell arranged for his wife to
participate by phone.107 Campbell also arranged for
Kay’s wife to participate by phone.108 Kay did not appreciate Campbell’s gesture and sternly told Kay,

102

JX 28.
JX 29.
104
JX 33. Campbell testified that he did not send this email
but that Melinda Walker sent it from his email account without
his permission. Tr. 941:3-942:3 (Campbell). Regardless, this
email does not alter the weight of the evidence.
105
JX 33.
106
Tr. 1188:17-1189:8 (Morgan).
107
Tr. 937:9-10 (Campbell).
108
Tr. 937:10-12 (Campbell).
103

App. 182
“Don’t ever do that again. My wife is not involved in
my business, and don’t ever do that again.”109
5.

Tensions between Kay and
EagleForce employees

As Kay and Campbell continued negotiations, Kay
became more involved in the EagleForce business and
interfaced more with EagleForce employees. Through
these interactions, the employees experienced a more
aggressive, erratic, and disrespectful Kay. And, unfortunately, Salah and Morgan observed that this mistreatment often ran along lines of national origin.110
The recipients of a disproportionate amount of Kay’s
alleged mistreatment included Marlena Henien, a degreed Egyptian woman who did opportunity research
at EagleForce Associates;111 Jashuva Variganti, an Indian man who has an MBA degree and is an administrative employee of EagleForce Associates assisting
with expense and payroll processing;112 and Salah, an
Egyptian man who has an MBA degree and is the CFO
for EagleForce Associates.113 Kay treated Henien like a
servant, rather than a valued employee.114 He would
throw money down on her desk and instruct her to run
109
110
111

Tr. 937:17-22 (Campbell).
Tr. 1089:17-1090:3 (Salah); Tr. 1174:4-12 (Morgan).
Tr. 918:23-24, 932:3-10 (Campbell); Tr. 1090:18-21 (Sa-

lah).
112
113
114

Tr. 716:11-13, 717:9-14 (Variganti); Tr. 1090:9-16 (Salah).
Tr. 1085:17-18, 1086:2-8, 1140:19-21 (Salah).
E.g., Tr. 931:18-932:1 (Campbell).

App. 183
personal errands and do tasks inappropriate for her
role at EagleForce Associates.115
Kay yelled at Variganti, telling Variganti, “If I
[Kay] ask you to do something, you should—you should
do [it].”116 In addition to this statement, Kay behaved
in a threatening manner. During one encounter, Kay
stood an unusually short distance from Variganti while
yelling at him.117 Variganti testified that he felt threatened during this exchange with Kay.118 Morgan observed Kay pinning Variganti against a cubicle
partition.119
Kay treated Salah with the greatest deal of disdain. Kay condescended to Salah,120 questioned to
Salah’s face why he was at EagleForce Associates,121
questioned Salah’s experience and competence,122
and frequently yelled and cursed at him in front of
Campbell.123 Kay flatly said, “I just don’t want him
around.”124 Kay confessed to Morgan that he (Kay)

115
116
117
118
119
120
121
122
123
124

Id.
Tr. 720:3-6 (Variganti).
Tr. 720:16-21 (Variganti).
Tr. 720:22-721:5 (Variganti).
Tr. 1175:6-20 (Morgan).
Tr. 926:19-24 (Campbell).
Tr. 1088:10 (Salah).
See Tr. 927:21-928:6 (Campbell).
Tr. 926:23-24 (Campbell); Tr. 1088:16-24 (Salah).
Tr. 928:6-7 (Campbell).

App. 184
“can’t work with somebody like [Salah]. [H]e’s an
Arab.”125
Kay’s behavior led to tensions in the office. Multiple employees voiced concerns about Kay’s addition as
a partner.126 Morgan’s concerns about Kay’s behavior
were so great that he (Morgan) told Campbell that he
might quit if Campbell did not address Kay’s behavior.127
Additionally, Kay did not limit his abuse to employees. He also became more aggressive toward
Campbell. Kay shouted and cursed at Campbell within
earshot of EagleForce employees during their disagreements.128 Employees heard Kay yelling at Campbell even though the two men were in a closed
conference room.129
Kay also began to speak negatively about Campbell to EagleForce employees. For example, Kay met
with Cresswell at a country club in Potomac, Maryland, and told Cresswell that Campbell had a “shady
past” and had previously committed fraud.130
Campbell grew more concerned but tried to see
things from Kay’s perspective, understanding that
125

Tr. 1174:10-12 (Morgan).
E.g., Tr. 921:13-20 (Campbell); Tr. 1174:16-18 (Morgan).
127
Tr. 1180:21-1181:6 (Morgan).
128
Tr. 722:9-15 (Variganti); Tr. 1089:7-16 (Salah); Tr.
1181:14-1182:9 (Morgan).
129
Tr. 1089:7-13 (Salah).
130
Tr. 656:4-657:23 (Cresswell).
126

App. 185
Kay had invested money in the venture.131 Thus, he
continued to work toward the deal.132 But Kay’s mistreatment of Campbell and EagleForce Associates employees strained Kay and Campbell’s relationship.133
6.

Continued negotiations

Despite the building tension, Kay and Campbell
continued to negotiate through July 2014.134 But on
July 22, 2014, Kay sent an email to Campbell saying,
“I am hearing that you may be trying to change the
deal and we now may not be consistent understanding
based on our agreemnt [sic].”135 Presumably, Kay was
referring to the November 2013 and April 2014 Letter
Agreements.
Near the end of July 2014, Kay and Campbell met
without their lawyers to discuss open issues.136 On July
25, 2014, Campbell sent an email to Rogers, Offit, and
Kay informing the lawyers of what Campbell and Kay
had discussed.137 In part, Campbell wrote, “As for the
Issue related to Bankruptcy—I don’t think I have
much of an issue . . . what we discussed and agreed is
that we will pay any amount owed. I will change that

131
132
133
134
135
136
137

Tr. 802:1-3 (Campbell).
Tr. 802:8-10 (Campbell).
See Tr. 801:20-802:1 (Campbell).
See, e.g., JX 31; JX 39; JX 41.
JX 43.
See JX 46.
Id.

App. 186
to the point that we will pay any amount under
$10,000.”138
On August 5, 2014, Campbell, Kay, Rogers, and Offit met to attempt to agree on outstanding issues.139
Campbell testified that Kay and Offit would not drop
the bankruptcy issue140 because they were concerned
about Campbell’s title to his intellectual property.141 To
indicate that Campbell was not willing to reopen his
bankruptcy, he walked out of the meeting.142 He testified, “[I] made it clear I wasn’t doing that. And the only
way I could make it any clearer was to leave.”143
On or around August 6, 2014, both Kay and Campbell signed a handwritten sheet of paper that stated,
“Campbell has rights to approve new investment.”144
Offit sent an email to Rogers to clarify what Kay meant
in agreeing to the handwritten note.145 He wrote,
“[Campbell] told [Kay] he needed to be involved in all
capital raise decisions. [Kay] is obviously in agreement
on [Campbell’s] need to be involved in capital raise
matters, but [Campbell] cannot have a blocking right

138
139
140
141
142
143
144
145

Id.
Tr. 80:19-22, 81:22-82:4 (Offit).
Tr. 807:22-808:8 (Campbell).
Tr. 821:5-11 (Rogers).
See Tr. 808:9-24 (Campbell).
Tr. 808:20-22 (Campbell).
JX 54, at 4.
Id. at 1.

App. 187
or veto right. The 3 person board needs to approve capital raise matters.”146
On or before August 14, 2014, Kay and Campbell
met and discussed thirteen open issues.147 Kay handwrote148 their agreed-upon conclusions on a sheet of paper that he scanned and sent to Campbell.149 The list
of thirteen points addressed topics Kay and Campbell
had been negotiating, such as new equity capital and
Campbell’s compensation.150 The list also addressed
operational issues such as “[Campbell] & [Kay] will
talk daily on big issues” and “[Kay] & [Campbell] agree
we will push Chris Cresswell to close first 3 deals
ASAP.”151
On August 19, 2014, Rogers, Campbell’s attorney,
sent revised versions of the Transaction Documents.152
The August 19 versions that Rogers circulated backtracked on some of Campbell’s concessions in the thirteen-point list.153 Rogers’s August 19 draft, however,
incorporated some of Kay’s requests.154
On August 22, 2014, Campbell sent an email to
Kay, Rogers, and Offit stating that on the bankruptcy
146
147
148
149
150
151
152
153
154

Id.
Tr. 346:2-18 (Kay).
Tr. 345:16-22 (Kay).
JX 56.
Id. at 2.
Id.
JX 57.
See, e.g., JX 59 § 4.1.8(a).
See, e.g., JX 60 § 3.2(c).

App. 188
issue, he and Kay were each willing to commit up to
$5,000 to retain Campbell’s personal bankruptcy lawyer and resolve the issue of his title to the intellectual
property.155 If that did not resolve the issue, Campbell
agreed that out of the $500,000 distribution he would
take at closing, he would “retain up to $250,000 in an
attorney escrow of [his] choice for a period not to exceed 6 months.”156 Campbell was willing to set aside
funds to pay any creditor claims, but he did not want
to reopen a bankruptcy proceeding.157
On August 20, 2014, Campbell sent an email to
Kay asking Kay to “refrain from any further disbursements to EagleForce until we have [an] executed
agreement and established closing procedures.”158 In
that same email, Campbell informed Kay that Campbell had been “seek[ing] other funding to meet the commitments of the company.”159 Kay refused to stop
funding.160 When Kay refused to stop funding, Campbell
responded by refusing to cash his own paychecks.161
On August 27, Offit sent another round of revisions to the LLC Agreement and the Contribution
Agreement to Rogers, Kay, and Campbell with a cover
email stating, “Please confirm your acceptance of the
155
156
157
158
159
160
161

JX 66.
Id.
Tr. 809:3-4, 810:5-10, 810:18 (Campbell).
JX 65, at 1.
Id.
See JX 106.
Tr. 948:21-949:16 (Campbell).

App. 189
terms of these agreements. Please commence preparation of schedules needed for closing.”162 The date on the
front of and in the first paragraph of the draft Contribution Agreement remained blank in the August 27
version.163 The missing date on the Contribution
Agreement created an additional gap in the agreement
because the closing date depended on the date of the
agreement.164
The version of the Contribution Agreement that
Offit sent with his August 27 email stated “OK [Offit
Kurman] DRAFT 8-26-14” on the first page.165 Although the last draft LLC Agreement had no such notation, the LLC Agreement was an exhibit to the
Contribution Agreement.166 Rogers was out of town
when Offit sent the August 27 draft Transaction Documents,167 and Offit received Rogers’s automatic out-ofoffice reply.168

162

JX 68.
JX 71, at 1-2.
164
Id. § 3.1 (“[T]he closing of the Transactions (the ‘Closing’)
shall be held at the office of the Company, commencing at 10:00
a.m. local time on the date hereof (the ‘Closing Date’) or at such
other time and place as the Parties may agree upon in writing.”).
165
Id. at 1.
166
See JX 31 (without draft notation on cover page); JX 53
(same); JX 59 (same); JX 71 Ex. B; JX 73 (without draft notation
on cover page).
167
Tr. 828:15-17 (Rogers).
168
JX 74.
163

App. 190
Campbell testified that once or twice through
these weeks of negotiating the Transaction Documents, “Kay . . . [brought] a draft document to [Campbell] and ask[ed] [him] to sign it.”169 Although
Campbell did not produce any of these signed drafts as
evidence of this course of conduct,170 Salah corroborates his testimony, noting that it is “not the normal
practice to sign drafts. But Mr. Kay wanted these
drafts to be signed as being received.”171 Campbell
claims he is unable to produce any signed drafts because they were stolen from his office, together with
other documents.172
Throughout this entire period of negotiations, EagleForce Associates, still in its start-up phase, had limited sources of revenue173 and relied on multiple
funding sources to meet its financial obligations. Much
of that funding came from Kay; between January 2014
and August 28, 2014, Kay contributed $841,213.174
Others, including Salah and Kay’s wife, invested in the
EagleForce businesses or loaned them money.175

169
170
171
172

Tr. 915:12-22 (Campbell).
Tr. 1277:2-8 (Campbell).
Tr. 1105:10-23 (Salah).
See Tr. 727:21-729:5 (Variganti); Tr. 923:8-924:21 (Camp-

bell).
173
174
175

Tr. 323:19-24 (Kay).
See JX 106.
Tr. 775:6-11, 926:1-3, 952:23-953:9 (Campbell).

App. 191
Campbell also sought a loan from an investment banking company.176
7.

The events of August 28, 2014

On August 28, 2014, Kay and Campbell met without their lawyers. Kay and Powers testified that Kay
came to EagleForce Associates’ offices with Powers to
sign the Transaction Documents.177 Campbell testified
that he was unaware of Kay’s purpose for the meeting.178 Campbell was busy when they arrived but met
with them briefly.179 Because Campbell had to finish
meeting with EagleForce developers, Kay and Powers
left to go to a restaurant five minutes away.180
While Kay and Powers were at the restaurant,
Kay and Campbell sent several emails to each other.181
In the first email thread, Cresswell sent a non-disclosure agreement to Kay and Bryan Ackerman, Sentrillion’s general counsel, copying Campbell.182 Campbell
replied, asking Cresswell not to “forward this information outside of the company until I have had a
chance to review.”183 Kay responded, “What are you
talking about outside the company? We just talk [sic] 3
176
177
178
179
180
181
182
183

Tr. 953:12-17 (Campbell).
Tr. 287:8-19 (Powers); Tr. 329:7-11 (Kay).
Tr. 973:10-974:5 (Campbell).
Tr. 329:18-330:3 (Kay).
Tr. 330:4-7 (Kay).
See Tr. 330:20-23 (Kay); JX 75; JX 76.
JX 75, at 2.
Id. at 1.

App. 192
minutes ago. I will handle my swim lane.”184 About ten
minutes later, apparently without waiting for an answer from Campbell, Kay sent a second reply: “1).
Bryan [Ackerman] is inside not outside 2). For the record I will handle all [NDA] contacts.”185 In reference to
earlier emails regarding the NDA, Campbell wrote to
Kay, “As you can see I am not on the mail routing and
this is a bit troubling. Only you can make these folks
know that we are equal partners.”186 Kay replied, “Everyone knows we are equal. . . . Please clarify w[ith]
chris [sic] and Bryan that [NDA] are in [business] lane
and rick [sic] will handle. and [sic] send me the signed
document if you want to go forward.”187
Around the same time, Cresswell sent an email
strategizing about how to “win” the Special Olympics
as a client.188 Kay replied to only Campbell, stating
“Sorry cant [sic] do anything until the agreement documents you have are signed. Did you sign. . . .”189 Kay
sent his final email shortly before returning to Campbell’s office.190 In that email, which was not a reply to
Campbell’s email, but instead a follow up from his

184
185
186
187
188
189
190

Id.
Id. at 3.
JX 76, at 3.
Id.
Id. at 2.
Id.
Compare id., with Tr. 237:9-12 (Powers).

App. 193
previous email, he wrote, “So what. This is getting really petty. . . . Have you send [sic] the signed doc?”191
At around 7:15 p.m., Kay and Powers returned to
the EagleForce Associates offices.192 Kay, Powers, and
Campbell met for only a few minutes, and both Kay
and Campbell signed the versions of the LLC Agreement and the Contribution Agreement that Offit had
sent by email on August 27, 2014, without reading the
documents.193 Campbell testified that before the signing, Kay told him that Rogers and Offit “were done”
with the agreements.194 Campbell testified that he
tried to call Rogers but was unable to reach him.195 He
testified that Kay tried to call Offit but was also not
able to reach him.196 Kay, in contrast, testified that he
did not call Offit or make any representations about
Campbell’s lawyer.197

191

JX 76, at 5.
Tr. 237:9-12 (Powers).
193
Tr. 294:16-295:6 (Powers); Tr. 331:18-333:7 (Kay).
194
Tr. 976:23-977:5 (Campbell).
195
Tr. 977:14-21 (Campbell).
196
Tr. 977:22-978:8 (Campbell).
197
Tr. 334:7-10, 334:15-20 (Kay). Plaintiffs argue that Kay
and Campbell had a past practice of signing legally binding agreements without counsel present, pointing to the November 2013
and April 2014 Letter Agreements. Pls.’ Opening Br. 28. Kay and
Campbell had signed the November 2013 and April 2014 Letter
Agreements without their attorneys present, but the circumstances surrounding the signing of those documents differs significantly. First, Campbell believed that Kay and Campbell were
represented together by the same attorney at the time he signed
the Letter Agreements, but he learned later that the law firm
192

App. 194
After Kay and Campbell signed the agreements,
Campbell walked around his desk and embraced Kay
and Powers.198 The entire meeting lasted only two to
five minutes.199
8.

Events after the August 28 signing

Kay and Campbell never completed the closing on
their agreement. On October 28, 2014, Kay, Campbell,
Rogers, and Offit exchanged emails indicating Kay’s
and Campbell’s different positions.200 Kay emailed,
“What else can we do together to get this done. I understand we have signed the deal but need the
represented only Kay and Campbell himself had been unrepresented. Tr. 33:15-22 (Offit); Tr. 794:23-795:9 (Campbell). Second,
the Letter Agreements each served as a “roadmap to reaching a
binding agreement.” Pls.’ Opening Post-Trial Br. 20. Third, unlike
the August 28 Transaction Documents, months of negotiations
did not precede the Letter Agreements. Fourth, the November
2013 and April 2014 Letter Agreements are three and four pages
in length respectively, which contrasts greatly with the dozens of
pages that comprise the Transaction Documents. Fifth, Kay and
Campbell carefully reviewed the terms of the Letter Agreements
together and made joint revisions to the Letter Agreements before
signing them; this process differs greatly from the brief August
28 meeting. See Tr. 131:5-7 (Offit). Sixth and finally, by the time
they signed the August 28 Transaction Documents, Campbell and
Kay’s relationship had deteriorated, and they no longer trusted
each other.
198
Kay and Powers testified that Campbell hugged each of
them after signing the Transaction Documents. Tr. 240:7-9 (Powers); Tr. 332:10-16 (Kay). Campbell testified that instead of a hug,
he gave Kay a dap handshake. Tr. 987:24-988:10 (Campbell).
199
Tr. 294:21-22 (Powers); Tr. 978:14-20 (Campbell).
200
JX 93.

App. 195
exhibits.”201 Campbell responded, stating in part, “The
signatures on the drafts did not represent the completed document which remains not completed given
the two or three remaining items.”202 Over the following months, Kay and Campbell’s relationship became
more contentious. Finally, on February 18, 2015,
Campbell sent an email to Offit, Rogers, Kay, and
Cresswell stating as follows:
[W]e have reached an impass [sic] that we are
unable to resolve. I would respectfully request
that the atty’s [sic] get together to discuss the
means and methods for us to close this matter
and allow us to move on. We have booked the
funding as a loan and will proceed with
amending the existing documentation in a
means that is reasonable for us both.203
On March 17, 2015, Eagle Force Holdings and EF
Investments filed this lawsuit to enforce the August 28
Contribution Agreement and LLC Agreement.204
III. ANALYSIS
Plaintiffs allege claims for breach of contract
and breach of fiduciary duty.205 Plaintiffs seek an
order requiring Campbell to specifically perform his
201

Id. at 1.
Id.
203
JX 103.
204
Compl. for Specific Performance, Declaratory and Injunctive Relief and Imposition of Constructive Trust.
205
Compl. ¶¶ 63-74.
202

App. 196
obligations under the Transaction Documents and
granting monetary damages to Plaintiffs.206 In the alternative, Plaintiffs assert claims for fraud and unjust
enrichment.207
A. Legal Standards
Plaintiffs have the burden of proving their claims
by a preponderance of the evidence.208 “Proof by a preponderance of the evidence means proof that something is more likely than not. ‘By implication, the
preponderance of the evidence standard also means
that if the evidence is in equipoise, Plaintiffs lose.’ ”209
To enforce either the Contribution Agreement or
the LLC Agreement, Plaintiffs must prove that the respective document is a valid contract with Campbell.210
206

Compl. ¶¶ 33-38, 74.
Compl. ¶¶ 45-49, 76-80. Plaintiffs also assert that Campbell raises affirmative defenses of fraudulent inducement, duress,
and mutual mistake in his post-trial briefs; they, however, do not
cite Campbell’s post-trial briefs. Pls.’ Opening Br. 28-33. Plaintiffs are correct as to the defenses of duress and mistake, but a
careful review of Campbell’s post-trial briefs reveals no reference
to fraudulent inducement.
208
Revolution Retail Sys., LLC v. Sentinel Techs., Inc., 2015
WL 6611601, at *9 (Del. Ch. Oct. 30, 2015).
209
Id. (footnote omitted) (citing Agilent Techs., Inc. v. Kirkland, 2010 WL 610725, at *13 (Del. Ch. Feb. 18, 2010)) (quoting
2009 Caiola Family Tr. v. PWA, LLC, 2015 WL 6007596, at *12
(Del. Ch. Oct. 14, 2015)).
210
The parties raise the question of which jurisdiction’s law
applies to this case, but they do not brief the choice of law issue.
The briefing relies heavily on Delaware law, and none of the parties asserts that the law of Delaware is in conflict with the law of
207

App. 197
It is settled Delaware law that “a valid contract exists
when (1) the parties intended that the instrument
would bind them, demonstrated at least in part by its
inclusion of all material terms; (2) these terms are sufficiently definite; and (3) the putative agreement is
supported by legal consideration.”211
The Supreme Court held that the terms of the
Transaction Documents are sufficiently definite,212 and
the parties do not dispute whether the Transaction
Documents are supported by legal consideration.213
Thus, the question presented is whether the parties intended that the Transaction Documents would bind
them.
This question looks to the parties’ intent as to
the contract as a whole, rather than analyzing
whether the parties possess the requisite
intent to be bound to each particular term.
“Under Delaware law, ‘overt manifestation of
assent—not subjective intent—controls the
formation of a contract.’ ” As such, in applying
this objective test for determining whether
the parties intended to be bound, the court reviews the evidence that the parties communicated to each other up until the time that the
contract was signed—i.e., their words and actions—including the putative contract itself.
any other jurisdiction whose law may apply. The Court, thus, will
apply Delaware law to all issues this opinion addresses.
211
Supr. Ct. Op., 187 A.3d at 1229 (citing Osborn, 991 A.2d
at 1158-59).
212
Id. at 1238, 1240.
213
Id.

App. 198
And, where the putative contract is in the
form of a signed writing, that document generally offers the most powerful and persuasive
evidence of the parties’ intent to be bound.
However, Delaware courts have also said that,
in resolving this issue of fact, the court may
consider evidence of the parties’ prior or contemporaneous agreements and negotiations
in evaluating whether the parties intended to
be bound by the agreement.214
B. The Credibility of Kay and Campbell
The August 28 meeting plays a critical role in the
question of formation. Kay and Campbell signed the
Transaction Documents at issue during this meeting.
However, no contemporaneous evidence exists, other
than the Transaction Documents themselves, that reflects what happened at that meeting. Further, Kay’s
and Campbell’s recollections of the August 28 meeting
differ. As for the third attendee of the August 28 meeting, Powers, it appears that she was not present for or
privy to all communications between Kay and Campbell.215 Further, she does not recall the details of the
214

Id. at 1229-30 (footnotes omitted) (citing Black Horse,
2014 WL 5025926, at *12; Seiler, 367 A.2d at 1005; Osborn, 991
A.2d at 1158-59; Del. Bay Surgical Servs., P.C. v. Swier, 900 A.2d
646, 650 (Del. 2006)) (quoting Black Horse, 2014 WL 5025926, at
*12). Although the Supreme Court has tasked me with determining the parties’ intent to be bound, the Supreme Court appears to
foreclose any analysis of material terms, as I held in my first opinion that there were missing material terms, which the Supreme
Court reversed.
215
See Tr. 291:16-292:13 (Powers).

App. 199
conversations between Kay and Campbell during that
meeting.216 Thus, credibility assessments of Kay and
Campbell tip the scales in this case. In my role as the
trier of fact, I must assess the credibility of the witnesses, supported by the record.217 My credibility determinations are based on the testimony and evidence
submitted to make up the record.
Kay challenges Campbell’s credibility. Kay
charges that Campbell’s testimony given at deposition,
multiple evidentiary hearings, and trial varies regarding (1) the manner in which the parties had signed documents in the past to acknowledge receipt, (2) the
number of different drafts of the Transaction Documents that existed, and (3) Campbell’s reliance on
Kay’s statements regarding the finality of the Transaction Documents.218 First, Campbell’s testimony varies
regarding the method to acknowledge receipt of various drafts of the Transaction Documents. In his deposition testimony, he said that he generally initialed the
cover page of the draft documents to acknowledge receipt but signed the August 28 Transaction Documents

216

Id.
Gatz Props., LLC v. Auriga Capital Corp., 59 A.3d 1206,
1221 (Del. 2012) (“The law requires the trial judge to weigh the
evidence, including the credibility of live witness testimony.”);
Adams v. Jankouskas, 452 A.2d 148, 151 (Del. 1982) (“[W]here, as
here, the trial court was faced with conflicting testimony, we accord great deference to the findings of the trial judge who heard
all the witnesses.”).
218
Oral Arg. Tr. 19:5-28:1 (Dec. 13, 2018); Pls.’ Opening Br.
23-24.
217

App. 200
also to acknowledge receipt.219 He also acknowledged
that he was not consistent in initialing documents and
sometimes used “some kind of indication” for his own
tracking purposes.220 In his trial testimony, he noted
that he “signed” various documents, including the August 28 Transaction Documents.221 Regardless, any inconsistency in Campbell’s testimony pertains to the
method to acknowledge receipt, not to the purpose of
initialing or signing. Additionally, Campbell’s deposition and trial testimony is consistent regarding the nature of the August 28 Transaction Documents.222

219

JX 148, at 427:6-428:10. Plaintiffs mischaracterize Campbell’s deposition testimony when they state that Campbell testified that he “never signed his full name on the signature lines of
the Transaction Documents to acknowledge receipt.” Pls.’ Reply
Br. 11. Campbell’s deposition testimony indicates that he used
various methods to acknowledge receipt. JX 148, at 363:13364:14.
220
JX 148, at 363:13-364:14.
221
Tr. 915:12-916:22 (Campbell). A review of this testimony
reveals that the examiner’s questions and Campbell’s answers focused on determining the number of endorsed drafts, not on the
method of endorsement.
222
To the extent a procedure for acknowledging receipt of
draft documents existed, Kay and Campbell used that procedure
only for their own discussions. Their attorneys did not require the
parties to acknowledge receipt of documents by signing or initialing them. Tr. 862:16-19 (Rogers). Regarding this point, Plaintiffs
again mischaracterize Campbell’s testimony when they explain
that “Campbell further acknowledged that his practice of initialing a document was not something that was required by Kay or
Kay’s counsel.” Pls.’ Reply Br. 11 (citing JX 148, at 367:4-10). The
examiner asked, “[D]o you recall whether or not you were required to send that acknowledgement to either [Kay’s counsel] or
Mr. Kay or anyone else?” JX 148, at 367:4-7 (emphasis added).

App. 201
Second, Campbell testified at trial that he did not
produce any previously signed (or initialed) drafts,223
but he does not claim in his testimony that these drafts
are different from and in addition to one of the drafts
the parties introduced as exhibits at trial.224 Third and
finally, Campbell testified that Kay stated that the attorneys had resolved all outstanding issues.225 But
Campbell did not say that he relied on this statement
to sign the agreements,226 as Kay asserts.227 To the
The examiner failed to ask whether Kay’s counsel or Kay required
Campbell to initial documents, the point for which Plaintiffs cite
Campbell’s deposition testimony.
223
Tr. 1276:22-1277:22 (Campbell).
224
See Tr. 915:12-916:22, 1274:23-1277:22 (Campbell). Plaintiffs claim that Campbell “was unable to produce any of these
seven or more signed versions, which he now claimed were in addition to the eight versions listed in the Joint Stipulations.” Pls.’
Reply Br. 11-12 (citing Tr. 1276:22-1277:22 (Campbell)). This
claim mischaracterizes Campbell’s testimony: “My testimony is
that I think I signed both of those documents on that time. On a
previous time, I think I signed three documents or four documents
which were redlined. On a previous time, I signed one document.
And I think the one – the time that I signed the one document
was the first one. The time that I signed three was the second one;
and the time that I signed two was the August one.” Tr. 1276:1321 (Campbell). This testimony from Campbell does not include
any claim that any signed versions are in addition to the eight
versions listed in the Joint Stipulations.
225
Tr. 976:2-4 (Campbell).
226
Tr. 976:2-16 (Campbell).
227
Pls.’ Reply Br. 10. Again, Plaintiffs mischaracterize
Campbell’s testimony and, in this instance, his arguments. Plaintiffs challenge Campbell’s credibility, stating that he “claims he
signed the documents intending to be bound, but he did so in reliance on Kay’s representation that the lawyers had signed off on
the documents.” Pls.’ Reply Br. 10 (citing Tr. 976:2-4 (Campbell)).

App. 202
contrary, Campbell testified that he attempted to confirm the finality of the documents and when he could
not, he signed to acknowledge receipt.228
I had multiple opportunities to observe Campbell
and assess his credibility; he testified before me on
three days of the five-day trial and at four evidentiary
hearings. His testimony as it relates to his intent to be
bound by the Transaction Documents is credible. He
consistently testified that (1) he wanted confirmation
from one of the attorneys that the documents were final, (2) when he could not get this confirmation, Kay
asked Campbell to sign to acknowledge receipt, and (3)
the nature of the Transaction Documents suggested
they were draft documents and it was okay to sign to
acknowledge receipt. Documentary evidence suggesting the Transaction Documents appear on their face
incomplete supports Campbell’s testimony.
Further, Kay faces his own challenges regarding
the veracity of his representations concerning the August 28 Transaction Documents. In particular, he manipulated the signed Contribution Agreement to
convince others that the Transaction Documents were
final. Cresswell testified that Kay showed him and
Morgan the signed Contribution Agreement to make
the point that Campbell and Kay had finalized their
agreement.229 But Cresswell also noted that the cover
Campbell does not testify to this in the cited testimony, and Plaintiffs provide no other source for this claim. See Tr. 976:2-977:24.
228
Tr. 1291:5-11 (Campbell).
229
Tr. 661:14-662:2 (Cresswell).

App. 203
page of the document was torn.230 Contemporaneous
documentary evidence corroborates this testimony. An
exhibit from Cresswell’s deposition clearly shows the
top-right corner missing from the first page where “OK
DRAFT 8-26-14” had appeared, and text from the topleft corner of the second page is also missing.231
After listening to Campbell’s testimony on multiple days, I find Campbell to be credible concerning the
events of August 28 and place more weight on Campbell’s testimony when it conflicts with Kay’s and there
is an absence of contemporaneous evidence.
C. The Contribution Agreement
The parties present competing renditions of both
the events leading up to the August 28 signing and the
meeting where they signed the Transaction Documents. I summarize Plaintiffs’ and Campbell’s different stories for the reader.
1.

Plaintiffs’ story (as narrated by Kay)

Plaintiffs’ strongest evidence of an intent to be
bound is the signatures on the Transaction Documents. To bolster the evidence of the signatures, Plaintiffs also point to the relevant context leading up to the
signing on August 28, 2014. From April 2014, when
Campbell and Kay signed the April 2014 Letter
230

Tr. 662:3-663:3 (Cresswell). Kay does not rebut or challenge Cresswell’s testimony.
231
JX 114, at 1-2.

App. 204
Agreement, through August 28, 2014, Kay and Campbell continued the negotiation process.232 Also during
that time, Kay continued funding the business activities of EagleForce Associates.233
On July 7, 2014, Kay and Campbell met together
with their attorneys.234 During this extended meeting,
they completed negotiations on three major issues.235
Although another substantial issue arose during that
meeting,236 Kay and Campbell, with the assistance of
their respective counsel, had worked through a majority of the open issues.237 Two days later, an email was
sent from Campbell’s email address to Morgan announcing that EagleForce Associates and EagleForce
Health had taken on Kay as their “first Partner.”238
Morgan responded, congratulating both Kay and
Campbell and copying several EagleForce employees.239 The same day, Campbell held a meeting at EagleForce Associates’ office with all of the office staff to
introduce Kay as a partner.240

232

See JX 14; JX 15; JX 19; JX 23; JX 31; JX 41; JX 52; JX
53; JX 58; JX 59.
233
JX 106.
234
Tr. 61:8-23 (Offit).
235
Tr. 63:16-66:9 (Offit).
236
Tr. 69:16-70:20 (Offit).
237
Tr. 63:22-66:9 (Offit).
238
JX 33.
239
Id.
240
Tr. 1188:17-1189:8 (Morgan).

App. 205
As part of the negotiating process, on or about August 14, Campbell and Kay met together and hashed
out some of the remaining issues.241 They summarized
their discussion in a handwritten list containing thirteen points they had reached agreement on.242 Their
attorneys used this list to continue revising the Transaction Documents.243 On August 25, Rogers said in his
email to Kay, Offit, and Campbell that he believed they
would be able to finalize the Contribution Agreement
“within the next few days.”244 Offit’s email on August
27 reflected a similar feeling when he instructed the
parties to “commence preparation of schedules needed
for closing.”245
On August 28, 2014, Kay and Powers went to the
EagleForce Associates offices for the purpose of executing the Transaction Documents.246 Because Campbell
could not meet with them immediately, they waited at
a nearby restaurant.247 While they were at the restaurant, Campbell emailed Kay and referenced their business venture: “Only you can make these folks know we
are equal partners.”248

241
242
243
244
245
246
247
248

Tr. 346:2-18 (Kay); JX 56.
Tr. 345:16-346:1 (Kay).
See JX 58; JX 59.
JX 67, at 1.
JX 68.
Tr. 287:8-19 (Powers); Tr. 329:7-11 (Kay).
Tr. 330:4-7 (Kay).
JX 76, at 3.

App. 206
Kay’s emails to Campbell made clear that Kay
would take no action and contribute no funds until
Campbell signed the Transaction Documents, literally
stating, “[I] cant [sic] do anything until the agreement
documents you have are signed.”249 At that time, EagleForce Associates was struggling financially. Still in its
start-up phase, Associates had limited sources of revenue.250 Rent for the EagleForce Associates offices was
overdue for July and August, and September rent
would soon be due.251 Plaintiffs suggest that Campbell
signed the Transaction Documents to secure Kay’s continued funding of the EagleForce businesses.252 Plaintiffs also state that Campbell failed to say or do
anything that conveyed he lacked the intent to be
bound by the signed Transaction Documents.253 For example, Campbell failed to indicate orally or in writing
that he signed the documents only to acknowledge receipt.254 According to Plaintiffs, Kay and Campbell saw
signing the documents as a next step in the partnership. The mood between them was happy.255

249

Id. at 2.
Tr. 323:19-24 (Kay).
251
Tr. 244:14-21 (Powers).
252
Pls.’ Reply Br. 9.
253
Pls.’ Opening Br. 22-23.
254
Tr. 238:11-14 (Powers); Tr. 334:21-335:1 (Kay).
255
Tr. 240:12-16 (Powers); Tr. 332:7-16 (Kay); Tr. 1296:91297:8 (Campbell).
250

App. 207
2.

Campbell’s story

Although Campbell and Kay had been working toward finalizing the Contribution Agreement, several
stumbling blocks to this process developed: (1) Kay and
Campbell’s relationship deteriorated, (2) employees
complained about Kay, (3) each felt the other was reneging on the previous agreement, and (4) Campbell
gave Kay multiple signs before August 28 that he
(Campbell) wanted out of their agreement.
First, as Kay’s involvement in EagleForce Associates business operations deepened, the relationship
between Kay and Campbell deteriorated. Campbell
was uncomfortable with some of Kay’s business decisions. For example, in or about June 2014, Kay suggested that EagleForce Associates hire Melinda
Walker as a secretary and pay her $75,000 per year,256
a salary that concerned Campbell because it was
higher than most EagleForce Associates employees’
salaries.257 Additionally, Kay sometimes acted aggressively toward Campbell and shouted and cursed at
Campbell.258 On June 30, 2014, Kay sent Campbell an
email that included a word that Campbell interpreted
as a racial slur.259 On Campbell’s part, he, at times,
avoided meeting Kay.260 This conduct, on the part of
256

Tr. 436:16-22 (Kay); Tr. 917:19-21, 918:12-18 (Campbell).
Tr. 919:6-10 (Campbell).
258
Tr. 722:9-15 (Variganti); Tr. 1089:7-16 (Salah); Tr.
1181:14-1182:9 (Morgan).
259
Tr. 1301:12 (Campbell); see JX 16.
260
See Tr. 1171:20-24 (Morgan).
257

App. 208
both Kay and Campbell, evidences the deterioration of
their relationship and a growing mistrust between
them.
Second, Kay mistreated multiple EagleForce employees, and some employees complained about Kay’s
behavior. Kay directed his aggressive or demeaning behavior toward Variganti, Salah, and Henien. Kay
yelled at Variganti and pinned him against a cubicle
wall.261 Kay condescended to multiple EagleForce Associates employees, sometimes treating them like errand runners, rather than valued employees in a
business.262 Campbell, Salah, and Morgan observed
that this mistreatment often ran along lines of national origin.263 Kay told Morgan that he (Kay) “can’t
work with somebody like [Salah]. [H]e’s an Arab.”264
Kay’s behavior toward employees like Variganti, Salah,
and Henien reflected this bias, and this behavior led to
tensions in the office. Multiple employees voiced their
concerns about Kay’s addition as a partner.265 In a company as diverse as EagleForce Associates, a suggestion
of racism would create problems at staff and management levels that Campbell could not ignore. In fact,
Morgan’s concerns about Kay’s behavior were so great
that he (Morgan) told Campbell that he might quit if
261

Tr. 720:3-6, 720:16-721:5 (Variganti); Tr. 1175:6-14 (Mor-

gan).
262

E.g., Tr. 931:18-932:1 (Campbell).
Tr. 927:15-932:16 (Campbell); Tr. 1089:17-1090:3 (Salah);
Tr. 1174:4-12 (Morgan).
264
Tr. 1174:10-12 (Morgan).
265
E.g., Tr. 921:13-20 (Campbell); Tr. 1174:16-18 (Morgan).
263

App. 209
Campbell did not address Kay’s behavior.266 Losing employees and their talent, especially in the start-up
phase, would reduce EagleForce Associates’ chances of
success.
Third, Kay and Campbell both began to suspect
that the other was not adhering to their original agreement. Campbell observed that Kay “kept moving the
goalposts” in their agreement267 and Kay reduced his
original financial commitment to EagleForce.268 Campbell testified that Kay unilaterally set up Eagle Force
Holdings as a Delaware LLC without informing Campbell that he (Kay) was changing or ignoring a term of
the November 2013 Letter Agreement.269 Campbell
also testified that Kay would threaten to turn off funding unless Campbell conceded something new, such as
the structure of the board or Kay’s control over another
area of business operations.270 Kay, on the other hand,
stated explicitly in an email dated July 22, 2014, to
Campbell that Campbell “may be trying to change
the deal.”271 Kay felt the need to include other people,
either attorneys or EagleForce employees like Cresswell and Morgan, in his meetings with Campbell.272

266
267
268
269
270
271
272

Tr. 1180:21-1181:6 (Morgan).
Tr. 994:24-995:1 (Campbell).
Tr. 995:2-9 (Campbell).
Tr. 991:3-992:21 (Campbell).
Tr. 995:2-20 (Campbell).
JX 43.
Tr. 663:18-664:5 (Cresswell).

App. 210
Fourth and finally, the mistrust and disagreements between Kay and Campbell reached a crescendo, causing Campbell to attempt to back out of the
agreement. On August 20, 2014, only eight days before
the parties would sign the Transaction Documents,
Campbell sent an email to Kay asking Kay to “refrain
from any further disbursements to EagleForce until we
have [an] executed agreement and established closing
procedures.”273 When Kay refused to stop funding,
Campbell responded by refusing to cash his own
paychecks.274 Campbell’s purpose for refusing his
checks was twofold.275 First, he wanted to make the
point to Kay that they needed to resolve issues in their
negotiations before continuing their business relationship.276 Second, anticipating that EagleForce Associates would have to make payroll without any
contribution from Kay, Campbell wanted to lower company expenses where he could.277 Campbell had experienced difficulty making payroll and meeting the
company’s other financial obligations in the past.
Campbell informed Kay that he (Campbell) was seeking other sources of funding and investment to replace
Kay’s contributions.278 But even without additional
funding, Campbell was prepared to continue the EagleForce Associates business. At several points in the
273
274
275
276
277
278

JX 65, at 1.
Tr. 948:21-949:16 (Campbell).
Tr. 950:6-8 (Campbell).
Tr. 950:11-18 (Campbell).
Tr. 950:9-11 (Campbell).
See JX 65, at 1.

App. 211
company’s history, Campbell obtained financial support from other sources, including Salah, Campbell’s
wife, and loans from financial institutions.279 Campbell
knew what it took to run the businesses with limited
sources of revenue, and he was preparing to do it again.
Even during the evening of August 28, 2014, leading up to the signing, Kay and Campbell’s conduct evidences their growing animosity for each other. At first,
Campbell was not available to meet with Kay and
Powers, and he asked Kay and Powers to wait in a conference room.280 He asked them to wait while he completed a different meeting with developers.281 Kay and
Powers decided to wait at a nearby restaurant.282 While
they were waiting, Kay’s tone in his emails to Campbell grew more aggressive. In just over an hour, Kay
sent six emails to Campbell.283 Two of those emails replied to the same email from Campbell.284 Shortly before Kay and Powers returned to Campbell’s office, Kay
emailed Campbell, “So what. This is getting really
petty. . . . Have you send [sic] the signed doc?”285
After Campbell had completed his meeting with
developers, Kay and Powers returned to Campbell’s

279
280
281
282
283
284
285

Tr. 775:6-11, 926:1-3, 952:23-953:9, 953:12-17 (Campbell).
Tr. 234:11-15 (Powers).
Id.
Tr. 330:4-7 (Kay).
See JX 75; JX 76.
See JX 76, at 3, 5.
Id. at 5.

App. 212
office to sign the documents.286 Before signing the Contribution Agreement, Campbell attempted to confirm
Kay’s assertion that the attorneys were done with the
documents.287 Campbell tried, unsuccessfully, to reach
his attorney.288 Campbell testified that, in the absence
of his own attorney’s confirmation, he asked Kay to
confirm with Kay’s attorney that the attorneys had finalized the Transaction Documents.289 Kay testified
that he does not recall Campbell asking him to try calling his attorney.290 In either case, Kay did not call his
attorney.291 Still without confirmation from either his
or Kay’s attorney, Campbell did not take the time to
read the Transaction Documents before he signed
them.292 Then, during a meeting that lasted only two to
five minutes,293 Campbell signed the Transaction Documents.294 Campbell testified that he signed the Transaction Documents at Kay’s request to acknowledge
receipt of the draft documents.295
Documentary evidence also suggests that the Contribution Agreement was not a final agreement. The
286

Tr. 237:3-12 (Powers).
Tr. 976:23-978:8 (Campbell).
288
Tr. 977:14-21 (Campbell).
289
Tr. 977:22-978:8 (Campbell).
290
Tr. 334:4-6 (Kay).
291
Tr. 334:7-10 (Kay).
292
Compare Tr. 976:15-16 (Campbell), with Tr. 239:10-14
(Powers).
293
Tr. 294:21-22 (Powers); Tr. 978:14-20 (Campbell).
294
Tr. 239:15-17 (Powers).
295
Tr. 976:17-22 (Campbell).
287

App. 213
most recent email from Offit makes it clear that Kay
and Campbell still needed to approve the agreements
and prepare the schedules to the Contribution Agreement.296 Further, as Campbell testified, the state of the
documents themselves do not suggest finality. Specifically, the first page of the Contribution Agreement is
marked “DRAFT.”297 The Contribution Agreement also
contained “many odd omissions involving important
subjects.”298 “The Draft Contribution Agreement was
unclear as to key issues, like the capitalization of the
key operating subsidiaries, because key text that the
agreement’s terms called for, such as critical schedules,
were absent.”299
3.

The reconciliation of the stories

Plaintiffs have the burden of establishing by a preponderance of the evidence that Campbell is bound by
the Contribution Agreement.300 “Proof by a preponderance of the evidence means proof that something is
more likely than not. ‘By implication, the preponderance of the evidence standard also means that if the
evidence is in equipoise, Plaintiffs lose.’ ”301

296

JX 68.
JX 78, at 1; Tr. 977:11-12, 987:13-23 (Campbell).
298
Supr. Ct. Op., 187 A.3d at 1244 (Strine, C.J., dissenting).
299
Id.
300
Revolution Retail, 2015 WL 6611601, at *9.
301
Id. (footnote omitted) (citing Agilent Techs., 2010 WL
610725, at *13) (quoting 2009 Caiola Family Tr., 2015 WL
6007596, at *12).
297

App. 214
The Supreme Court discusses the evidence that
the parties intended to be bound by the Contribution
Agreement, noting that both parties’ signatures provide “strong evidence that the parties intended to be
bound by [the Contribution Agreement].”302
“[W]here the putative contract is in the form of a
signed writing, that document generally offers the
most powerful and persuasive evidence of the parties’
intent to be bound.”303
[P]rofessor Williston has stated that a signature “naturally indicates assent, at least in
the absence of an invalidating cause such as
fraud, duress, mutual mistake, or unconscionability. . . .” In Osborn itself, the signatures of
both parties and the notarization of the written agreement provided enough evidence to
show that the parties intended to be bound by
it. Here, both parties signed the Contribution
Agreement. That is strong evidence that the
parties intended to be bound by it.304
“However, Delaware courts have also said that, in
resolving this issue of fact, the court may consider evidence of the parties’ prior or contemporaneous
302

Supr. Ct. Op., 187 A.3d at 1231. The Supreme Court also
highlights Campbell and Kay’s embrace “after signing” as suggestive of the parties’ reconciliation and the consummation of a deal.
Id.
303
Id. at 1230 (citing Seiler, 367 A.2d at 1005; Osborn, 991
A.2d at 1158-59).
304
Id. at 1231 (omission in original) (footnotes omitted) (citing 2 Richard A. Lord & Samuel Williston, Williston on Contracts
§ 6:44 (4th ed.); Osborn, 991 A.2d at 1158-59).

App. 215
agreements and negotiations in evaluating whether
the parties intended to be bound by the agreement.”305
I recognize the strength of the evidence of a signature on an agreement. Signatures are often dispositive
evidence of an intent to be bound. And in most instances, that evidence should carry the day. But in this
highly unusual case, the signatures alone are not sufficient.306 Here, the circumstances surrounding the execution of the Transaction Documents indicate that
the signatures are not presumptive and certainly not
conclusive. The record evidence reveals that Campbell’s conduct and communications do not constitute an
overt manifestation of his assent to be bound by the
Contribution Agreement. First, trial testimony from
Campbell and Salah evidence a practice of endorsing
draft documents to acknowledge receipt, and this testimony weakens the presumption of an intent to be
bound.307 Campbell also credibly testified that,
305

Id. at 1230 (footnote omitted) (citing Del. Bay Surgical
Servs., 900 A.2d at 650; Black Horse, 2014 WL 5025926, at *12).
306
17A Am. Jur. 2d Contracts § 173, Westlaw (database updated Aug. 2019) (“The fact that a party has signed a contract
creates a strong presumption that the party has assented to the
terms of the agreement.”); Carey’s Home Constr., LLC v. Estate of
Myers, 2014 WL 1724835, *4 n.12 (Del. Super. Apr. 16, 2014) (citing 17A Am. Jur. 2d Contracts § 174 (2004), which correlates to
§ 173 in the 2016 update); Am. Eagle Outfitters v. Lyle & Scott
Ltd., 584 F.3d 575, 584 (3d Cir. 2009) (Under Pennsylvania law,
“[s]ignatures are not dispositive evidence of contractual intent.”).
307
Tr. 1104:6-1105:15 (Salah); Tr. 1276:13-21 (Campbell). In
their Reply Brief, Plaintiffs claim that Salah did not answer the
question asked by Campbell’s counsel, “whether Kay told him
that he (Kay) had ‘asked Campbell to sign those drafts and that
Mr. Campbell did sign those drafts?’ “ Pls.’ Reply Br. 12 (citing Tr.

App. 216
consistent with this practice, Kay requested Campbell’s signature to acknowledge receipt during the
August 28 meeting.308
Second, the conduct and communications between
Kay and Campbell before and during the signing appear inconsistent with what one would expect from two
business partners finalizing a significant business
deal. Leading up to the endorsement of the Transaction Documents, tensions rose between Kay and Campbell, disagreements increased (both in quantity and
severity), and distrust between Kay and Campbell
grew. Kay and Campbell both believed at times that
the other was not honoring the original agreement or
was trying to change the agreement. Campbell accused
Kay of excluding Campbell from business decisions he
should be included in309 and bringing in outsiders without Campbell’s approval.310 To address these problems,
Campbell required more and more safeguards to ensure that he was not losing control of the businesses.311

1105:3-9 (Salah)). Plaintiffs cherry-picked this testimony and ignore the surrounding testimony. See Tr. 1104:6-1105:15 (Salah);
see, e.g., Tr. 1104:6-10 (Salah) (“Q. Now, before the end of August
2014, did Mr. Kay ever tell you that he brought any of these earlier drafts of the transaction documents to Mr. Campbell and
asked Mr. Campbell to sign them? A. Yes.”).
308
Tr. 976:17-22 (Campbell).
309
See, e.g., Tr. 992:17:23 (Campbell).
310
JX 75, at 3.
311
E.g., JX 56, at 2 (evidencing that Campbell’s veto on new
investors was an issue).

App. 217
At the same time, Kay felt that Campbell’s requests for safeguards were encroachments on Kay’s
“swim lane.”312 He accused Campbell of trying to
change their deal.313 Kay’s assessment is understandable, especially when Campbell indicated that he sought
other funding and wanted to delay the closing.314
Kay’s and Campbell’s problems with one another,
however, were not the only issue. Campbell testified to
disturbing instances of abuse, frequently directed at
people of other national origins. Other non-party witnesses, both those who were the targets of abuse and
those who personally saw their colleagues endure this
abuse, corroborated this testimony. Salah testified
credibly that Kay condescended to him, questioned Salah’s purpose at EagleForce Associates, and was abrasive and vulgar toward Salah.315 Variganti testified
credibly that his interactions with Kay left him feeling
threatened by Kay.316 Morgan testified credibly that he
witnessed Kay’s abuse of others and heard first-hand
from Kay that he is biased against “Arabs.”317 These
non-party witnesses stood to gain nothing from lying
to this Court regarding this matter, and their very consistent testimony was highly credible. These employees reported these and other issues at the time,

312
313
314
315
316
317

JX 75, at 1.
JX 43.
See JX 65, at 1.
Tr. 1088:10-24 (Salah).
Tr. 720:3-721:5 (Variganti).
Tr. 1174:10-12, 1175:6-14 (Morgan).

App. 218
pressuring Campbell to reconsider a partnership with
Kay.
Further, the tone of the August 28, 2014 meeting
is inconsistent with Kay’s story. When Kay and Powers
arrived at the EagleForce Associates offices for the purpose of signing the Transaction Documents, Campbell
did not greet them warmly or with an excitement associated with completing the deal. Instead, Campbell
asked them to wait while he first met with his developers, even though the meeting with Kay would take
only a few minutes.318 He let Kay, the person who was
about to become a fifty-percent partner in Campbell’s
business, sit and wait in a conference room.319 After sitting in a conference room for well over an hour, Kay
and Powers chose to continue to wait at a nearby restaurant.320
While they were waiting, Kay and Campbell exchanged emails.321 These emails express anger, frustration, and disappointment from both Kay and
Campbell. Kay was frustrated that Campbell was
not respecting his swim lane.322 Campbell expressed
dissatisfaction that Kay excluded him from business
activities and brought in outsiders without first informing Campbell.323
318
319
320
321
322
323

Tr. 329:18-330:1 (Kay).
Tr. 234:11-15 (Powers).
Tr. 235:3-10 (Powers).
See JX 75; JX 76.
See JX 75, at 1.
See id. at 3; JX 76, at 5.

App. 219
Finally, Kay and Powers returned to Campbell’s office after 7:00 p.m., about two hours after they originally arrived.324 Instead of an enthusiastic meeting to
sign the Transaction Documents and move forward
with the deal, Campbell dampened the mood with a request to confirm whether the lawyers had completed
the documents.325 This request seems reasonable in
light of the draft notation on the first page of the Contribution Agreement.326
Neither Rogers nor Offit confirmed that the Transaction Documents were final.327 The subject of the Contribution Agreement included the exchange of fifty
percent of Campbell’s business for millions of dollars.328 For an exchange of this significance between
parties who did not trust each other, a reasonable person would expect Campbell to wait to speak with his
attorney or to read the documents more thoroughly
before signing. While the law does not require that
Campbell do either of these things, under the unusual
facts of this case, both acts are indicators of Campbell’s
intent to be bound (or a lack thereof ). Nonetheless, Kay

324
325
326
327

Tr. 237:9-12 (Powers).
Tr. 977:14-978:8 (Campbell).
JX 71, at 1.
Tr. 334:7-10, 334:15-20 (Kay); Tr. 977:14-978:8 (Camp-

bell).
328

See JX 79 § 3.2.1.

App. 220
and Campbell quickly signed the Transaction Documents, embraced, and left the meeting.329
It is unclear to me why Campbell signed the
Transaction Documents rather than initialing them or
waiting to sign them. Maybe it is because the face of
the Contribution Agreement did not reflect a final
agreement.330 The Contribution Agreement contained
“many odd omissions involving important subjects.”331
Dates were missing, schedules were still completely
blank,332 and key issues were unclear.333 The Contribution Agreement, with its omissions, does not reflect a
document a reasonable person expects to be a final version. Regardless, this meeting and the events leading
up to it do not suggest to me that Campbell intended
to be bound by the Contribution Agreement.
Kay highlights that Campbell had no other source
of funding for the EagleForce businesses when Kay
stopped contributing cash.334 Kay’s emails just before
the meeting indicated that Kay was unwilling to help
329

Tr. 240:7-9 (Powers); Tr. 331:18-333:7 (Kay); Tr. 978:23979:2 (Campbell).
330
See Tr. 987:13-23 (Campbell) (“Q. When you saw the word
‘Draft’ on the document that you signed on the 28th, did that
mean anything to you? A. Yes. That it was a draft. Q. Did you
understand draft to mean a final agreement? A. Absolutely not. I
understood it to be a draft. And then once we got to a final agreement, it would somehow be enumerated with ‘Final’. . . .”).
331
Supr. Ct. Op., 187 A.3d at 1244 (Strine, C.J., dissenting).
332
JX 78, at 1-2; id. Scheds. 3.5, 4.1, 4.2(a).
333
Id. § 3.2(c); Supr. Ct. Op., 187 A.3d at 1244 (Strine, C.J.,
dissenting).
334
See Pls.’ Reply Br. 9.

App. 221
in any way until Campbell signed the Transaction Documents.335 Kay suggests that Campbell finally capitulated to Kay to avoid financial difficulties and signed
the Transaction Documents. The evidence, however,
does not support this conclusion. First, Campbell had
operated EagleForce Associates for years before Kay’s
involvement with limited sources of revenue.336 He had
been able to fund the company with loans or investment from others, such as Campbell’s wife and Salah,
during that time.337 Second, Campbell had asked Kay
to stop contributing funds days before signing, and
Campbell had started looking for other funding.338
Third, Kay had contributed tens of thousands of dollars, against Campbell’s clear instructions, as recently
as August 21, 2014, only a week before signing the
Transaction Documents.339 It is unclear to me that Kay
turning the screws between August 22 and August 28
really changed the EagleForce businesses’ financial
circumstances to such a degree that Campbell capitulated and signed the Transaction Documents that he
believed were incomplete.
At best, Plaintiffs’ counter-narrative presents evidence equal to that presented by Campbell. This balance is insufficient to prevail. Plaintiffs must prove
that a contract exists by a preponderance of the evidence. Even including their strongest evidence, the
335
336
337
338
339

JX 76, at 3.
See Tr. 775:10-11 (Campbell).
Tr. 775:6-11, 926:1-3, 952:23-953:9 (Campbell).
JX 65, at 1.
JX 106.

App. 222
signatures on the Transaction Documents, the evidence is at best in equipoise. And the evidence certainly does not meet the clear and convincing standard
necessary for the relief Plaintiffs seek, specific performance.
D. The LLC Agreement
To be an enforceable contract, the LLC Agreement
must also meet the three elements of the Osborn test.
Just as with the Contribution Agreement, I need address only whether the parties intended that the LLC
Agreement would bind them.340
In signing the November 2013 and April 2014 Letter Agreements, Kay and Campbell demonstrated
their intent to create a limited liability company together. The LLC Agreement “amended and restated a
preexisting agreement that stood on its own in the past
and could do so in the future.”341 The August 27 version
of the LLC Agreement was much more complete than
the Contribution Agreement.342 The parties have not
argued that the LLC Agreement is missing material
terms.343
Nonetheless, Kay and Campbell’s negotiations
and conduct leading up to the signing and at the
signing also apply to the LLC Agreement. Kay and
340
341
342
343

See Supr. Ct. Op., 187 A.3d at 1240.
Id. at 1239.
Compare JX 78, with JX 79.
Supr. Ct. Op., 187 A.3d at 1240.

App. 223
Campbell negotiated the LLC Agreement in tandem
with the Contribution Agreement. Indeed, the LLC
Agreement is an exhibit to the Contribution Agreement.344 Rogers and Offit sent drafts of the LLC Agreement with drafts of the Contribution Agreement.345
Campbell and Kay signed the LLC Agreement at the
same meeting where they signed the Contribution
Agreement.
Because the facts surrounding the negotiation and
signing of the LLC Agreement are largely identical to
those of the Contribution Agreement, the conclusion I
draw from Kay and Campbell’s negotiations and conduct for the Contribution Agreement applies equally to
the LLC Agreement. Nothing about the events leading
up to or during the August 28 meeting suggests an intent to be bound by one document and not the other.
Therefore, I conclude that Campbell did not intend to
be bound by the LLC Agreement.
E. Section 18-109 of the Delaware Limited
Liability Company Act
The Supreme Court did not reach the question of
whether Campbell is subject to jurisdiction by virtue
of 6 Del. C. § 18-109(a).346 Plaintiffs argued post-trial
that this Court has personal jurisdiction over Campbell because (1) Campbell signed the April 2014 Letter
Agreement that named him as a “member, President
344
345
346

JX 78 Ex. B.
E.g., JX 57.
Supr. Ct. Op., 187 A.3d at 1227 n.127.

App. 224
and Chairman” of the LLC and, thus, impliedly consented to personal jurisdiction under § 18-109(a)347 and
(2) Campbell actively participated in the management
of a Delaware LLC, which also creates implied consent
under § 18-109(a).348 I held in the September 2017
Memorandum Opinion that because the April 2014
Letter Agreement concerns a Virginia LLC, Campbell
did not consent to personal jurisdiction in Delaware by
signing that agreement.349 Additionally, I held that
Campbell did not participate in the management of a
Delaware LLC.350
Now, Plaintiffs argue only that § 18-109(a) applies
to Campbell because (1) he was aware by at least May
13, 2014, that Eagle Force Holdings was a Delaware
LLC by virtue of the LLC Agreement’s reference to the
March 17, 2014 certificate of formation for Eagle Force
Holdings and (2) Campbell consented to this Court’s
jurisdiction when he did not object to his appointment
as a manager of an existing Delaware LLC.351 Plaintiffs

347

Pls.’ Answering Post-Trial Br. 44-45.
Id. at 45.
349
Trial Op., 2017 WL 3833210, at *19.
350
Id. The Supreme Court did not reverse or otherwise disturb this holding.
351
Pls.’ Opening Br. 54-55. Plaintiffs waive their earlier argument regarding Campbell’s participation in management of a
Delaware LLC because they do not raise the issue in their postremand briefs. Emerald P’rs v. Berlin, 726 A.2d 1215, 1224 (Del.
1999) (citing Murphy v. State, 632 A.2d 1150, 1152 (Del. 1993))
(“Issues not briefed are deemed waived.”).
348

App. 225
assert that § 18-109(a) applies regardless of the enforceability of the Transaction Documents.352
Campbell responds that the language of §§ 18109(a) and 18-101(10)353 requires Plaintiffs to show
that Campbell materially participated in the management of the Delaware LLC or that “a limited liability
company agreement or similar instrument under
which the limited liability company is formed” names
Campbell as a manager.354 Campbell notes that the Supreme Court did not disturb the finding that Campbell
did not materially participate in the management of a
Delaware LLC, and he argues that there is no valid
limited liability company agreement or similar instrument naming Campbell as a manager of a Delaware
LLC.355 Thus, according to Campbell, § 18-109(a) does
not apply here.

352

Pls.’ Opening Br. 53.
The parties’ briefs refer to 6 Del. C. § 18-101(10) for the
definition of “Manager.” Effective August 1, 2019, § 18-101(12) defines “Manager.” Del. S.B. 91, 150th Gen. Assem., 82 Del. Laws
ch. 48 § 1 (2019). The amended definition, however, does not apply
retroactively. This opinion, therefore, refers to subsection 10 and
applies § 18-101(10) as it existed prior to the 2019 amendment.
Hubbard v. Hibbard Brown & Co., 633 A.2d 345, 354 (Del. 1993)
(“Delaware courts have recognized the general principle that statutes will not be retroactively applied unless there is a clear legislative intent to do so.”).
354
Def.’s Answering Br. 46 (citing 6 Del. C. § 18-101(10)).
355
Id. at 46-47.
353

App. 226
Section 18-109 provides for the service of process
on managers of Delaware limited liability companies.
The relevant portion of § 18-109(a) states,
A manager . . . of a limited liability company
may be served with process in the manner
prescribed in this section in all civil actions or
proceedings brought in the State of Delaware
involving or relating to the business of the
limited liability company or a violation by the
manager . . . of a duty to the limited liability
company or any member of the limited liability company. . . . [T]he term “manager” refers
(i) to a person who is a manager as defined in
§ 18-101(10) of this title and (ii) to a person,
whether or not a member of a limited liability
company, who, although not a manager as defined in § 18-101(10) of this title, participates
materially in the management of the limited
liability company. . . .
Section 18-101(10) provides the definition for
“Manager”: “a person who is named as a manager of a
limited liability company in, or designated as a manager
of a limited liability company pursuant to, a limited
liability company agreement or similar instrument under which the limited liability company is formed.”
Plaintiffs’ arguments regarding the application of
§ 18-109(a) do not persuade me to alter my September
2017 ruling because the first document indicating Eagle
Force Holdings is a Delaware LLC is the unenforceable
LLC Agreement. Plaintiffs argue post-remand that
Campbell became a member and manager of Eagle
Force Holdings by executing the April 2014 Letter

App. 227
Agreement and, thus, impliedly consented to personal
jurisdiction in Delaware under § 18-109(a).356 The
April 2014 Letter Agreement did not inform Campbell
that Kay had secretly created a Delaware limited liability company; nor did it mention anywhere the creation of a Delaware limited liability company.357 To the
contrary, it amended the November 2013 Letter Agreement, which mentioned a Virginia limited liability
company.358 When Campbell signed the April 2014 Letter Agreement, he was unaware that Kay had secretly
created a Delaware LLC. The April 2014 Letter Agreement, thus, does not serve as implied consent to jurisdiction in Delaware.
Plaintiffs also argue that Campbell’s failure to object to the provisions in the draft LLC Agreement after
he learned of them warrants his implied ratification of
those provisions.359 This argument fails. “Agreements
made along the way to a completed negotiation, even
when reduced to writing, must necessarily be treated
as provisional and tentative.”360 The parties here had
not completed their negotiation, and therefore, the provisions of the LLC Agreement “must . . . be treated as
provisional and tentative.” A close reading of the April
2014 Letter Agreement supports this conclusion: “Until the [LLC Agreement] referred to herein is executed
by the parties, [the April 2014 Letter Agreement] shall
356
357
358
359
360

Pls.’ Opening Br. 54-55.
See JX 12.
Id. at 1; JX 1 ¶ 2.
Pls.’ Reply Br. 29.
Leeds, 521 A.2d at 1102.

App. 228
govern their conduct of business and the transactions
and matters set out herein.”361 Without an enforceable
LLC Agreement, the April 2014 Letter Agreement remains the operative agreement, and as I explain above,
this letter agreement does not create Campbell’s implied consent for this Court’s personal jurisdiction.
Thus, § 18-109(a) is not a source for this Court’s personal jurisdiction over Campbell.
IV. CONCLUSION
For the foregoing reasons, the Transaction Documents are not binding on Campbell. Plaintiffs, therefore,
are not entitled to specific performance or damages under the Transaction Documents, and Campbell is not
subject to this Court’s personal jurisdiction pursuant
to the forum selection clauses in the Transaction Documents. Additionally, § 18-109 is inapplicable as a
basis for personal jurisdiction. Plaintiffs identify no
other basis for personal jurisdiction. Thus, I dismiss
the remaining claims in this action. Defendant’s motion to conform the pleadings to the evidence is denied
as moot.

361

JX 12 ¶ 18.

App. 229
APPENDIX G
2020 WL 3866620
Only the Westlaw citation is currently available.
NOTICE: THIS OPINION HAS NOT BEEN
RELEASED FOR PUBLICATION IN THE
PERMANENT LAW REPORTS. UNTIL RELEASED,
IT IS SUBJECT TO REVISION OR WITHDRAWAL.
Supreme Court of Delaware.
EAGLE FORCE HOLDINGS, LLC, and
EF Investments, LLC, Plaintiffs-Below,
Appellants/Cross-Appellees,
v.
Stanley V. CAMPBELL, Defendant-Below,
Appellee/Cross-Appellant.
No. 405, 2019
|
Submitted: May 6, 2020
|
Decided: July 8, 2020
Vaughn, J., filed concurring opinion.
Court Below: Court of Chancery of the State of Delaware, C.A. No. 10803
Upon appeal from the Court of Chancery. AFFIRMED,
in part; REVERSED, in part.
Attorneys and Law Firms
Frank E. Noyes, II, Esquire, Offit Kurman, P.A., Wilmington, Delaware. Harold M. Walter, Esquire, Baltimore, Maryland, for Appellants/Cross-Appellees.

App. 230
David L. Finger, Esquire, Finger and Slanina, LLC,
Wilmington, Delaware for Appellee/Cross-Appellant.
Before SEITZ, Chief Justice; VALIHURA, VAUGHN,
TRAYNOR, Justices; and JOHNSTON, Judge* constituting the Court en Banc.
Opinion
VALIHURA, Justice:
In a decision dated May 24, 2018, (the “Opinion”),1
this Court reversed and remanded a decision of the
Court of Chancery (the “Trial Opinion”).2 This is an
appeal of the Court of Chancery’s August 29, 2019 decision following remand (the “Remand Opinion”).3
I. Background
This lawsuit was filed on March 17, 2015 by
Plaintiffs Eagle Force Holdings, LLC and EF Investments, LLC (collectively, the “Plaintiffs”) against
Stanley Campbell. In 2013, Richard Kay and Campbell
decided to form a business venture to market medical
* Sitting by designation under Del. Const. Art. IV § 12.
1
Eagle Force Hldgs., LLC v. Campbell, 187 A.3d 1209 (Del.
2018) [hereinafter Opinion]. The facts are recounted in detail in
the Opinion, and we do not repeat them here, except as necessary
to address the issues raised in this appeal.
2
Eagle Force Hldgs., LLC v. Campbell, 2017 WL 3833210
(Del. Ch. Sept. 1, 2017) [hereinafter Trial Opinion].
3
Eagle Force Hldgs., LLC v. Campbell, 2019 WL 4072124
(Del. Ch. Aug. 29, 2019) [hereinafter Remand Opinion].

App. 231
diagnosis and prescription technology that Campbell
had developed. The parties outlined the principal
terms of the investment through two letter agreements
in November 2013 and April 2014. Under the principal
terms, Kay and Campbell would form a new limited
liability company and each would be a fifty-percent
member. Kay would contribute cash. Campbell would
contribute stock of Eagle Force Associates, Inc. (“Eagle
Force Associates”), a Virginia corporation, and the
membership interest of Eagle Force Health, LLC (“Eagle Force Health,” and together with Eagle Force Associates, “Eagle Force”), a Virginia limited liability
company, along with intellectual property.
For many months after April 2014, the parties negotiated several key terms of the transaction documents. Kay contributed cash to Eagle Force Associates.
Campbell executed a promissory note for these contributions with the agreement that Kay would cancel the
note when they closed the deal on the new venture.
After months of negotiations, on August 28, 2014, Kay
and Campbell signed versions of two transaction
agreements: a Contribution and Assignment Agreement (the “Contribution Agreement”) and an Amended
and Restated Limited Liability Company Agreement,
(the “LLC Agreement,” and with the Contribution
Agreement, the “Transaction Documents”).
A serious question arose as to whether the parties
intended to be bound by these signed documents.
Plaintiffs asserted that the parties formed binding contracts at the August 28 meeting. Campbell contended
that he signed merely to acknowledge receipt of the

App. 232
latest drafts of the agreements but not to manifest his
intent to be bound by the agreements. Whether there
was a valid, binding contract affected the other main
issue this Court addressed on the prior appeal, namely,
whether this Court and the Court of Chancery could
exercise personal jurisdiction over Campbell. After numerous evidentiary hearings, a five-day trial, and several motions for contempt filed against Campbell—
proceedings spanning more than two years—the Court
of Chancery determined that neither transaction document was enforceable. Accordingly, it dismissed the
case for lack of personal jurisdiction, even after finding
Campbell in contempt of the status quo order.
In reversing the Court of Chancery, this Court
held that the trial court did not properly apply the test
set forth in Osborn ex rel. Osborn v. Kemp.4 In setting
forth the elements of a valid, enforceable contract, we
explained that a valid contract exists when “(1) the
parties intended that the contract would bind them, (2)
the terms of the contract are sufficiently definite, and
(3) the parties exchange legal consideration.”5
Though it mentioned the Osborn test, the trial
court relied primarily on Leeds v. First Allied

4

991 A.2d 1153 (Del. 2010).
Opinion, 187 A.3d at 1212-13 (quoting Osborn, 991 A.2d at
1158). The dissenting Justices agreed that, “the Court of Chancery’s analysis tended to blend two issues relevant to formation:
whether the parties intended to be bound by the contract and
whether the contract contained sufficiently definite terms.” Id. at
1242.
5

App. 233
Connecticut Corp.,6 a Court of Chancery decision that
addresses the enforceability of letters of intent and
provides that the “determination of whether a binding
contract was entered into will depend on the materiality of the outstanding issues in the draft agreement
and the circumstances of the negotiations.”7 Applying
Leeds, the trial court found that the agreement was not
sufficiently definite due to a lack of agreement on certain material terms, primarily the consideration to be
exchanged. We acknowledged that this could have been
viewed as an implicit finding that the parties never
intended to be bound. But we believed there was force
in Plaintiffs’ contention that the parties’ intent to be
bound required a separate factual finding. There was
evidence within the four corners of the documents and
other powerful, contemporaneous evidence, including
the actual execution of the agreements, that suggested
the parties intended to be bound. However, we
acknowledged that there was evidence that cut the
other way. Given that this was a question of fact, we
remanded the case to the Court of Chancery to make a
finding on the parties’ intent to be bound.
As to Osborn’s second inquiry, i.e., whether the
contract’s terms were sufficiently definite, we said that
was largely a question of law. We held that the agreements sufficiently addressed all issues identified by
the trial court as material to the parties—including
6

521 A.2d 1095 (Del. Ch. 1986).
Trial Opinion, 2017 WL 3833210, at *14 (quoting Greetham
v. Sogima L-A Manager, LLC, 2008 WL 4767722, at *15 (Del. Ch.
Nov. 3, 2008) (citing Leeds, 521 A.2d at 1101-02)).
7

App. 234
the consideration to be exchanged. As to the last requirement for a valid contract, the existence of legal
consideration, the parties did not dispute that legal
consideration existed. We directed that, “[o]n remand,
as with the Contribution Agreement, the Court of
Chancery should revisit the evidence and make an
express finding on the parties’ intent to be bound by
the LLC Agreement.”8 We stated further that, “[g]iven
that the parties do not contend before this Court that
any terms of the LLC Agreement are not sufficiently
definite or that the LLC Agreement is not supported
by legal consideration, we conclude that these two
prongs are satisfied.”9
Finally, we addressed the trial court’s determination that, because it lacked personal jurisdiction over
Campbell, its prior contempt orders were unenforceable and that it, therefore, could not decide the pending
contempt motion. More specifically, after presiding
over two hearings on the contempt motions, the trial
court determined that, because it had found that it
lacked personal jurisdiction over Campbell, it could not
hold Campbell in contempt and impose sanctions for
his violations of a status quo order.10 We observed that
8

Opinion, 187 A.3d at 1239.
Id. at 1240.
10
On July 23, 2015, the Court of Chancery granted Plaintiffs’
requested status quo order, providing them access to information
concerning Eagle Force. Eagleforce Hldgs., LLC v. Campbell,
2015 WL 4501504 (Del. Ch. July 23, 2015) (Order) [hereinafter 2015 Order]. The status quo order required Campbell to
give Plaintiffs ten business days’ advance notice of any transaction subject to the status quo order, and it mandated that any
9

App. 235
this Court had not squarely addressed whether the
Court of Chancery could impose sanctions on a defendant for violating a status quo order if the court ultimately found that it lacked personal jurisdiction over
the defendant. In resolving this unsettled question, we
unanimously held that, “when a Delaware court issues
a status quo order pending its adjudication of questions concerning its own jurisdiction, it may punish violations of those orders with contempt and for
sanctions, no matter whether it ultimately finds that it
lacked jurisdiction.”11 Otherwise, we reasoned, “[t]hose

transaction that Plaintiffs objected to in writing could not proceed
without court approval. On May 27, 2016, while proceedings were
pending before the trial court, Plaintiffs moved for sanctions and
to hold Campbell in contempt for violating the status quo order
(the “First Contempt Motion”). Campbell appeared and testified
in an August 31, 2016 evidentiary hearing, but he failed to appear
the next day as directed by the trial court. The court found him in
contempt for failing to provide the required notice before withdrawing approximately $100,000 in accrued unreimbursed expenses from Eagle Force Associates and paying $38,000 in vendor
fees. On March 6, 2017, Plaintiffs filed a supplemental motion for
contempt against Campbell for an additional alleged violation of
the Order (the “Second Contempt Motion”). On May 5, 2017, the
court held an evidentiary hearing on the Second Contempt Motion. Plaintiffs filed yet another such motion on May 24, 2017,
captioned Second Supplemental Motion to Hold Defendant in
Contempt for Violations of the Order (the “Third Contempt Motion”). The court held an evidentiary hearing on August 28, 2017
on this motion. Campbell testified at the evidentiary hearings on
both supplemental motions. The trial court delayed its rulings until its decision on personal jurisdiction.
11
Opinion, 187 A.3d at 1241-42.

App. 236
orders would be meaningless absent the power to enforce them.”12
On August 29, 2019, following additional briefing
and argument, the Court of Chancery issued its opinion on remand.13 The court held that Campbell’s conduct and communications with Kay, before and during
the signing of the Transaction Documents, did not constitute an overt manifestation of assent to be bound by
the documents. Accordingly, it held that “the contribution agreement and the operating agreement are not
enforceable.”14 Because it concluded that Campbell was
not bound by the agreements’ forum selection clauses,
and because Plaintiffs failed to identify any other applicable basis for personal jurisdiction, the court dismissed the remainder of the claims for lack of personal
jurisdiction.
Plaintiffs now raise three issues in their appeal of
the Remand Opinion. First, Plaintiffs assert, in a nutshell, that by relying on and drawing inferences from
the parties’ subjective state of mind, the trial court: (i)
considered the wrong evidence (Campbell’s state of
mind); (ii) applied the wrong test for determining
12

Id. at 1241 (citations omitted). As noted above, on this
point, this Court was unanimous. See id. at 1242 (Strine, C.J.,
concurring in part, dissenting in part, joined by Vaughn, J.) (stating that, “[h]aving exercised the privilege to litigate before our
Court of Chancery, [Campbell] was bound to honor its orders relating to his behavior, and he cannot escape responsibility for his
non-compliance by claiming that he was only before the court to
contest the question of personal jurisdiction”).
13
Remand Opinion, 2019 WL 4072124.
14
Id. at *1.

App. 237
intent to be bound (e.g., a subjective test based upon
Campbell’s unexpressed state of mind); and (iii)
reached an irrelevant conclusion (e.g., in his mind,
Campbell did not intend to be bound). Second, Plaintiffs assert that the Court of Chancery erred in failing
to undertake a separate analysis of the parties’ intent
to be bound to the LLC Agreement and “ignored and
failed to take into account the additional factors appurtenant to the LLC Agreement identified in this
Court’s [Opinion].”15 Finally, Plaintiffs contend that
the Court of Chancery erred in finding that Campbell
did not consent to personal jurisdiction based upon
Campbell’s actual consent contained in the executed
LLC Agreement. They further assert that the court
erred in finding that Campbell did not impliedly consent to personal jurisdiction pursuant to 6 Del. C. § 18109(a). They base this assertion on Campbell’s “knowingly accepting 50%—member status and appointment
as a manager, director, and officer of Eagle Force Holdings, LLC, pursuant to the April 2014 Letter Agreement.”16
Campbell counters that Plaintiffs do not claim
that the factual findings lack evidentiary support in
the record. Rather, according to Campbell, Plaintiffs
complain that the court weighed more heavily evidence
favorable to Campbell, and that this does not constitute reversible error. As to the assertion that the trial
court erred in not making separate findings as to the
15
16

Opening Br. at 4.
Id.

App. 238
LLC Agreement, Campbell cites the trial court’s finding that “the facts surrounding the negotiation and
signing of the LLC Agreement are largely identical to
those of the Contribution Agreement” and that its conclusions drawn from those facts apply equally to both.17
Finally, Campbell asserts that he did not impliedly
consent to jurisdiction.
In addition, Campbell raises three arguments on
cross-appeal. First, he asserts that in the absence of
personal jurisdiction, he was not subject to contempt
citations arising from the status quo order, and that to
hold otherwise violated the Due Process requirement
of the Fourteenth Amendment to the United States
Constitution. Second, he contends that the Court of
Chancery erred by finding him in contempt without
Plaintiffs first submitting a sworn affidavit as required
by Court of Chancery Rule 70(b). Third, Campbell contends that the Court of Chancery erred by holding him
in contempt for action taken between that court’s initial dismissal based upon lack of personal jurisdiction,
and this Court’s reversal, when there was no stay of
proceedings under Court of Chancery Rule 62.
For the reasons stated below, we reject all claims
of error, except for the third issue on cross-appeal, and
thus, we AFFIRM the decision of the Court of Chancery in part, and REVERSE in part.

17

Remand Opinion, 2019 WL 4072124, at *21.

App. 239
II. Analysis
A. The Intent to Be Bound
First, we address Plaintiffs’ contention, broadly
framed, that the Court of Chancery “erred in finding
that intent to be bound to the Transaction Documents
was not manifested by Campbell’s objective overt
acts.”18 Plaintiffs assert a myriad of subsidiary challenges, all of which we have considered and find to be
meritless. Some challenges assert that the court improperly focused on subjective evidence and ignored
other objective evidence. Many challenges criticize the
trial court’s weighing of the evidence, and still others
assert that its credibility determinations were flawed.19
We will not address, in detail, each challenge, but rather, will deal with them broadly. We have reviewed
each of the challenges carefully, and we now have had
two occasions to review this record. Based upon our review of the record, we find none of Plaintiffs’ claims of
error to be meritorious.
The parties begin their discussion of these issues
by suggesting that the trial court ignored the guidance
in our Opinion, and they disagree on the level of deference to be given to the trial court’s factual findings. In
our Opinion, we stated that, “[u]nder Delaware law,
overt manifestation of assent—not subjective intent—
controls the formation of a contract.”20 “As such, in
18

Opening Br. at 3.
See, e.g., Opening Br. at 41-44.
20
Opinion, 187 A.3d at 1229 (quoting Black Horse Capital,
LP v. Xstelos Hldgs., Inc., 2014 WL 5025926, at *12 (Del. Ch. Sept.
19

App. 240
applying this objective test for determining whether
the parties intended to be bound, the court reviews the
evidence that the parties communicated to each other
up until the time that the contract was signed—i.e.,
their words and actions—including the putative contract itself.”21 Whether a party manifested an intent to
be bound is a question of fact.22 The weight given to the
evidence is for the trier of fact to determine.23 Further,
30, 2014) (quoting Indus. Am. Inc. v. Fulton Indus., Inc., 285 A.2d
412, 415 (Del. 1971))) (internal quotation marks omitted).
21
Id. at 1229-30 (citing Black Horse, 2014 WL 5025926, at
*12). In their Opening Brief, Plaintiffs weakly contend that the
trial court erred in considering evidence that post-dated the signing of the Transaction Documents. They assert that, “no evidence
was offered (or identified by the Chancery Court) as to when each
alleged incident with an employee took place,” and that, “in the
absence of evidence that the various reported incidents took place
before August 28, it was improper for the Chancery Court to rely
on them to find Campbell subjectively intended not to be bound
on August 28.” Opening Br. at 17-18. They refer to several specific
examples in their Reply Brief and contend that these events occurred after August 28. Reply Br. at 34-36. They acknowledge
that some of the testimony was “vague and generalized” as to the
timing of them. Plaintiffs assert that the trial court improperly
relied upon these examples and inferred that they may have
caused Campbell to have second thoughts about proceeding with
the deal. We first note the trial court’s recognition of our guidance
in the Remand Opinion. See Remand Opinion, 2019 WL 4072124,
at *3 (stating that, “[t]he evidence that may be considered is limited to the conduct of the parties during the period they negotiated the agreements and when they signed the agreements,” and
that, it considered “only that evidence that the parties communicated to each other up until the time the parties signed the documents”). Further, based upon our review of the record, we find no
reversible error.
22
Opinion, 187 A.3d at 1230.
23
Hudak v. Procek, 806 A.2d 140, 150 (Del. 2002).

App. 241
claims of inconsistencies in the testimony of a witness
go to the weight of that testimony, and the trier of fact
is free to accept part of a witness’s testimony while rejecting other parts.24
As this Court stated in CDX Holdings, Inc. v. Fox:
After a trial, findings of historical fact are
subject to the deferential ‘clearly erroneous’
standard of review. That deferential standard
applies not only to historical facts that are
based upon credibility determinations but
also to findings of historical fact that are
based on physical or documentary evidence
or inferences from other facts. Where there
are two permissible views of the evidence, the
factfinder’s choice between them cannot be
clearly erroneous. When factual findings are
based on determinations regarding the credibility of witnesses, the deference already required by the clearly erroneous standard of
appellate review is enhanced.25
Plaintiffs assert that the trial court erred in focusing on Campbell’s subjective thoughts about events
and communications and what he thought about Kay
as a person. The Court of Chancery concluded that,
“this meeting and the events leading up to it do not
suggest to me that Campbell intended to be bound by
the Contribution Agreement.”26 Pointing to the court’s
reference to Campbell’s intent, Plaintiffs argue that
24
25
26

Jeffers v. State, 934 A.2d 908, 911 (Del. 2007).
141 A.3d 1037, 1041 (Del. 2016).
Remand Opinion, 2019 WL 4072124, at *20.

App. 242
the court instead should have focused on whether a
reasonable person in Kay’s position would have understood from Campbell’s overt actions of August 28, that
Campbell intended to be bound.27
As to the assertion that the Court of Chancery improperly relied on the parties’ subjective intent and
disregarded objective evidence, we are satisfied that
the Court of Chancery adhered to this Court’s guidance
for adjudicating the remaining issue of intent on remand. It engaged in a careful and detailed analysis of
the factual record, and it focused on objective events.
At the outset of its Remand Opinion, the trial court
stated its key holding, i.e., “that Campbell’s conduct
and communications with Kay before and during the
signing of the transaction documents do not constitute
an overt manifestation of assent to be bound by the
documents.”28
Plaintiffs next contend that if the subjective evidence were stripped away, the overt acts leading up to
the August 28 signing tip the scales in their favor.29 We
27

Opening Br. at 16.
Remand Opinion, 2019 WL 4072124, at *1; see also id. at
*18 (“The record evidence reveals that Campbell’s conduct and
communications do not constitute an overt manifestation of his
assent to be bound by the Contribution Agreement.”).
29
For example, Plaintiffs contend that: Campbell’s words
and actions on August 28 conveyed his intent to be bound; the
trial court disregarded the testimony of Katrina Powers (who was
present at the August 28 signing); Campbell’s testimony regarding a practice of meeting with Kay and Powers to acknowledge
receipt of drafts by signing them was not credible; other objective
evidence leading up to the August 28 signing was ignored by the
28

App. 243
reject Plaintiffs’ invitation to re-weigh the evidence.
We are satisfied that the trial court appropriately
weighed the evidence and committed no error in this
regard. The record reflects that in the trial court’s view,
Plaintiffs did not sufficiently tip the scales in their
favor, as the trial court found:
At best, Plaintiffs’ counter-narrative presents
evidence equal to that presented by Campbell.
This balance is insufficient to prevail. Plaintiffs must prove that a contract exists by a
preponderance of the evidence. Even including their strongest evidence, the signatures on
the Transaction Documents, the evidence is at
best in equipoise. And the evidence certainly
does not meet the clear and convincing standard necessary for the relief Plaintiffs seek,
specific performance.30
Plaintiffs suggest that the trial court erred in not
giving greater weight to the parties’ signing of the
Transaction Documents. Although the trial court recognized that, “[s]ignatures are often dispositive evidence of an intent to be bound,”31 it concluded that “in
this highly unusual case, the signatures alone are not
sufficient.”32 On this point, we are sympathetic to

court; and the court admitted that it could not explain Campbell’s
overt acts in a manner consistent with its finding that Campbell
did not intend to be bound.
30
Remand Opinion, 2019 WL 4072124, at *20.
31
Id. at *18.
32
Id.

App. 244
Plaintiffs’ argument that the act of placing signatures
on the signature lines at the end of a contract “is so
universally recognized as the means of accepting and
binding one’s self to the contract, that no other act or
statement is ordinarily required for the signature to
create legal consequences.”33 Indeed, Plaintiffs point
out that on August 28, Campbell did not merely initial
or put his first name on the front or last page of the
document, as he testified he sometimes did.34 Rather,
he put his entire signature on the signature lines of the
Contribution and LLC Agreements, and hand-wrote
his title, “CEO” and/or hand-printed his name on them.
(See Exs. A, B). After Kay and Campbell signed the
agreements, Campbell walked around his desk and
embraced Kay and Powers.35 This evidence strongly
and objectively suggests more than mere acknowledgement of receipt of the documents. But in remanding
this case, we recognized that this case was unusual,
and we specifically asked the trial court to make a finding on intent to be bound. The trial court did just that,
and found that the evidence revealed that Campbell
had a practice of endorsing draft documents to
acknowledge receipt, and that “Campbell also credibly
testified that, consistent with this practice, Kay requested Campbell’s signature to acknowledge receipt
during the August 28 meeting.”36 Even if a reviewing
33

Opening Br. at 21-22.
App. to Opening Br. at A1056 (Campbell Dep. at 363-64);
see also id. at A1521 (Trial Tr. at 916).
35
Trial Opinion, 2017 WL 3833210, at *11.
36
Remand Opinion, 2019 WL 4072124, at *18.
34

App. 245
court were to come out differently, that is not a basis to
overturn the decision of the trial court.37 Plaintiffs’ dissatisfaction with the weight given to this evidence does
not constitute reversible error.
Plaintiffs also contend that the trial court did not
properly consider evidence and testimony from the
third attendee at the August 28 meeting, Katrina Powers. The Court of Chancery concluded that, as to Powers, “it appears that she was not present for or privy to
all communications between Kay and Campbell.”38 The
court stated, “[f ]urther, she does not recall the details
of the conversations between Kay and Campbell during that meeting.”39 Plaintiffs argue, however, that
“Powers gave detailed testimony about what was said,
and not said, at the August 28 meeting which Chancery did not take into account when it weighed the
evidence this time around.”40 Powers testified that she
was present for the entire meeting,41 but it appears

37

See New Castle Cnty. v. DiSabatino, 781 A.2d 687, 690-91
(Del. 2001) (“This court must accept the factual findings made by
the trial judge if those findings are supported by the record and
are the product of an orderly and logical deductive process. In the
exercise of judicial restraint, the applicable standard of appellate
review requires this Court to defer to such factual findings, even
though independently we might have reached different conclusions.”).
38
Remand Opinion, 2019 WL 4072124, at *13.
39
Id.
40
Opening Br. at 26.
41
Powers did testify that she was present during the entire
meeting when the Transaction Documents were executed:

App. 246
that Powers was not privy to emails that were sent between Kay and Campbell.42 The Court of Chancery
found that she was not aware of all communications
between Kay and Campbell. Although the record suggests that Powers was in fact present during the meeting at issue, just as Plaintiffs say, she did not have all
the information about all that was transpiring, nor did
she remember it all.43 We do not find a basis for upsetting the trial court’s conclusions that the “credibility
assessments of Kay and Campbell tip the scales in this
case.”44
Plaintiffs devote a section of their Opening Brief
to arguing that the trial court’s “credibility determination is flawed and should not be given deference because the court ignored relevant evidence directly
contradicting Campbell’s credibility.”45 They further
Q. During the second visit in particular, were you in
the presence of Mr. Campbell the whole time that Mr.
Kay was in the presence of Mr. Campbell?
A. Yes.
App. to Opening Br. at A1136 (Trial Tr. at 237/24-238/3).
42
Remand Opinion, 2019 WL 4072124, at *11.
43
Powers testified that she did not quite remember what was
spoken about: “I’m sure we spoke. I’m not sure what the conversation was. But, you know, I had the documents. That was obviously the reason why we were there, why we had waited around.”
App. to Opening Br. at A1136 (Trial Tr. at 237/18-21). see also id.
at A1181 (Trial Tr. at 291-92).
44
Remand Opinion, 2019 WL 4072124, at *11.
45
Opening Br. at 41. In this regard, Plaintiffs contend, for
example, that: the objective facts do not support Campbell’s credibility concerning the events of August 28; there was an abundance of evidence (including the testimony of Katrina Powers)

App. 247
contend that the objective facts do not support Campbell’s credibility concerning the events of the August
28 meeting when the Transaction Documents were
signed. Finally, they ask this Court to reverse, and to
make our own credibility determinations, instead of remanding the matter to the Court of Chancery.46
We reject these contentions as well. The trial court
stated that it “had multiple opportunities to observe
Campbell and assess his credibility; he testified before
[the court] on three days of the five-day trial and at
four evidentiary hearings,” and that “[h]is testimony as
it relates to his intent to be bound by the Transaction
Documents is credible.”47 The trial court further found
that, “[a]fter listening to Campbell’s testimony on multiple days, [it found] Campbell to be credible concerning the events of August 28 and place[d] more weight
on Campbell’s testimony when it conflict[ed] with
Kay’s and there [was] an absence of contemporaneous
evidence.”48 We decline Plaintiffs’ request that we draw
that undermined Campbell’s credibility; the undisputed facts
both before and after August 28 support the credibility of Kay and
Powers; Campbell’s testimony at trial was contradicted by his
prior deposition testimony; and Campbell’s credibility was undercut by having been found in contempt by the trial court on four
occasions.
46
They argue in their Opening Brief that, “[t]his Court
should make its own determination of the intent to be bound issue
and reverse, not remand.” Opening Br. at 55.
47
Remand Opinion, 2019 WL 4072124, at *15.
48
Id. We reject Plaintiffs’ various other contentions that certain evidence was disregarded or ignored. We do not find that to
be the case, or that any such challenges, singly or collectively,
constitute reversible error.

App. 248
our own inferences and make our own fact findings. As
we said in Levitt v. Bouvier:
It is only when the findings below are clearly
wrong and the doing of justice requires their
overturn that we are free to make contradictory findings of fact. When the determination
of facts turns on a question of credibility and
the acceptance or rejection of ‘live’ testimony
by the trial judge, his findings will be approved upon review. If there is sufficient evidence to support the findings of the trial
judge, this Court, in the exercise of judicial restraint, must affirm.49
Finally, Plaintiffs assert that despite this Court’s
prior holding that the Transaction Documents sufficiently addressed all issues identified by the trial court
as material to the parties, the trial court “attempted to
reinsert this factor in support of the intent to be bound
factor. . . .”50 We note at the outset that Plaintiffs did
not make this precise argument in their Opening Brief
on appeal, and thus, it is arguably waived.51 But even
so, we reject it. The separate concurring and dissenting
opinion differed with the Majority on this point. The
49

287 A.2d 671, 673 (Del. 1972) (citations omitted).
Reply Br. at 49-50.
51
Supr. Ct. R. 14(b)(vi)(A)(3) (“The merits of any argument
that is not raised in the body of the opening brief shall be deemed
waived and will not be considered by the Court on appeal.”).
Plaintiffs do argue that the trial court observed that the Contribution Agreement “did not reflect a final Agreement” based upon
omissions in the document and the presence of the word “Draft”
on the first page supports a finding that Campbell did not intend
to be bound when signing it. Opening Br. at 40.
50

App. 249
Remand Opinion cites the dissent several times,52 and
it observes that, “[t]he Contribution Agreement, with
its omissions, does not reflect a document a reasonable
person expects to be a final version.”53 If that sentence
stood alone, we would understand the basis for Plaintiffs’ concern. But the trial court’s next sentence states
that, “[r]egardless, this meeting and the events leading
up to it do not suggest to me that Campbell intended
to be bound by the Contribution Agreement.”54 The
Remand Opinion also states that, “because the Supreme Court’s analysis suggests that both transaction
documents address all terms material to the parties,
this Court does not examine the materiality of the
terms of the agreements, or lack thereof.”55 Thus, we
think the fairest reading of the Remand Opinion is
that the trial court intended to address, and did address, only the parties’ intention to be bound, and that
it did not disregard this Court’s prior holding.
As to Plaintiffs’ contention that the Court of Chancery failed to undertake a separate analysis of the
parties’ intent to be bound to the LLC Agreement, we
find no reversible error. We are satisfied with the trial

52

See, e.g., Remand Opinion, 2019 WL 4072124, at *18
nn.298, 299; id. at *20 nn.331, 333.
53
Id. at *20.
54
Id.
55
Id. at *3; see also id. at *13 n.214 (“Although the Supreme
Court has tasked me with determining the parties’ intent to be
bound, the Supreme Court appears to foreclose any analysis of
material terms, as I held in my first opinion that there were missing material terms, which the Supreme Court reversed.”).

App. 250
court’s explanation of its holding as to the LLC Agreement where it found that:
Because the facts surrounding the negotiation
and signing of the LLC Agreement are largely
identical to those of the Contribution Agreement, the conclusion I draw from Kay and
Campbell’s negotiations and conduct for the
Contribution Agreement applies equally to the
LLC Agreement. Nothing about the events
leading up to or during the August 28 meeting
suggests an intent to be bound by one document and not the other. Therefore, I conclude
that Campbell did not intend to be bound by
the LLC Agreement.56
Finally, we reject Plaintiffs’ contention that the
Court of Chancery erred in finding that Campbell did
not consent to personal jurisdiction based upon Campbell’s actual consent contained in the executed LLC
Agreement, and in finding that Campbell did not impliedly consent to personal jurisdiction pursuant to 6
Del. C. § 18-109(a).
We did not reach this question in our prior Opinion. On remand, the trial court, in addressing the implied consent issue, held as follows:
Plaintiffs argue post-remand that Campbell
became a member and manager of Eagle
Force Holdings by executing the April 2014
Letter Agreement and, thus, impliedly consented to personal jurisdiction in Delaware
under § 18-109(a). The April 2014 Letter
56

Id. at *21.

App. 251
Agreement did not inform Campbell that Kay
had secretly created a Delaware limited liability company; nor did it mention anywhere the
creation of a Delaware limited liability company. To the contrary, it amended the November 2013 Letter Agreement, which mentioned
a Virginia limited liability company. When
Campbell signed the April 2014 Letter Agreement, he was unaware that Kay had secretly
created a Delaware LLC. The April 2014 Letter Agreement, thus, does not serve as implied
consent to jurisdiction in Delaware.57
The trial court also rejected Plaintiffs’ contention
that Campbell’s failure to object to the provisions in
the draft LLC Agreement after he learned of them constituted his implied ratification of them. It held that
without an enforceable LLC Agreement, the April 2014
Letter Agreement remained the operative agreement,
and that it (for the reasons quoted above) did not reflect Campbell’s implied consent to the exercise of personal jurisdiction in Delaware. We find no reversible
error in the trial court’s conclusions.
B. The Cross-Appeal
We now address Campbell’s arguments on crossappeal. Campbell’s first argument, that in the absence
of personal jurisdiction, he was not subject to contempt
citations arising from the status quo order, is largely a
rehash of the issue we rejected in the first appeal. We
noted that although this Court divided on the issue of
57

Id. at *22.

App. 252
jurisdiction in the first appeal, it was unanimous in
holding that Campbell was subject to contempt for his
violations of the status quo order.
On remand, the Court of Chancery scheduled
separate briefing on the merits and on the contempt
motions. On September 14, 2018, the Plaintiffs filed
a Motion for Contempt Seeking an Order Directing
Campbell to Return Funds. This was their fourth contempt motion (the “Fourth Contempt Motion”).58
On April 23, 2019, the Court of Chancery granted
Plaintiffs’ Second and Third Contempt Motions,
awarded sanctions on the First, Second and Third Contempt Motions, and awarded reasonable attorneys’
fees in an amount to be determined later.59 The court
also granted the Fourth Contempt Motion with sanctions to be determined later. On May 17, 2019, the
court ordered disgorgement of funds that Campbell
had taken, and it awarded attorneys’ fees. It also ordered the appointment of a “facilitator” to monitor
Campbell’s compliance. Then, on September 9, 2019,
the court awarded to Plaintiffs attorneys’ fees and
costs in connection with the contempt motions.
As to the First, Second, and Third Contempt Motions, we reject Campbell’s argument that in the absence of personal jurisdiction, he was not subject to the

58

See App. to Opening Br. at A14.
Eagle Force Hldgs., LLC v. Campbell, 2019 WL 1778269
(Del. Ch. Apr. 23, 2019) (Order).
59

App. 253
contempt citations arising from the status quo order.60
In the first appeal, we held unanimously that, “when a
Delaware court issues a status quo order pending its
adjudication of questions concerning its own jurisdiction, it may punish violations of those orders with
contempt and for sanctions, no matter whether it ultimately finds that it lacked jurisdiction.”61 We observed
that, “the Court of Chancery issued its status quo order
while the defendant was before the court, as other proceedings were pending.”62 We observed that some
courts have found that, although a party may contest
a contempt order for lack of personal jurisdiction, “the
party waives that right if it voluntarily decides to
contest the merits of the claim that it violated a court
order, regardless of whether that order was validly issued.”63 We also said that a court must be able to secure
compliance with status quo orders or they would be
rendered meaningless. Campbell’s present argument,
in essence, challenges our prior holding. He never
sought to challenge that ruling on reargument, and we
reject his attempt to re-litigate this issue.64
As to Campbell’s second contention of error on
cross-appeal, that the court erred by finding him in
contempt without Plaintiffs first submitting a sworn
60

Campbell does not contest any of the Court of Chancery’s
factual findings relating to his violations of the order.
61
Opinion, 187 A.3d at 1241-42.
62
Id. at 1241 (emphasis in original).
63
Id. at 1242 (emphasis in original).
64
See Mendez v. State, 69 A.3d 371, 2013 WL 3270899, at *1
(Del. June 24, 2013) (Table).

App. 254
affidavit under Court of Chancery Rule 70(b), we reject
that claim as well. Campbell does not dispute that he
received the information that a Rule 70(b) affidavit
would contain. Under Rule 70(b),65 the Court of Chancery may find a party in contempt of court if it fails
to obey or to perform an order of which it has
knowledge.66 To be held in contempt, a party must be
bound by an order, have notice of it, and nevertheless
violate it.67 In denying Campbell’s August 25, 2017
Motion to Dismiss or Reschedule the Contempt Hearing,
the Court of Chancery held that, “[t]here is no claim
that the defendant or his counsel lacks knowledge or

65

Court of Chancery Rule 70(b) states:
Contempt and other remedies for disobedience of Court
order.—For failure to obey a restraining or injunctive
order, or to obey or to perform any order, an attachment may be ordered by the Court upon the filing in
the cause of an affidavit showing service on the defendant, or that the defendant has knowledge of the order
and setting forth the facts constituting the disobedience. At the hearing of the attachment, the examination of the defendant and also of witnesses shall be oral
before the Court, unless it be otherwise ordered by the
Court.
In other proceedings taken in the name of the State to
punish contempt, the attachment may be ordered upon
the filing of an affidavit setting forth the facts constituting the contempt and thereupon the proceedings
shall be as set forth in the preceding paragraph of this
rule.
Ct. Ch. R. 70(b).
66
Israel Disc. Bank of N.Y. v. First State Depository Co. LLC,
2012 WL 1021180, at *2 (Del. Ch. Mar. 19, 2012).
67
Id.

App. 255
notice of the July 25, 2015 [sic] order sought to be enforced, or the motion to hold defendant in contempt.”68
Also, in granting the Second and Third Contempt Motions and awarding sanctions on the First Motion, the
court held that, “Campbell had notice of the Order.”69
In fact, the court noted that Campbell had even submitted a proposed order. He did not challenge the
Court of Chancery’s findings. Thus, we agree with
Plaintiffs that Campbell’s argument in this regard is
form over substance, and we, accordingly, reject it.
Finally, we address Campbell’s third argument on
cross-appeal, namely, that the Court of Chancery erred
by holding him in contempt for action taken between
its initial dismissal based upon lack of personal jurisdiction and this Court’s reversal, when no stay of proceedings had been obtained under Court of Chancery
Rule 62. We agree with Campbell on this issue.
Plaintiffs filed the Fourth Contempt Motion on
September 14, 2018, alleging that in the interim period
between the Court of Chancery’s issuance of the Trial
Opinion and this Court’s issuance of the Opinion,
“Campbell made nine payments from Eagle Force Associates, Inc.’s funds to himself and his wife totaling
$1,853,558.47” in violation of Section 3(F) of the July
23, 2015 status quo order (the “2015 Order”) issued by

68
69

Answering Br. Ex. B (August 30, 2016 Order).
Eagle Force, 2019 WL 1778269, at *2.

App. 256
the Court of Chancery at the outset of the litigation.70
As to its duration, the 2015 Order states:
This Preliminary Injunction shall take effect
immediately upon its execution by the Court
(the “effective date”) and shall remain in effect
pending the conclusion of this action or further order of this Court.71
The parties disputed whether Campbell remained
bound by the 2015 Order during the interim appeal period. The Court of Chancery, in an order dated April 23,
2019, held that Campbell did indeed remain bound,
holding that:
The Order bound Campbell during the appeal
period because the Delaware Supreme Court’s
reversal of the Memorandum Opinion nullified the Memorandum Opinion. By making
payments to himself and to his wife during
the appeal period, Campbell took the risk that
the Supreme Court may reverse the Memorandum Opinion, which it ultimately did.72
Then, in its May 17, 2019 Order Resolving the
Fourth Motion for Contempt, the court stated that,
70

Answering Br. Ex. D at ¶ 4 (April 23, 2019 Order Addressing Pls.’ Mot. for Contempt) (internal formatting and quotation
marks omitted).
71
2015 Order, 2015 WL 4501504, at *3 (emphasis added).
72
Answering Br. Ex. D at ¶ 6 (April 23, 2019 Order Addressing Pls.’ Mot. for Contempt); See id. at ¶ 5 (“[T]he effect of a general and unqualified reversal . . . of a judgment, order, or decree
is to nullify it completely and to leave the case standing as if such
judgment, order, or decree had never been rendered.” (quoting 5
C.J.S. Appeal and Error § 1126 (updated Mar. 2019))).

App. 257
“Campbell agrees that he must return $1,097,558.47
to Eagle Force Associates, Inc.”73 Accordingly, the
Court of Chancery ordered Campbell to disgorge
$1,097,558.47 to Eagle Force Associates.
We disagree with the Court of Chancery that
Campbell remained bound by the 2015 Order when
he withdrew funds from Eagle Force Associates during
the interim appeal period. The Court of Chancery’s
determination in 2019 that Campbell remained bound
conflicts with its own prior ruling, issued in January
2018, which stated unequivocally that the 2015 Order
had been dissolved upon issuance of the Trial Opinion.
That 2018 ruling was issued in response to Plaintiffs’
Motion for Partial Renewal of Preliminary Relief Order Pending Appeal (“Motion for Partial Renewal”),
which they filed on December 12, 2017, requesting renewal of the 2015 Order. In that motion, Plaintiffs
acknowledged that, “[a]t the time the Court entered its
Memorandum Opinion in this case, the Court dissolved
the [2015 Order] that, inter alia, restricted Defendant
Stanley Campbell from selling or disposing of equity in
[Eagle Force], or certain defined intellectual property. . . .”74 In its January 24, 2018 order denying that
73

Answering Br. Ex. E at ¶ 5 (May 17, 2019 Order Resolving
Pls.’ Mot. for Contempt).
74
Mot. For Partial Renewal of Prelim. Relief Order Pending
Appeal at 1, Eagle Force Hldgs., LLC v. Campbell, 2018 WL
534465 (Del. Ch. Jan. 24, 2018) (No. 10803-VCF) (emphasis
added). Plaintiffs contend that they moved for the partial renewal
of the 2015 Order pending appeal because they were concerned
with the appeal becoming moot under our holding in First Allied
Conn. Corp. v. Leeds, 520 A.2d 1044, 1987 WL 36213, at *1 (Del.

App. 258
motion (the “January 2018 Order”), the court stated
that “on September 1, 2017, the Court issued a Memorandum Opinion dismissing Plaintiffs’ complaint for
lack of personal jurisdiction and dissolved the [2015]
Order prohibiting Defendant from selling or transferring equity in Eagle Force Associates, Inc., equity in
Eagle Force Health, LLC, or specified intellectual property assets.”75 The court stated further that, “Plaintiffs
seem to be asking for a per se rule that the Court issue
an injunction in all cases where a finding regarding the
ownership of equity has been appealed, but I am aware
of no such rule.”76 Having failed in the Court of Chancery to obtain a renewal of the 2015 Order, Plaintiffs
then filed a motion in this Court for partial renewal of
the 2015 Order, again acknowledging that, “[w]hen
Chancery Court entered its Memorandum Opinion deciding this case (the subject of the pending appeal), it
dissolved the [2015 Order].”77 Without commenting on

Jan. 13, 1987) (Table) (dismissing the appeal as moot when appellees, who were not restrained from selling the property at issue
to a third party, sold the property to a third party after the trial
court’s judgment, thereby rendering appellant’s claim for specific
performance “impossible to accomplish.”). Thus, they contend
that the requested stay was not a waiver of their argument that
the 2015 Order remained in effect.
75
Eagle Force Hldgs., LLC v. Campbell, 2018 WL 534465, at
*1 (emphasis added).
76
Id.
77
Pls.’ Mot. For Partial Renewal of Prelim. Relief Pending
Appeal at 2, Eagle Force Hldgs., LLC v. Campbell, No. 399, 2017
(Del. Jan. 31, 2018) (emphasis added).

App. 259
whether the 2015 Order had dissolved, we denied the
motion on January 31, 2018.78
Nearly a year later, during the December 13, 2018
oral argument on Plaintiffs’ Fourth Contempt Motion,
the Court of Chancery pointed out that Plaintiffs’ Motion for Partial Renewal had stated that “the Court
dissolved the [2015] Order” when the court entered the
Trial Opinion. The court specifically asked counsel to
address that language.79 In fact, it asked Plaintiffs’
counsel: “what I’m struggling with is if the [2015 Order] wasn’t dissolved, why did you need [the partial
renewal] at all?”80 Plaintiffs explained that their use of
the word “dissolved” was “unfortunate,” and was an attempt to emphasize the risk of their appeal becoming
moot under Leeds.81 Later, in its April 23, 2019 Order
Addressing Plaintiffs’ Motion for Contempt, the court,
without mentioning its prior January 2018 Order, held
that Campbell remained bound by the 2015 Order in
the interim appeals period.
Under these circumstances, we hold that it would
be unfair and inequitable to hold that Campbell remained bound by the 2015 Order when the Plaintiffs
contended, and the Court of Chancery itself stated in
its January 2018 Order, that the 2015 Order had
78

Eagle Force Hldgs., LLC v. Campbell, No. 399, 2017 (Del.
Jan. 31, 2018).
79
Oral Argument Tr. at 93, Eagle Force Hldgs., LLC v.
Campbell, 1083-VCF (Del. Ch. May 17, 2019) (Order).
80
Id. at 95.
81
Id. at 96; See Leeds, 520 A.2d 1044, 1987 WL 36213.

App. 260
dissolved upon issuance of the Trial Opinion.82 But
even apart from the court’s prior ruling, with no stay
order in place during that interim period, Campbell
cannot be held in contempt for a violation of it.83
On appeal, Plaintiffs direct our attention to the
text of the 2015 Order, arguing that, by its terms, the
2015 Order remained “in effect pending the conclusion
of this action or further order of this Court,” and the
action had not concluded because there was an appeal
pending. But based upon the parties’ own pleadings
and the court’s January 2018 Order, “conclusion of
this action” was likely intended to mean the trial
court’s post-trial final judgment issued on September

82

We are aware that in the May 17, 2019 Order Resolving
Plaintiffs’ Motion for Contempt, the Court of Chancery stated
that “[i]n the Stipulated Order, Campbell waives his due process
right to an evidentiary hearing to contest whether Campbell had
notice of the [2015] Order and whether he violated the [2015] Order.” But in the referenced May 10, 2019 stipulated order, Campbell stated that, “[n]othing in this stipulation shall be deemed to
be a waiver of Campbell’s right to seek an appeal to the Delaware
Supreme Court from this Court’s Order [Directing Campbell to
Return Funds Taken from Eagle Force Associates, Inc. during
Appeal Period], except as to the amount of funds taken, or to seek
a stay of the Order pending appeal.”
83
See Del. Const. Art. IV, § 24; see also Randy J. Holland,
The Delaware State Constitution at 193 (2d ed. 2017) (“Under
[Article IV, section 24], appellate proceedings do not operate as a
stay on the execution of the judgment, unless sufficient security
is given. . . . The Supreme Court has explained that the supersedeas bond serves ‘to protect the appellee from losing the benefit
of the judgment through the delay or ultimate non-performance
by the appellant.’ ”) (citing DiSabatino v. Salicete, 681 A.2d 1062,
1066 (Del. 1996)).

App. 261
1, 2017.84 This reading is also more consistent with the
commonly understood duration of a preliminary injunction.85 Thus, even aside from the prior pleadings
84

Looking to Blacks’ Law Dictionary, we note that “action” is
defined as a “civil or criminal judicial proceeding.” Action, Blacks’
Law Dictionary (11th ed. 2019). The definition then quotes Estee’s
Pleadings Practice, and Forms, stating that, “[m]ore accurately,
it is defined to be any judicial proceeding, which, if conducted to
a determination, will result in a judgment or decree. The action is
said to terminate at judgment.” Id. (quoting 1 Morris M. Estee,
Estee’s Pleadings, Practice, and Forms § 3, at 1 (Carter P. Pomeroy ed., 3d ed. 1885)) (internal quotation marks omitted) (emphasis added). “Final judgment” is defined as “[a] court’s last action
that settles the right of the parties and disposes of all issues in
controversy . . . Also termed final appealable judgment. Final
judgment, Blacks’ Law Dictionary (11th ed. 2019). The parties
also later stipulated to an order for preliminary interim relief after our reversal Opinion, which the Court of Chancery granted on
June 18, 2018. Eagle Force Hldgs., LLC v. Campbell, C.A. No.
10803-VCF, at *9 (Del. Ch. June 18, 2018). This stipulated order
was substantially similar to the 2015 Order.
85
See Gimbel v. Signal Cos., 316 A.2d 599, 602 (Del. Ch.
1974) aff ’d, 316 A.2d 619 (Del. 1974) (“[T]he preliminary injunction constitutes extraordinary relief generally employed ‘to do no
more than preserve the status quo pending the decision of the
cause at the final hearing on proofs taken.’ ”) (quoting Williamson
v. McMonagle, 83 A. 139, 140 (Del. Ch. 1912)); Powers v. Fidelity
& Deposit Co. of Md., 41 A.2d 830, 853 (Del. Super. 1945) (“It is
clearly and concededly the law of Delaware that an appeal from a
decree dissolving an injunction does not operate to reinstate or
continue the injunction unless a special order to that effect is
made by the Chancellor or by the Supreme Court.”) (citing Cutrona v. City of Wilmington, 125 A. 417 (Del. Ch. 1924)). Further,
federal courts have held that, “[a] preliminary injunction imposed
according to the procedures outlined in Federal Rule of Civil Procedure 65 dissolves ipso facto when a final judgment is entered in
the cause.” U.S. Philips Corp. v. KBC Bank N.V., 590 F.3d 1091,
1093 (9th Cir. 2010); see also U.S. ex rel. Bergen v. Lawrence, 848
F.2d 1502, 1512 (10th Cir. 1988) (“With the entry of the final

App. 262
and ruling, we reject the Plaintiffs’ contentions that
the 2015 Order remained in effect following the Trial
Opinion. Accordingly, we hold that Campbell was not
bound by the 2015 Order following the issuance of the
Trial Opinion, and thus cannot be held in contempt for
violating its terms during the interim appeal period.
III. Conclusion
Accordingly, for the foregoing reasons, we AFFIRM
the decision of the Court of Chancery in part, and REVERSE in part.

judgment, the life of the preliminary injunction came to an end,
and it no longer had a binding effect on any one. The preliminary
injunction was by its very nature interlocutory, tentative and impermanent.” (quoting Madison Square Garden Boxing, Inc. v.
Shavers, 562 F.2d 141, 144 (2d Cir. 1977))); Fundicao Tupy S.A.
v. U.S., 841 F.2d 1101, 1103 (Fed. Cir. 1988); Cypress Barn, Inc.
v. W. Elec. Co., 812 F.2d 1363, 1364 (11th Cir. 1987); Charles Alan
Wright, Arthur R. Miller & Mary K. Kane, 11A Federal Practice
and Procedure § 2947 (3d ed.) (“A preliminary injunction remains
in effect until a final judgment is rendered or the complaint is
dismissed, unless it expires earlier by its own terms, or is modified, stayed, or reversed.”); Joseph T. McLaughlin with updates
by Anthony J. Scirica, 13 Moore’s Federal Practice—Civil § 65.20
(2020 ed.) (“The order granting a preliminary injunction remains
effective until final adjudication. For example, following a grant
of a preliminary injunction, if a plaintiff withdraws the complaint
or the action is dismissed for any reason, the preliminary injunction becomes ineffective.”); George C. Pratt, 20 Moore’s Federal
Practice—Civil § 308.21 (2020 ed.) (stating that a final judgment
in an action for an injunction “will not be stayed, even if an appeal
is taken, unless the court orders otherwise”).

App. 263
Exhibit A
Signatures to the Amended and Restated Limited Liability Company Agreement of Eagle Force
Holdings, LLC86

86

App. to Opening Br. at A796-A798.

App. 264
Exhibit B
Signatures to the Contribution and Assignment
Agreement87

VAUGHN, Justice, concurring:
I continue to believe that the Court of Chancery’s
finding in its Trial Opinion that Kay and Campbell did
not form a contract should have been affirmed for the
reasons Chief Justice Strine and I gave in our opinions
concurring in part and dissenting in part when this
Court’s May 24, 2018 Opinion was issued. I agree with
the rulings the Court makes today on the contempt issues.

87

App. to Opening Br. at A735.

App. 265
APPENDIX H
IN THE COURT OF CHANCERY
OF THE STATE OF DELAWARE
EAGLE FORCE HOLDINGS, )
LLC and EF INVESTMENTS, )
LLC
)
)
Plaintiffs,
) C.A. No. 10803-VCP
v.
)
)
STANLEY V. CAMPBELL,
)
Defendant
)
MOTION TO DISMISS THE
FIRST AMENDED COMPLAINT
(Filed Jun. 19, 2015)
Defendant Stanley V. Campbell (“Defendant” or
“Campbell”) respectfully moves this Court to dismiss
the Plaintiffs’ First Amended Complaint for Specific
Performance, Declaratory and Injunctive Relief, and
Imposition of Constructive Trust (the “Complaint”) for,
among other things, (i) failure to state a claim upon
which relief can be granted, lack of standing, lack of
service, lack of service of process, and lack of jurisdiction, pursuant to Court of Chancery Rule 12(b)(1)-(6);
and (ii) failure to comply with Court of Chancery Rule
9(b) (the “Motion to Dismiss”).
The grounds for the above motion will be set forth
more fully in briefs to be submitted in accordance with

App. 266
a schedule to be agreed upon by the parties or ordered
by the Court.
/s/ Richard P. Rollo (#3994)
Richard P. Rollo (#3994)
Robert L. Burns (#5314)
Thomas R. Nucum (#6063)
Richards, Layton & Finger, P.A.
920 North King Street
Wilmington, Delaware 19801
(302) 651-7700
Attorneys for Defendant
Dated: June 19, 2015

App. 267
APPENDIX I
IN THE COURT OF CHANCERY OF
THE STATE OF DELAWARE
EAGLE FORCE HOLDINGS, :
LLC and EF INVESTMENTS, :
LLC,
:
: Civil Action
Plaintiffs,
: No. 10803-VCP
v.
:
:
STANLEY V. CAMPBELL,
:
Defendant.
:
– – –
Chancery Courtroom No. 12B
New Castle County Courthouse
500 North King Street
Wilmington, Delaware
Thursday, July 9, 2015
2:12 p.m.
– – –
BEFORE: HON. DONALD F. PARSONS, JR., Vice
Chancellor.
– – –
ORAL ARGUMENT ON PLAINTIFFS’ RENEWED
MOTION FOR INTERIM EMERGENCY RELIEF
and RULINGS OF THE COURT
– – –

App. 268
[2] APPEARANCES:
FRANK E. NOYES, ESQ.
Offit Kurman, P.A.
–and–
HAROLD M. WALTER, ESQ.
of the Maryland Bar
Offit Kurman, P.A.
for Plaintiffs
RICHARD P. ROLLO, ESQ.
ROBERT L. BURNS, ESQ.
Richards, Layton & Finger, P.A.
for Defendant
– – –
*

*

*

[48] THE COURT: Right. But I guess it
probably a good idea for all of us – and you can sit down
for a couple minutes, just because I’ll be talking. But I
don’t mean to cut you off from continuing the discussion.
I’ve looked just at the introduction to see what the
motion for protective order is about. I’ve read some on
the lack of personal jurisdiction and those kinds of
things. I think – I don’t think the Court’s going to be
able to resolve whether there is or isn’t personal jurisdiction without resolving whether there were or were
not agreements reached between these parties. And I,
frankly, don’t real have any intention, now that we’ve
gotten at this point, to probably even hear the personal
jurisdiction [49] until – until I hear the whole thing or
someone else hears it on the merits.

App. 269
And I see what – you know, obviously the plaintiffs
have to make Mr. Kay and the person – her name escapes me – who was at the meeting, they’re going to
have be – the August 28th meeting – available for deposition; but it doesn’t make sense to have them being
made available for some truncated purpose related to
personal jurisdiction that depends somewhat on
whether we had an agreement or not, which is the
main issue in the case. I really suggest that you ought
to be talking about full-fledged discovery, unfortunately. It’s not that complicated. You haven’t been dealing with one another for more than a couple of years.
All issues as far as the personal jurisdiction are preserved and they may come up in a summary judgment
context or some sort of thing like that that the Court
will have enough before it. And then at that point we’d
have to decide how are we going to go by summary
judgment or just have a – you know, a trial.
*

*

*

